<html>
<title> - ABANDONED MINED LANDS: INNOVATIVE SOLUTIONS FOR RESTORING THE ENVIRONMENT, IMPROVING SAFETY AND CREATING JOBS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
                        ABANDONED MINED LANDS:
                       INNOVATIVE SOLUTIONS FOR
                      RESTORING THE ENVIRONMENT,
                         IMPROVING SAFETY AND
                             CREATING JOBS

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, July 14, 2011

                               __________

                           Serial No. 112-51

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      



                  U.S. GOVERNMENT PRINTING OFFICE
67-405                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97f0e7f8d7f4e2e4e3fff2fbe7b9f4f8fab9">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                 David Watkins, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
               RUSH D. HOLT, NJ, Ranking Democrat Member

Louie Gohmert, TX                    Peter A. DeFazio, OR
Paul C. Broun, GA                    Madeleine Z. Bordallo, GU
John Fleming, LA                     Jim Costa, CA
Mike Coffman, CO                     Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Dan Benishek, MI                         CNMI
David Rivera, FL                     Martin Heinrich, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Paul A. Gosar, AZ                    Betty Sutton, OH
Bill Flores, TX                      Niki Tsongas, MA
Jeffrey M. Landry, LA                Vacancy
Charles J. ``Chuck'' Fleischmann,    Edward J. Markey, MA, ex officio
    TN
Bill Johnson, OH
Doc Hastings, WA, ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 14, 2011..........................     1

Statement of Members:
    Holt, Hon. Rush D., a Representative in Congress from the 
      State of New Jersey........................................     4
        Prepared statement of....................................     5
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Baker, Thomas Martin, Chairman of the Board, Appalachian 
      Wildlife Foundation, on behalf of Safari Club International    10
        Prepared statement of....................................    11
    Burke, Hon. Marcilynn, Deputy Director, Bureau of Land 
      Management, U.S. Department of the Interior................    14
        Prepared statement of....................................    16
    Heck, Hon. Joe, a Representative in Congress from the State 
      of Nevada..................................................     6
        Prepared statement of....................................     7
    Holtrop, Hon. Joel, Deputy Chief, National Forest System, 
      Forest Service, U.S. Department of Agriculture.............    18
        Prepared statement of....................................    19
    Mittal, Anu K., Director, Natural Resources and Environment 
      Team, U.S. Government Accountability Office................    22
        Prepared statement of....................................    24
        Highlights...............................................    29
    Pagel, Lauren, Policy Director, Earthworks...................    59
        Prepared statement of....................................    61
    Pineda, Loretta, Director, Division of Reclamation, Mining 
      and Safety, Colorado Department of Natural Resources, on 
      behalf of the Interstate Mining Compact Commission and the 
      National Association of Abandoned Mine Land Programs.......    30
        Prepared statement of....................................    32
        Statement of Gregory E. Conrad, Executive Director, 
          Interstate Mining Compact Commission, on Behalf of the 
          Interstate Mining Compact Commission and the National 
          Association of Abandoned Mine Land Programs, May 18, 
          2011, submitted for the record.........................    42
    Skaer, Laura, Executive Director, Northwest Mining 
      Association................................................    47
        Prepared statement of....................................    48
        Email submitted for the record...........................    73


OVERSIGHT HEARING ON THE ``ABANDONED MINED LANDS: INNOVATIVE SOLUTIONS 
  FOR RESTORING THE ENVIRONMENT, IMPROVING SAFETY AND CREATING JOBS.''

                              ----------                              


                        Thursday, July 14, 2011

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 3:33 p.m. in 
Room 1324, Longworth House Office Building, Hon. Doug Lamborn, 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Thompson, and Holt.
    Mr. Lamborn. The Committee will come to order. The Chairman 
notes the presence of a quorum, which under Committee Rule 3(e) 
is two Members. The Subcommittee on Energy and Mineral 
Resources is meeting today to conduct an oversight hearing on 
``Abandoned Mined Lands: Innovative Solutions for Restoring the 
Environment, Improving Safety, and Creating Jobs.''
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member. However, I ask for 
unanimous consent to include any other Members' opening 
statements in the record if submitted to the Clerk by close of 
business today. Hearing no objection, so ordered.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Good afternoon. Because of the series of votes 
and the subsequent delay in convening the hearing, we are going 
to do things a little differently. Thank you for your patience 
in waiting while we went through that sort of lengthy series of 
votes earlier.
    And I do want to apologize on behalf of the staff to the 
Minority for not getting the word out to everybody like we 
should have that we were delaying the opening of the hearing 
until after the series of votes, because we knew that would 
interfere right at the beginning.
    We will have two panels today. Representative Heck from 
Nevada will testify first, and then we will consolidate 
everyone else in one large panel so that we can just finish 
with one round of questions, and expedite things because of the 
lateness of the day.
    Now, for the rest of my statement, I would like to say 
this. We are here today to discuss the Nation's abandoned mined 
lands, and to look at innovative solutions to help restore the 
environment, improve safety, and examine opportunities for job 
creation.
    During the Subcommittee's hearing to examine the 
President's budget proposal for the energy and minerals program 
at the Bureau of Land Management and the United States Forest 
Service, Ms. Skaer had recommended a Good Samaritan approach to 
help address problems associated with abandoned hardrock mines 
in the West, an approach that has been successfully employed by 
the State of Pennsylvania to augment the abandoned mined land 
program that is part of the Surface Mining Control and 
Reclamation Act, or SMCRA, that governs coal mining in the 
United States.
    Mr. Holt, my colleague, and Ranking Member of this 
Subcommittee, was intrigued by the prospect and interested in 
trying to understand why private industry, the mining industry 
in particular, would be willing to voluntarily help address a 
problem that was in part created by others.
    These predecessors prospected and mined without the current 
framework of environmental laws and regulations, or the modern 
mining techniques and reclamation and mine closure practices 
that are now part and parcel of mining activity for both coal 
and hardrock operations.
    So, maybe we can learn more about the motivation, and what 
propels people to do these good things. The Federal Government 
also shares some responsibility for some of the abandoned mined 
lands, and some of the environmental issues associated with 
others.
    In particular, during World War II, the government closed 
down all but one gold mine, and directed how other mines would 
operate for other minerals as part of the war effort. 
Compliance with the Defense Stockpile Act also contributed to 
the problem of abandoned land sites, mine land sites, as we 
will hear from Congressman Heck shortly.
    Representative Heck recently introduced the ``Three Kids 
Mine Remediation and Reclamation Act'', an abandoned mine site 
that was used to stockpile manganese as recently as 2003. I 
will let him give the details of what the Act is about, and the 
history of it.
    During the 111th Congress, I introduced H.R. 3203, the 
``Cleanup of Inactive and Abandoned Mines Act'', a Good 
Samaritan bill with provisions similar to what Ms. Skaer will 
discuss today in her testimony.
    I also would like to welcome Director Pineda from my home 
State of Colorado. I look forward to the insight that you can 
provide as the person in Colorado responsible for overseeing 
much of the State's abandoned mine land cleanup efforts under 
SMCRA.
    We will also hear from the Bureau of Land Management and 
the United States Forest Service about their hardrock abandoned 
mine land programs that have been in place since about 1997.
    Mr. Baker, representing Safari Club International, is 
responsible for reintroducing elk to Kentucky on reclaimed 
mined land. I look forward to hearing about this story and 
insights that he may have.
    We also have the GAO and Earthworks testifying today. I 
believe that this will be a productive hearing. I look forward 
to what everyone has to offer. All of the witnesses and Members 
share the same goal: an abandoned mined land program that 
works, mine reclamation that improves the environment, and the 
reduction of hazards to keep people safe.
    I now recognize the Ranking Member for five minutes for his 
statement.
    [The prepared statement of Mr. Lamborn follows:]

          Statement of The Honorable Doug Lamborn, Chairman, 
              Subcommittee on Energy and Mineral Resources

    Good afternoon because of the series of votes and the subsequent 
delay in convening the hearing we are going to do things a little 
differently than normal.
    We will have two panels; Mr Heck will testify first and then we 
will seat everyone else for one big panel so that everyone that has 
traveled here from outside the beltway has an opportunity to fully 
participate in the hearing.
    Traditionally we would have a separate government only panel, 
however due to the delay imposed by votes we will empanel everyone 
together. Hopefully it will help to engender a positive flow of ideas 
amongst our witnesses and the Members.
    Now for the meat of my statement--we are here today to discuss the 
Nation's abandoned mined lands and look at innovative solutions to help 
restore the environment, improve safety and examine opportunities for 
job creation in the process.
    During the subcommittee's hearing to examine the President's budget 
proposal for the Energy and Minerals Programs at the Bureau of Land 
Management and the U.S. Forest Service, Ms. Skaer had recommended a 
Good Samaritan approach to help address problems associated with 
abandoned hardrock mines in the west; an approach that has been 
successfully employed by the State of Pennsylvania to augment the 
abandoned mined land program that is part of the Surface Mining Control 
and Reclamation Act--SMCRA--that governs coal mining in the United 
States.
    Mr. Holt, my colleague and the Ranking Member of this committee, 
was intrigued by the prospect and interested in trying to understand 
why private industry--the mining industry in particular--would be 
willing to voluntarily help address a problem that was in part created 
by their predecessors prospecting and mining without the benefit of the 
current framework of environmental laws and regulations or the modern 
mining techniques and concurrent reclamation and mine closure practices 
that are part and parcel of modern mining activity for both coal and 
hardrock operations.
    I say that the industry and their predecessors are only in part 
responsible because the Federal government shares responsibility for 
some abandoned mined lands and environmental issues associated with 
others. In particular during World War II--the government closed down 
all but one gold mine and directed how the other mines would operate as 
part of the war effort.
    Compliance with the Defense Stockpile Act also contributed to the 
problem of abandoned mined land sites as we will hear from Congressman 
Heck shortly.
    Mr. Heck recently introduced the ``Three Kids Mine Remediation and 
Reclamation Act,'' an abandoned mine site that was used to stockpile 
manganese as recently as 2003.
    In this case the City of Henderson's redevelopment council along 
with the State of Nevada is interested in acquiring the property from 
the Bureau of Land Management, cleaning up the site and redeveloping 
it. In the process they would assume all environmental liability from 
the federal government, take care of an environmental and physical 
hazard ultimately repurposing the area adding value to the community of 
Henderson. Rather than telling the whole story here I'll let Mr. Heck 
provide the details.
    During the 11th Congress, I introduced H.R.--3203, the ``Cleanup of 
Inactive and Abandoned Mines Act,'' a Good Samaritan bill with 
provisions similar to what Ms. Skaer will discuss today in her 
testimony.
    I also would like to welcome Director Pineda from my home state of 
Colorado. I look forward to the insight you can provide as the person 
in Colorado responsible for overseeing much of the state's abandoned 
mined land cleanup efforts under SMCRA.
    We will also hear from the Bureau of Land Management and the U.S. 
Forest Service about their hardrock abandoned mine land programs that 
have been in place since about 1994.
    Mr. Baker, representing Safari Club International, is responsible 
for reintroducing Elk to Kentucky on reclaimed mined land; I look 
forward to hearing more about his story and the insights he may have 
for us looking for a solution for the problem at hand.
    We also have GAO and Earthworks testifying today. I believe this 
will be a productive hearing and look forward to what everyone has to 
offer. All of the witnesses and Members share the same goal--an 
abandoned mined land program that works, mine reclamation that improves 
the environment and reduction of hazards that keep people safe!
                                 ______
                                 

    STATEMENT OF THE HON. RUSH D. HOLT, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Chairman. Cleaning up abandoned 
mines presents a significant challenge. The environmental 
legacy of abandoned mines really can't be underestimated.
    Even decades after closure, mines continue to leach lead, 
arsenic, mercury, and other heavy metals, into waterways. It is 
striking that in the Western United States the Environmental 
Protection Agency has estimated that about 40 percent of the 
headwaters of rivers and streams have been affected by 
discharges from abandoned hardrock mines, which threatens water 
supplies, increases the costs of water treatment, and limits 
fishing, recreation, and other activities.
    The size of the problem is daunting. The GAO says that we 
don't even know the exact number of abandoned mines across the 
country. The EPA and BLM estimate that there might be half-a-
million abandoned mine locations.
    We need to take steps to prevent the creation of new 
abandoned mines. That is one thing at least that we can do by 
ensuring that mining companies post sufficient bonding and 
financial assurances to allow the land to be fully reclaimed 
after operations cease.
    The EPA is in the process of developing regulations to 
require financial assurances from mining companies on private 
lands, but just this week the Majority approved an amendment to 
the Interior Appropriations bill that will cut off all funding 
for the EPA to develop nationwide rules on minimum financial 
assurances for cleaning up mining operations under the CERCLA, 
the Comprehensive Environmental Response Compensation and 
Liability Act.
    Over half of all abandoned mines are on private lands, and 
we shouldn't prevent the EPA from moving forward with its 
rulemaking. On public lands the Bureau of Land Management has 
regulations that require financial assurances for cleanup.
    However, the GAO has concluded that current bonding is 
often inadequate to fund fully all of the cleanup activities 
which can result in creating more of the kind of problem sites 
that we have been left with from earlier years.
    We should consider adopting policies that require the 
mining industry, which caused the abandoned mines in the first 
place that created the hazard, to take responsibility and pay 
for the cleanup of these sites.
    This idea of polluter pays is already used in reclaiming 
and cleaning up abandoned coal mines under the Surface Mining 
Control and Reclamation Act. Under current law, coal mining 
companies pay a fee to fund the cleanup of legacy coal mines 
throughout the Nation.
    In its budget request, the Administration included a 
proposal to institute an abandoned mine lands fee for hardrock 
mining, and I look forward to hearing more about this proposal 
from our witnesses.
    I also look forward to hearing about proposals to encourage 
voluntary cleanup of abandoned mines through the Good Samaritan 
action. Good Samaritan provisions, I think, if crafted 
properly, have the potential to help reclaim abandoned mines.
    But I think we should be clear and clearheaded that we 
can't gut all environment laws so that large mining 
corporations can squeeze more money out of public lands under 
the guise of cleaning up abandoned mines.
    We do want to encourage the cleanup, and I am eager to find 
the ways to do that. So, I thank the witnesses for traveling. I 
thank you for waiting to accommodate our voting schedule on the 
Floor, and I am looking forward to the testimony. Thank you, 
Mr. Chairman.
    [The prepared statement of Mr. Holt follows:]

       Statement of The Honorable Rush D. Holt, Ranking Member, 
              Subcommittee on Energy and Mineral Resources

    Thank you, Mr. Chairman.
    Cleaning up abandoned mine lands presents a significant challenge. 
The environmental legacy of abandoned mines should not be 
underestimated. Even decades after their closure, some mines continue 
to leach lead, arsenic, mercury and other heavy metals into nearby 
waterways or drinking water supplies. The problem of abandoned mines is 
particularly acute in the Western United States, where the 
Environmental Protection Agency has estimated that approximately 40% of 
the headwaters in rivers and streams have been impacted by discharges 
from abandoned hardrock mines, threatening water supplies, increasing 
water treatment costs, and limiting fishing and recreation activities.
    The size of the abandoned mine lands problem is daunting. The EPA 
and BLM estimate that there may be over half a million abandoned mines 
locations scattered across the country. In fact, according to the GAO, 
we don't even know the exact number of abandoned mines across the 
country.
    And we need to take steps to prevent the creation of new abandoned 
mines by ensuring that mining companies post sufficient bonding and 
financial assurances to allow the land to be fully reclaimed after the 
mine ceases operations.
    The Environmental Protection Agency is in the process of developing 
regulations to require financial assurances from mining companies on 
private lands. But just this week, the Majority approved an amendment 
to the Interior Appropriations bill that will cut off all funding for 
the EPA to develop nationwide rules on minimum financial assurances for 
cleaning up mining operations under CERCLA. Over half of all abandoned 
mines are on private lands and we should not prevent the EPA from 
moving forward with this rulemaking.
    On public lands, the Bureau of Land Management has regulations that 
require financial assurances for cleanup. However, the GAO has 
concluded that current bonding is often inadequate to fully fund all 
cleanup activities, which can result in new abandoned mine sites.
    We should consider adopting policies that require the mining 
industry, which caused the abandoned mines in the first place, to take 
responsibility and pay for the cleanup of these sites. This polluter-
pays principle is already utilized for reclaiming and cleaning up 
abandoned coal mines under the Surface Mining Control and Reclamation 
Act. Under current law, coal mining companies pay a fee to fund the 
cleanup of legacy coal mines throughout the nation. In its budget 
request, the administration included a proposal to institute an 
abandoned mine lands fee for hardrock mining and I look forward to 
hearing more about this proposal from our witnesses.
    Finally, I look forward to hearing about proposals to encourage 
voluntary cleanup of abandoned mines by Good Samaritans. Good Samaritan 
provisions, if crafted properly, have the potential to help reclaim 
abandoned mines. But let us be clear, we should not gut all 
environmental laws so that large mining corporations can squeeze more 
money from public lands under the guise of allowing Good Samaritans to 
clean up abandoned mines.
    With that said, I want to thank all the witnesses for traveling so 
far today to join us. I look forward to hearing from all of you.
                                 ______
                                 
    Mr. Lamborn. All right. Thank you. Congressman Heck, you 
are on the first panel by yourself. You may begin.

 STATEMENT OF THE HON. JOE HECK, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF NEVADA

    Mr. Heck. Well, thank you, Chairman Lamborn, and Ranking 
Member Holt, for inviting me to testify before the Subcommittee 
on what I think is an innovative solution for restoring the 
environment, and improving safety, and creating jobs in my 
district in Southern Nevada.
    I appreciate the opportunity to discuss legislation that I 
introduced just this week, the ``Three Kids Mine Remediation 
and Reclamation Act'', H.R. 2512, to address a serious 
environmental, public safety, and abandoned mine reclamation 
issue in the City of Henderson, Nevada.
    As the Chair mentioned, the ``Three Kids Mine'' is an 
abandoned manganese mine and mill site, consisting of 
approximately 1,262 acres of both Federal and private lands 
which lies within the Henderson City limits, and is literally 
across Lake Mead Parkway, a major roadway, from an increasing 
number of homes and businesses, and it is depicted on the map 
to my right.
    The ``Three Kids Mine'' was owned and operated by various 
parties, including the U.S. Government, from approximately 1917 
through 1961, and was used as a storage area for Federal 
manganese ore reserves from the late 1950s through 2003.
    The project site contains numerous large, unstable shear-
cliff open pits, as deep as 400 feet, huge volumes of mined 
overburden/tailings, mill facility remnants, and waste disposal 
areas, as can be seen on the photographs in front of me.
    To give a sense of scale, the mine overburden is 10 stories 
high in some areas. Abandoned waste ponds are up to 60 feet 
deep, and filled with over one million cubic yards of 
gelatinous tailings containing high concentrations of arsenic, 
lead, and petroleum compounds.
    Reclaiming the project site will require the excavation and 
management of at least 12 million cubic yards of material, 
enough to fill a modern sports stadium, six times. The 
presumptive remedy for the project site is to use the existing 
mine pits as permanent repositories for the mine residue in an 
appropriately engineered manner.
    The Nevada Division of Environmental Protection has 
identified the ``Three Kids Mine'' as a high priority for the 
implementation of a comprehensive environmental investigation, 
remediation, and reclamation program.
    Numerous unsuccessful proposals to clean up and redevelop 
the project site have been advanced over the years, but all 
were ultimately abandoned due to unrealistic estimates of the 
scale of the required remediation.
    The legislation I have introduced, with the support of the 
entire Nevada delegation, is the result of over four years of 
work among the City of Henderson Redevelopment Agency, the 
Department of the Interior, the State of Nevada, and private 
entities, to develop a program to finally clean up the ``Three 
Kids Mine'' site.
    Boiled down to its simplest form, the Secretary of the 
Interior will convey the Federal lands at the project site, 
approximately 948 acres, at fair market value, taking into 
account the costs of investigating and remediating the entire 
site, which includes an additional 314 acres of now private 
lands that were used historically in mine operations.
    The Federal Government will receive a release of liability 
for cleanup of both the Federal lands and the private lands. 
Under the legislation, before the Federal lands are conveyed, 
the State must enter into a binding consent agreement under 
which the cleanup of the entire project site will occur.
    The consent agreement must include financial assurances to 
ensure the completion of the remediation and reclamation of the 
site, and the cleanup will be financed with private capital, 
and Nevada tax increment financing at no cost to the Federal 
Government.
    According to preliminary estimates, the cleanup costs range 
from a low of $300 million to a high of nearly $1 billion. The 
BLM's preliminary estimate of the value of the lands to be 
conveyed, as if they were clean, ranges from $95 million to 
$190 million.
    So, as you can clearly see, the cleanup costs will far 
outweigh the value of the lands to be conveyed. But before any 
conveyance of Federal land, the legislation requires an 
executed mine remediation and reclamation agreement between a 
responsible party and the State of Nevada that would govern the 
CERCLA-protective cleanup program for the entire project site.
    Finally, in exchange for the conveyance of the lands, the 
United States would receive a complete release of liability for 
all existing environmental and hazardous safety conditions 
associated with the entire project site.
    This is indeed a unique and complex public and private 
partnership proposal. It will finally lead to the cleanup of 
the ``Three Kids Mine'' site at no cost to the Federal 
Government.
    In closing, I want to once again thank Chairman Lamborn and 
Ranking Member Holt, as well as other members of the 
Subcommittee, for holding a hearing on the serious problem of 
abandoned mined lands, and innovative solutions for addressing 
the problem. Again, thank you for your time and consideration.
    [The prepared statement of Mr. Heck follows:]

   Statement of The Honorable Joe Heck, a Representative in Congress 
                    from the 3rd District of Nevada

    Chairman Lamborn and Ranking Member Holt, thank you for inviting me 
to testify before the Subcommittee on an innovative solution for 
restoring the environment, improving safety, and creating jobs in my 
District in southern Nevada. I appreciate the opportunity to discuss 
legislation that I introduced this week--the Three Kids Mine 
Remediation and Reclamation Act--to address a serious environmental, 
public safety, and abandoned mine reclamation issue in the City of 
Henderson, Nevada.
    The Three Kids Mine is an abandoned manganese mine and mill site 
consisting of approximately 1,262 acres of Federal and private lands 
which lies within the Henderson City limits and is literally across 
Lake Mead Parkway from an increasing number of homes and businesses. 
The Three Kids Mine was owned and operated by various parties, 
including the United States, from approximately 1917 through 1961, and 
used as a storage area for Federal manganese ore reserves from the late 
1950s through 2003. The project site contains numerous large unstable 
sheer-cliff open pits as deep as 400 feet, huge volumes of mine 
overburden/tailings, mill facility remnants and waste disposal areas. 
To give a sense of scale, mine overburden is ten stories high in some 
areas; abandoned waste ``ponds'' are up to 60 feet deep and filled with 
over one million cubic yards of gelatinous tailings containing high 
concentrations of arsenic, lead and petroleum compounds. Reclaiming the 
Project Site will require the excavation and management of at least 12 
million cubic yards of material (enough to fill a modern sports stadium 
six times). The ``Presumptive Remedy'' for the Project Site is to use 
the existing mine pits as permanent repositories for the mine residue, 
in an appropriately engineered manner.
    The Nevada Division of Environmental Protection has identified the 
Three Kids Mine as a high priority for the implementation of a 
comprehensive environmental investigation, remediation, and reclamation 
program. Numerous unsuccessful proposals to clean up and redevelop the 
Project Site have been advanced over the years. All were ultimately 
abandoned due to unrealistic estimates of the scale of required 
remediation, as well as the complexities posed by the mix of private 
and Federal ownership at the Project Site. Something must be done to 
address this serious blight on the Henderson community.
    The legislation I have introduced, with the support of the entire 
Nevada Delegation, is the result of over four years of work among the 
City of Henderson Redevelopment Agency, the Department of the Interior, 
the State of Nevada, and private entities to develop a program to 
finally clean up the Three Kids Mine site. Boiled down to its simplest 
form, the Secretary of the Interior will convey the Federal lands at 
the project site--approximately 948 acres--at fair market value taking 
into account the costs of investigating and remediating the entire 
site, which includes an additional 314 acres of now-private lands that 
were used historically in mine operations. The Federal Government will 
receive a release of liability for cleanup of both the Federal lands 
and the private lands. Under the legislation, before the Federal lands 
are conveyed, the State must enter into a binding consent agreement 
under which the cleanup of the entire Project Site will occur. The 
consent agreement must include financial assurances to ensure the 
completion of the remediation and reclamation of the Site. The cleanup 
will be financed with private capital and Nevada tax increment 
financing at no cost to the Federal Government.
    In more detail, the legislation would direct the Secretary to 
convey the 948 Federal acres of the Three Kids Mine project site to the 
Henderson Redevelopment Agency for fair market value, discounted to 
reflect the costs of cleanup of the entire Project Site. According to 
preliminary estimates, the cleanup costs for the Project Site range 
from a low of $300 million to a high of nearly $1 billion. The BLM's 
preliminary estimate of the value of the lands to be conveyed as if 
they were ``clean'' ranges from $95 million to $190 million. The value 
and costs will be determined by the Secretary under the legislation 
using established national appraisal methods, environmental assessment 
standards, and cost estimating procedures. We fully expect the cleanup 
costs to substantially exceed the value of the lands to be conveyed. 
Moreover, given the mix of private and Federal lands at the project 
site and the substantial cleanup costs involved, there is no viable 
solution to remediate and reclaim the Federal lands without the private 
lands.
    Before any conveyance of Federal land, the legislation requires an 
executed Mine Remediation and Reclamation Agreement between a 
responsible party and the State of Nevada that would govern the 
``CERCLA-protective'' cleanup program for the entire Project Site 
(Federal and private lands) and ensure that the program is fully 
funded. Finally, in exchange for the conveyance, the United States 
would receive a complete release of liability for all existing 
environmental and hazardous safety conditions associated with the 
entire Project Site.
    Fundamental to the economic viability of the entire project is the 
availability of ``tax increment financing'' under the Nevada Community 
Redevelopment Law. The Nevada Redevelopment Law allows the 
Redevelopment Agency to fund the cleanup of blighted conditions such as 
an abandoned mine and environmental contamination through use of an 
``increment'' of property taxes collected within a designated 
redevelopment area over a 30-year ``capture period.'' The ``increment'' 
is a portion of the assessed value of the property which predictably 
increases in value following cleanup and as the subsequent commercial 
and residential redevelopment build-out occurs. To advance this 
important project, the City of Henderson completed annexation of the 
Three Kids site in January 2009, and the Lakemoor Canyon Redevelopment 
Area was established in February 2009.
    This is a unique and complex ``public/private partnership'' 
proposal. It will finally lead to the cleanup of the Three Kids Mine 
site at no cost to the Federal Government. Millions of dollars have 
been spent on this effort to date on environmental assessment work at 
the Project Site and to advance discussions and negotiations among 
project stakeholders. I believe that this initiative offers a viable 
solution for the cleanup and reclamation of the Three Kids Mine and 
could serve as a model for other similar sites across the country. I 
would respectfully request that the Subcommittee grant expeditious 
consideration of the Three Kids Mine Remediation and Reclamation Act.
    In closing, I want to once again thank Chairman Lamborn and Ranking 
Member Holt, as well as the other members of the Subcommittee, for 
holding a hearing on the serious problem of abandoned mined lands, and 
innovative solutions for addressing the problem. I would be happy to 
answer any questions the Subcommittee might have.
                                 ______
                                 
    Mr. Lamborn. All right. I want to thank you for your 
testimony and for being here today. If anyone submits questions 
to you, we would ask you to answer them in writing, and we will 
excuse you now, and we will go to the second panel.
    Mr. Holt. If I may ask one question before he leaves.
    Mr. Lamborn. Certainly.
    Mr. Holt. Thank you. Since I can't see the graphics here, 
you say that this is a residential area surrounding it?
    Mr. Heck. Across from this area is a residential area. That 
is correct.
    Mr. Holt. And what is the anticipated use, or what might 
you imagine of the use of this land then?
    Mr. Heck. Once fully reclaimed or remediated, it is being 
considered by the City of Henderson as a mixed-use development 
site.
    Mr. Holt. All right. Thank you.
    Mr. Lamborn. All right. Thank you. And I would like to 
invite everyone else to come up to form the second panel, and 
we are consolidating things for the sake of time, and I once 
again apologize for having that vote series earlier, but that 
was out of our control.
    So, The Honorable Marcilynn Burke, The Honorable Joel 
Holtrop, Anu Mittal, Loretta Pineda. Let us see. Marcilynn 
Burke is the Deputy Director of the Bureau of Land Management. 
Joel Holtrop is the Deputy Chief of the United States Forest 
Service.
    Anu Mittal is the Director of the Natural Resources and 
Environment Section of the GAO, the Government Accountability 
Office. Loretta Pineda is the Director of the Division of 
Reclamation, Mining, and Safety, of the Colorado Department of 
Natural Resources, and is also here on behalf of the Interstate 
Mining Compact Commission, and the National Association of 
Abandoned Mine Land Programs.
    Laura Skaer is the Executive Director of the Northwest 
Mining Association. Thomas Martin Baker is the Chairman of the 
Board of the Appalachian Wildlife Foundation and is here on 
behalf of Safari Club International and Lauren Pagel, Policy 
Director of Earthworks.
    Now, like all witnesses, your written testimony will appear 
in full in the hearing record, and so I ask that you keep your 
oral statements to five minutes as outlined in our invitation 
letter to you.
    You will have to turn on the microphone because they are 
not automatic. The five-minute light starts when you begin 
speaking, and the yellow light comes on when there is one 
minute left, and the red light comes on when your five minutes 
are over.
    Now, I am going to take one witness out of order. We 
normally go--and I intend to always go with our Federal 
Government witnesses first as a courtesy. We have one person 
here who has to catch a plane, and so Mr. Baker, I am going to 
ask that you go first, and then you may be excused to go catch 
your plane, and then at that point, we will just finish with 
the rest of our panel. So, you may begin, Mr. Baker.

   STATEMENT OF THOMAS MARTIN BAKER, CHAIRMAN OF THE BOARD, 
 APPALACHIAN WILDLIFE FOUNDATION, AND ON BEHALF OF SAFARI CLUB 
                         INTERNATIONAL

    Mr. Baker. Thank you, Mr. Chairman. My name is Tom Baker. I 
am a hunter, a sportsman, and a conservationist. Just as a side 
note, my three oldest sons are active duty United States 
Marines, proudly serving our country, and my wife and I have 
been married 30 years.
    I can tell you that 30 years ago when I met her, she told 
me that she loved stuffed animals. That meant something 
entirely different to me than it did to her. Over a century ago 
a group of concerned individuals banded together to save a 
place known as Yellowstone.
    The story that follows from the efforts of these 
visionaries of the Boone and Crockett Club is cherished as one 
of our Nation's greatest accomplishments. The history of the 
Hunter Sportsman is a tale of over 100 years of measured and 
thoughtful commitment to conservation.
    It is a commitment that balances human needs with wildlife 
needs, a commitment that sees deep value in preserving the 
hunting tradition, as well as in conserving wildlands and 
wildlife.
    It is a commitment that grows out of a powerful love of 
wildlife, but is also shaped by common sense and a business 
like approach to managing natural resources. By the turn of the 
century, unrestricted killing of wildlife for markets, for 
pioneer settlement of the West, and Native American government 
conflicts, had taken their toll on most North American big game 
populations, and on many species of bird and fish.
    At that time a national conscience that opposed the 
destruction of America's wildlife and natural resources was in 
its infancy. Over the next several decades, Theodore Roosevelt, 
along with Members such as Aldo Leopold, and ``Ding'' Darling, 
championed the passage of laws, the establishment of 
institutions, and the designation of wildlands, which today 
make up our Nation's conservation system, our National Forests, 
our National Parks, our National Wildlife Refuge System, exists 
today in large part because of the extensive efforts of the 
Boone and Crockett Club, and the sportsmen and women of 
America.
    The fundamental policy behind management of our Federal 
lands is multiple use. Sportsmen recognize that. Let me offer 
you a following example of the success that is attainable when 
sportsmen groups cooperate with mining companies.
    In 1996, the Rocky Mountain Elk Foundation pledged over 
$1.4 million to the State of Kentucky's Elk Restoration 
Project. On December 18th, 1997, seven elk that had been 
captured in Western Kansas were released at the Cyprus Amax 
Wildlife Management Area in Eastern Kentucky.
    This was the first of a series of releases that continued 
through the winter of 2002. The plan originally contemplated 
releasing 1,800 elk at a rate of 200 per year for nine years 
across the 15 county restoration zone.
    The translocations were discontinued in 2002 with just over 
1,500 elk having been released at eight different sites, 500 of 
them in the final 12 months of the releases. Since 1997 the 
Foundation has increased its funding of the project to $2 
million.
    The elk have thrived in Kentucky. They are achieving a 90 
percent breeding success rate, and a 92 percent calf survival 
rate. The absence of predators, relatively mild Kentucky 
winters, and abundant food sources, have not only contributed 
to the remarkable population growth, but also account for the 
fact that the Kentucky elk are on an average 15 percent larger 
than elk found in the Western States.
    By July of 2000, Kentucky had the largest free ranging wild 
elk herd east of Montana. Today, State wildlife officials 
estimate the herd size has grown to over 10,000 animals.
    In 2011, more than 61,000 applicants applied for one of the 
800 permits offered by the State for elk hunting. The 
application process alone generated in excess of $700,000 for 
the Department of Fish and Wildlife Resources.
    More importantly, it is estimated that more than $23 
million was generated in the local economy from elk hunting, 
elk viewing, elk tours, hotel stays, and restaurant visits. 
This one project alone has been a tremendous boost to the 
economy of Southeast Kentucky.
    In summary, we need to strive to alleviate the disconnect 
between the many different interests that view these ALM sites. 
Working to a like cause, where one in wildlife, as well as 
people, benefit from a well thought out and well executed plan. 
This is where we should strive to be.
    We need every abandoned mine site and disturbed soil site 
turned back to a wildlife restoration tool. As we approach 
these new projects before us, we need every energy site a 
showcase for innovative wildlife friendly restoration designs 
that address the pertinent issues.
    From sage grouse to deer, elk, small mammals, song birds, 
pollinators, and other wildlife, all these species are reliant 
to our doing what is best. This is more than a pipe dream. The 
technology, and scientific resources, research data, and 
enthusiastic groups, are in place to accomplish these goals and 
create jobs in an economy that desperately needs them. Thank 
you.
    [The prepared statement of Mr. Baker follows:]

         Statement of Thomas M. Baker, Chairman of the Board, 
                    Appalachian Wildlife Foundation

    Over a century ago, a group of concerned individuals banded 
together to save wildlife and a place known as Yellowstone. The story 
that follows from the efforts of those visionaries of the Boone and 
Crockett Club is cherished as one of our nation's greatest 
accomplishments.
    The history of the Hunter/Sportsman is a tale of over 100 years of 
measured and thoughtful commitment to conservation. It is a commitment 
that balances human needs with wildlife needs; a commitment that sees 
deep value in preserving the hunting tradition, as well as in 
conserving wild lands and wildlife; a commitment that grows out of a 
powerful love of wildlife, but that is also shaped by a common-sense, 
business-like approach to managing natural resources.
    By the turn of the century, unrestricted killing of wildlife for 
markets, pioneer settlement of the West, and Native American/government 
conflict had taken their toll on most North American big game 
populations, and on many species of bird and fish. At that time, a 
national conscience that opposed the destruction of America's wildlife 
and natural resources was in its infancy.
    Over the next several decades, Theodore Roosevelt, along with 
members such as Aldo Leopold and J.N. ``Ding'' Darling, championed the 
passage of laws, the establishment of institutions, and the designation 
of wild lands which today make up our nation's conservation system. Our 
National Forest's, National Parks, and the National Wildlife Refuge 
Systems exist today in large part because of the extensive efforts of 
the Boone and Crockett Club and the sportsmen and women of America.
    Abandoned mine lands can have serious negative impacts on wildlife 
habitat, especially for fish and aquatic species. While we understand 
the primary focus of AML efforts to clean up and restore sites that 
pose threats to health and human safety, we would like to see a higher 
priority given to AML sites that are having significant impacts on fish 
and wildlife habitat (Priority 3 sites).
    At a time when regulators are giving intense scrutiny to new mining 
permits because of water quality impacts, very little AML funding is 
available for Priority 3 sites. This is especially true in the 
Appalachian Region where there was extensive surface mining prior to 
the passage of SMCRA. While regulators are more diligent than ever on 
new mine permits, these old ``pre-law'' mine sites have been polluting 
water for at least 35 years. It will take years and probably hundreds 
of millions of dollars to fix these sites in a manner that will improve 
water quality, and restore habitat for fish and other aquatic species, 
some of which are considered imperiled.
    The Appalachian coal fields are experiencing some of the worst 
unemployment rates in the United States, and have the greatest 
concentration of pre-law coal mine sites. Making more funds available 
for Priority 3 sites in the Appalachian Region would greatly benefit 
the ecological integrity of the region as well as provide much needed 
jobs in doing the cleanup.
    With that said, here are a few points we would like the committee 
to consider.
        1.  AML funds should be directed to where the greatest needs 
        are for the cleanup and restoration of habitat on pre-law coal 
        mines, and not be tied so heavily to where coal is mined 
        currently. Current coal production is not reflective of where 
        mining occurred before SMCRA was passed. The Appalachians have 
        enormous needs for AML funds, and a state like Tennessee cannot 
        get adequate AML funds because the current production of coal 
        in Tennessee is very low, yet Tennessee has enormous AML 
        problems.
        2.  We need adequate ``Good Samaritan'' protection from 
        liability for companies, non-profit groups, local and state 
        governments, and anybody else that might want to voluntarily 
        clean up and restore habitat to an AML site. The disincentives 
        for this must be removed.
        3.  We would like to see consideration given to dispersing a 
        portion of AML funds through grants in a program similar to 
        current Farm Bill programs like the Conservation Reserve 
        Program, Conservation Restoration and Enhancement Program, 
        Wetlands Reserve Program, and Wildlife Habitat Incentive 
        Program. Non-profit organizations, state agencies, private 
        landowners and other appropriate entities could qualify for 
        grants that would cost-share AML projects. Priority could be 
        given to projects that improved habitat for threatened and 
        endangered, or imperiled aquatic and upland species.
        4.  We would like to see consideration given to coupling 
        mitigation efforts and AML projects that improve aquatic 
        habitat and can help improve water sources used for municipal 
        drinking water. Some streams in need of reconstruction and 
        channel restoration efforts do not qualify for mitigation 
        efforts because of water quality impairments from pre-law mine 
        sites.
        5.  Provide more incentives for ``re-mining'' of AML coal mine 
        sites on private and public lands.
        6.  While there is a great need for funds to address pre-law 
        hard rock mines, a new source of funding needs to be created 
        specifically for these types of mines so that funds generated 
        from coal mining can be used for the original intent of 
        cleaning up abandoned coal mines.
    Let me offer the following project as an example of the success 
attainable when sportsman's groups cooperate with mining companies
    In 1996 the Rocky Mountain Elk Foundation pledged over $1.4 million 
to the state of Kentucky's elk restoration project. On December 18, 
1997, seven elk that had been captured in Western Kansas were released 
at the Cyprus Amax Wildlife Management Area in Eastern Kentucky. This 
was the first of a series of releases that continued thru the winter of 
2002. The plan originally contemplated releasing 1,800 elk at a rate of 
200 per year for 9 years across a 15 county restoration zone. The 
translocations were discontinued in 2002, with just over 1,500 elk 
having been released at 8 different sites, 500 in the final 12 months 
of the releases. Since 1997, the Foundation has increased its funding 
of the project to $2,000,000.
    The elk have thrived in Kentucky. They are achieving a 90% breeding 
success rate, and a 92% calf survival rate. The absence of predators, 
relatively mild Kentucky winters and abundant food sources have not 
only contributed to the remarkable population growth, but also account 
for the fact that the Kentucky elk are on average 15% larger than elk 
found in western states. By July 2000, Kentucky had the largest free 
ranging, wild elk herd east of Montana.
    Today, state wildlife officials estimate the herd size has grown to 
over 10,000 animals. In 2011, more than sixty-one thousand applicants 
(61,000) applied for one of the eight hundred (800) permits offered by 
the state for elk hunting. The application process alone generated in 
excess of $700,000.00 for the Department of Fish and Wildlife 
Resources. More importantly, it is estimated that more than Twenty-
three million dollars ($23,000,000.00) was generated in the local 
economy from elk hunting, elk viewing, elk tours, hotel stays and 
restaurant visits. This one project alone has been a tremendous boost 
to the economy of south-east Kentucky.
    In summary, we need to strive to alleviate the disconnect between 
the many different interests that view these AML sites. Working to a 
like cause, one wherein wildlife as well as people benefit from a well 
thought out well executed project. This is where we should strive to 
be. We need every abandoned mine and disturbed soil site turned back to 
a wildlife restoration tool. As we approach these new projects before 
us, we need every energy site a showcase for innovative wildlife 
friendly restoration designs that address the pertinent issues. From 
sage grouse to deer, elk, small mammals, song birds, pollinators, and 
other wildlife, all these species are reliant to our doing what is 
best. This is more than a pipe dream, the technology, scientific 
resources, research data, and enthusiastic groups are in place to 
accomplish these goals and create jobs in an economy that desperately 
needs them.
                                 ______
                                 
    Mr. Lamborn. All right. So, I can assume from what you said 
when you first started that you have some stuffed animals at 
home.
    Mr. Baker. I do, sir, several hundred.
    Mr. Lamborn. Now, would the things that are successful in 
Kentucky also work in an arid or semi-arid Western State like 
Nevada?
    Mr. Baker. I would say that it happens every day right now. 
Sportsmen's groups around the country are known for their 
philanthropy, in terms of donating their time, their money, and 
their efforts, and are the leaders I think in conservation in 
providing those types of services for all types of habitat 
projects, reclamation projects, going out and cleaning up the 
land, and working on any site that would harbor wildlife or 
fisheries.
    Mr. Lamborn. All right. At this point, I would like to see 
if the Ranking Member has any questions?
    Mr. Holt. I have no questions now.
    Mr. Lamborn. Or the Member from Pennsylvania, Mr. Thompson?
    Mr. Thompson. Just briefly, Mr. Chairman. Mr. Baker, thanks 
for your testimony. I am from Pennsylvania, and we have a lot 
of abandoned mine sites, and in fact, if you are ever in 
Pennsylvania, I would welcome you to the 5th District.
    We have a wonderful elk visitors center that is located 
strategically in the area of abandoned mine sites that have 
been claimed. I am just curious. In your experiences, have you 
identified any particular barriers as a third-party 
organization working with government, and working with 
landowners, run up against difficulties or barriers to making 
this model work?
    Because it seems to me that based on hearing your 
testimony, and my observations, they are a very effective 
model, and one of a number to be able to utilize these lands 
reclaim them.
    I know that our elk herd is not as large as Kentucky's. We 
have about a thousand, but they are an economic engine, in 
terms of the income from tourism and from hunting, that comes 
into Pennsylvania.
    So, are there any particular issues that you found that 
make what has happened in Kentucky difficult, and barriers to 
be overcome?
    Mr. Baker. There are several things that come to mind. 
Sometimes access. Many of these mines that you are speaking of 
are on private land in many States, and so getting permission 
to go in and work on these properties in a cooperative manner 
with the landowner can sometimes be an issue.
    Obviously money to fund these projects. These sportsmen 
have all the energy in the world. They are happy to go out and 
work on clearing up the habitat. There is no doubt in my mind 
that sportsmen will do that.
    If there was a way that some of these monies in the AML 
funds could be directed to potentially other uses, other than 
the few distinct uses that are allowed for now, I think there 
could be a great combination of effort to help clean up these 
sites.
    Mr. Thompson. Thank you, and thank you, Mr. Chairman.
    Mr. Lamborn. All right. Thank you for coming. You may be 
excused and thank you for your testimony and answering 
questions. I hope you catch your plane OK.
    Mr. Baker. Thank you very much.
    Mr. Lamborn. OK. Now we will resume the regular order for 
our list of witnesses, and we will start with Marcilynn Burke.

            STATEMENT OF THE HON. MARCILYNN BURKE, 
           DEPUTY DIRECTOR, BUREAU OF LAND MANAGEMENT

    Ms. Burke. Good afternoon, and thank you for inviting the 
Bureau of Land Management to testify today on our abandoned 
mine lands program, or our AML program. This program is one of 
the agency's most challenging due to the sheer number of AML 
sites that are associated with safety and environmental 
hazards, and the complexity of remediating them.
    The BLM maintains an inventory of known abandoned mine 
sites on public lands, and most of those are abandoned hardrock 
mines. On BLM managed land, there are approximately 31,000 
abandoned mine sites, with almost 66,000 features, such as open 
shafts, contaminated tailings or wastes, and other physical and 
environmental hazards.
    The BLM is committed to continuing to address these 
hazardous sites, and has taken a number of steps to build a 
comprehensive AML program. Together with our partners, the BLM 
is making progress to remediate these hazards left behind by 
the Nation's mining legacy.
    In contrast to past practices, today in order to conduct 
hardrock mining on BLM lands, companies must post full 
reclamation bonds for their mining operations. Thus, the BLM's 
ALM program addresses abandoned mine lands that stem from 
historical, rather than recent, mining development.
    The agency's ALM program received approximately $16 million 
in Fiscal Year 2011. the BLM prioritizes sites to receive 
funding based upon its AML national level evaluation criteria. 
These criteria are used to evaluate the relative risk posed by 
environmental and physical hazards at each AML site.
    The BLM leverages its financial resources by partnering 
with local, State, and tribal governments, and other Federal 
agencies, as well as industry and nonprofit organizations. Each 
year, there are tragic and potentially avoidable losses of life 
resulting from devastating falls in open shafts of abandoned 
mines.
    One such case occurred in Nevada in March of this year. On 
his day off, a worker for a geothermal company was exploring 
abandoned mine sites with his friends when he fell 
approximately 180 feet to his death at the Rex Mine site.
    The Nevada Department of Wildlife and the BLM had 
previously secured some of the hazardous features on this 
difficult to access and extremely remote mine site. After this 
tragic accident, the BLM worked with several partners to 
further address the hazards of the site.
    The BLM worked with the Great Basin Institute, a nonprofit 
organization, which conducted archeological surveys at the 
site, as well as the Nevada Department of Wildlife, and the 
Nevada Division of Minerals, to secure the remaining hazardous 
features at the site.
    The President's 2012 budget proposes legislation to address 
the AML hazards on Federal, State, and tribal, and private 
lands. The proposal addresses abandoned hardrock mines across 
the country through a new AML fee on hardrock development.
    Just as the coal industry is held responsible for abandoned 
coal sites, the Administration proposes to hold the hardrock 
mining industry responsible for abandoned hardrock mines.
    In a 2008 report the Office of the Inspector General for 
the Department of the Interior found that the BLM and the 
National Park Service needed to better address hazards posed by 
abandoned mines on their lands.
    The BLM has taken a number of steps in the past few years 
to build a comprehensive program that includes improving and 
updating our inventory of known sites and features, revising 
our strategic plan, implementing the Fix-A-Shaft Today or FAST 
Program, which encourages volunteers to participate in 
inventory and safety closure projects, and developing guidance 
to our field office to encourage increased stakeholder 
involvement and improved coordination with our partners.
    This program is working, and we are confident that we will 
advance the program in the future. Of the 31,000 abandoned mine 
sites that are on BLM managed lands, about 25 percent have 
either been remediated or have reclamation actions planned or 
underway.
    The BLM is operating a dynamic abandoned mine land program 
in the face of many challenging realities on the ground. We are 
making progress and are committed to making the program a 
success with the help of our many partners. Thank you again for 
the opportunity to testify this afternoon, and I am happy to 
answer any questions.
    [The prepared statement of Ms. Burke follows:]

            Statement of Marcilynn Burke, Deputy Director, 
       Bureau of Land Management, U.S. Department of the Interior

Introduction
    Thank you for inviting the Bureau of Land Management to testify 
today on ``Abandoned Mine Lands: Innovative Solutions for Restoring the 
Environment, Improving Safety and Creating Jobs.''
    Nationally, the BLM's Abandoned Mine Lands (AML) program is one of 
the agency's most challenging due to the sheer number of AML sites, 
their associated safety and environmental hazards, and the complexity 
of remediating them. The BLM maintains an inventory of known abandoned 
mines on public lands, most of which are abandoned hardrock mines. On 
BLM-managed lands, there are approximately 31,000 abandoned mine sites 
with almost 66,000 features, such as entryways, contaminated tailings, 
and other physical and environmental hazards. The BLM is committed to 
continuing to address and remediate these hazardous sites, and has 
taken a number of steps to build a comprehensive AML program. Together 
with the collaborative efforts of the agency's AML partners, the BLM is 
making progress to remediate these hazards left from the nation's 
mining legacy.

Historical Background
    The paradox presented by the abandoned mine challenge is playing 
out across the West. For a century and a half after gold was discovered 
in 1848, starting the famous California Gold Rush, miners scoured 
hillsides and mountains, dug pits, and subsequently abandoned them with 
little or no reclamation, creating the public safety issues we face 
today. These years of mining have left thousands of dangerous shafts, 
portals, and other hazards. In that time, the settlement of the West 
took root and flourished, and today these growing populations that are 
eager to enjoy the outdoors by hiking, hunting, and riding off-highway 
vehicles are at risk from the remnants of our mining past.
    Each year there are tragic and potentially preventable stories 
about the loss of life, such as a devastating fall into an open shaft 
of an abandoned mine. One such case occurred in Nevada in March. A 
worker for a geothermal company was exploring abandoned mine sites with 
friends on a day off when he fell approximately 180 feet to his death 
at the Rex Mine site. The Nevada Department of Wildlife and the BLM had 
previously secured some of the hazardous features of the Rex Mine, but 
the site is difficult to access and is in an extremely remote location.
    The BLM is updating its national AML inventory database 
continuously as new sites are discovered and further inventories are 
completed. While a majority of AML sites pose safety hazards such as 
open mine shafts and pits, unstable rock, decaying support beams, and 
even explosive and toxic chemicals, approximately 20 percent pose 
environmental hazards to human health and drinking water. These hazards 
include mercury contamination in discharge from placer gold mines and 
mercury mines, and sediment from asbestos mines, arsenic and lead 
contamination from mine tailings, and acidic mine drainage from large 
sulfide mines. We have identified many sites with the highest potential 
for harm to public health and safety and are continuing to work with 
Federal, State, and Tribal partners to address them.

BLM's AML Program
    In contrast to these past practices, hardrock mining today on BLM 
lands requires companies to post full reclamation bonds for their 
mining operations. Thus, the BLM's AML program remediates abandoned 
mine lands from historical development. The AML program supports the 
BLM's core programs by restoring degraded water quality, cleaning up 
mine waste that has been contaminated by acid mine drainage and heavy 
metals, such as zinc, lead, arsenic, and mercury, remediating other 
environmental impacts on or affecting public lands, and mitigating 
safety issues.
    The BLM's environmental cleanup and remediation activities cover a 
broad spectrum, and are guided by important laws such as: the 
Comprehensive Environmental Response, Compensation, and Liability Act 
(CERCLA); the Federal Land Policy and Management Act (FLPMA); and the 
National Environmental Policy Act (NEPA). Through the application of 
those laws, the agency addresses the impacts from the associated 
hazards along with the proposed mitigation work necessary to remediate 
a site.
    The BLM's AML program received approximately $16 million in FY 
2011. The BLM prioritizes which sites receive funding based upon AML 
National Level Evaluation Criteria found in the BLM AML Program's 
Strategic Plan, which weighs several different criteria for both 
environmental and physical safety sites. In addition the BLM received 
approximately $4 million in FY2011 from the Department of the Interior 
Central Hazardous Materials Fund. When a responsible party is known, 
the BLM also seeks cost recovery and in-kind services.
    The BLM works to stretch these financial resources by partnering 
with local and state governments, tribes, and other federal agencies, 
as well as industry and nonprofit organizations. For instance, after 
the Rex Mine accident mentioned earlier, the BLM worked with the Great 
Basin Institute, which conducted archaeological surveys, as well as the 
Nevada Department of Wildlife, and Nevada Division of Minerals, to 
secure remaining features at the site. The BLM in Nevada has been a 
leader in leveraging partnerships. Its roster of current active 
partners includes educational and nonprofit groups such as Bat 
Conservation International, Nevada Mining Association, University of 
Nevada Reno, and the Desert Research Institute; a host of local 
governments, including the Pyramid Lake Paiute and Walker River Paiute 
Tribes, and numerous state and Federal agencies.
    Through the American Recovery and Reinvestment Act (ARRA), the BLM 
received nearly $30 million and was able to undertake 77 mine 
remediation projects. One of those projects was to close the War Eagle 
Abandoned Mine on the Western Slope of Colorado. The project used 
$30,000 in ARRA funding that provided the workers to close 21 unsafe 
mine openings in an area popular for hiking, fishing, touring, and off-
road vehicle riding. The BLM completed the work on this three-county 
project with partners from the state, including the Colorado Division 
of Reclamation, Mining and Safety.

AML Legislative Proposal
    The President's 2012 Budget proposes legislation to address AML 
hazards on Federal, State, Tribal, and private lands. The proposal 
addresses abandoned hardrock mines across the country through a new AML 
fee on hardrock production. Just as the coal industry is held 
responsible for abandoned coal sites, the Administration proposes to 
hold the hardrock mining industry responsible for abandoned hardrock 
mines. The proposal will levy an AML fee on all uranium and metallic 
mines on both public and private lands that will be charged on the 
volume of material displaced. The fee will be collected by the Office 
of Surface Mining, while the receipts will be distributed by BLM. An 
advisory council comprised of representatives of Federal agencies, 
States, Tribes, and non-government organizations, will create objective 
criteria to rank AML projects. Using this prioritized list of National 
sites, BLM will be able to distribute funds to reclaim the Nation's 
most dangerous and environmentally hazardous sites each year.

Moving Forward
    The Office of the Inspector General (OIG) found in a 2008 report 
that the BLM and NPS needed to better address hazards posed by 
abandoned mines on their lands.
    The BLM has taken a number of steps to build a comprehensive AML 
program that include: improving the inventory of known ALM sites and 
features, revising the BLM AML Strategic Plan; implementing the ``Fix a 
Shaft Today'' program that encourages volunteers to participate in 
inventory and safety closure projects; and developing guidance to 
encourage increased stakeholder involvement and improved coordination 
with AML partners at the Federal, state and local level. We realize the 
importance of an effective AML program and the need to best prioritize 
limited funding.
    The program is working, and we will continue to make progress. Of 
the 31,000 abandoned mine sites mentioned earlier, about 25 percent 
have either been remediated or have reclamation actions planned or 
underway. Most of the remaining 75 percent require further 
investigation and remediation, posing a significant challenge as we 
seek to protect public health and safety, as well as the environment.

Conclusion
    The BLM is operating a dynamic abandoned mine land program in the 
face of challenging realities on the ground. We are making progress and 
are committed to making the program a success. Thank you and I am happy 
to answer any questions.
                                 ______
                                 
    Mr. Lamborn. All right. Thank you for your testimony, and 
your patience in being here, and now we will hear from Mr. 
Holtrop.

STATEMENT OF THE HON. JOEL HOLTROP, DEPUTY CHIEF, UNITED STATES 
                         FOREST SERVICE

    Mr. Holtrop. Thank you for the opportunity to testify 
before you today on the United States Forest Service's 
abandoned mine lands program. Since the early 1990s, the Forest 
Service has implemented programs to address the safety, human 
health, and environmental hazards posed by tens of thousands of 
abandoned mines throughout the National Forests and grasslands.
    Key elements of these programs include mitigating abandoned 
mine hazards, restoring land and water contaminated or 
disturbed by abandoned mines, and enhancing fish and wildlife 
habitat through reclamation of abandoned mines.
    The impacts caused by abandoned mine lands across many 
jurisdictional boundaries can affect Federal, State, and 
private lands across the Nation. Despite the effort of Federal 
and State Agencies, and other parties, abandoned mine lands 
continue to pose both physical safety hazards to the public, 
and threats to human health and the environment from hazardous 
contaminants.
    The movement to clean up abandoned mines on public lands 
has gained momentum in recent years as the Forest Service and 
numerous Tribal, Federal, State, and private partners have 
begun to tackle mutual problems of health and safety with 
heightened commitment.
    Although complex challenges remain, substantial progress is 
being made toward reclaiming abandoned hardrock mine sites, key 
watersheds, and other sites across public and private 
boundaries.
    Various estimates exist for the number of abandoned mines 
on National Forest system lands, but the exact number is 
unknown. However, there may be 27,000 to 39,000 abandoned mines 
of all types on National Forest system lands.
    Data also indicates that 9,000 to 13,000 of the abandoned 
hardrock mines have records of past mineral production, and 
therefore are considered more likely to require environmental 
cleanup or safety mitigation work. The scope of AML cleanup on 
land managed by the Forest Service is large and can consume an 
estimated $4 billion to $6 billion, or even more, considering 
potential long term treatment needs to complete response 
actions at these sites.
    There are three categories of work that may be funded at 
abandoned mine land sites. Cleanups at sites that are releasing 
or threatening to release hazardous substances, such as heavy 
metals from acid mine drainage.
    This work is done under the Forest Service delegated CERCLA 
authority. A second is cleanup of non-hazardous substance-
related surface disturbance, such as revegetation of disturbed 
areas, reconstruction of stream channels and flood planes, and 
the third is mitigation of physical safety hazards, such as 
closure of adits and shafts, and removal of dangerous 
structures.
    Since 1998, we have mitigated more than 2,000 safety 
hazards and cleaned up hazardous substances at more than 400 
sites, with another 150 hazardous substance cleanups in 
progress.
    Environmental cleanups of abandoned mines vary in size, 
from hundreds of thousands, to many millions of dollars. In 
almost all cases the site investigation, the planning and 
actual cleanup work is performed by private environmental 
engineering and construction firms under contract to the Forest 
Service.
    States such as Colorado, Arizona, New Mexico, and 
California, have the largest abandoned mine safety hazard 
mitigation workload. We work closely with local communities 
throughout the reclamation process by involving them in 
decision making regarding cleanup, and providing a range of 
training opportunities and involving local contractors in the 
remediation work, thus creating local employment opportunities.
    The Forest Service coordinated with States during the 
inventory phase of the AML program by using data from State 
inventories. Coordination with States on environmental cleanup 
and safety projects is encouraged through the use of project 
selection criteria, which rewards State and Federal 
partnerships, and evidence of State priorities, such as work 
within a State's priority watershed, or water quality limited 
stream, or water body.
    Formal partnerships, or agreements, exist with both State 
and Federal Agencies, like the Environmental Protection Agency, 
where cleanup involves mixed ownership sites that include 
private or State lands. That concludes my statement, and I will 
be happy to answer any questions that you may have.
    [The prepared statement of Mr. Holtrop follows:]

   Statement of Joel Holtrop, Deputy Chief, National Forest System, 
             Forest Service, U.S. Department of Agriculture

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to testify before you today on the U.S. Forest Service's 
abandoned mine lands (AML) program. Since the early 1990's, the Forest 
Service has implemented programs to address the safety, human health 
and environmental hazards posed by tens of thousands of abandoned mines 
throughout the national forests and grasslands. Key elements of these 
programs include mitigating abandoned mine hazards; restoring land and 
water contaminated or disturbed by abandoned mines; and enhancing fish 
and wildlife habitat through reclamation of abandoned mines. The 
impacts caused by abandoned mine lands cross many jurisdictional 
boundaries and affect federal, state and private lands across the 
nation. Despite the effort of federal and state agencies and other 
parties, abandoned mine lands continue to pose both physical safety 
hazards to the public and threats to human health and the environment 
from hazardous contaminants. In California alone, at least 15 adults 
have died and 23 adults and children have been injured in abandoned 
mines since 2001 \1\.
---------------------------------------------------------------------------
    \1\ State of California Department of Conservation, Abandoned Mine 
Lands Unit (AMLU)
---------------------------------------------------------------------------
    The movement to clean up abandoned mines on public lands has gained 
momentum in recent years as the Forest Service and numerous Tribal, 
Federal, State, and private partners have begun to tackle mutual 
problems of health and safety with heightened commitment. Although 
complex challenges remain, substantial progress is being made toward 
reclaiming abandoned hardrock mine sites in key watersheds and other 
sites across public and private boundaries.

BACKGROUND
    The authorization of mining for metals and mineral resources on 
federally administered lands helped encourage industrial growth and 
settlement of the West. Many of these mineral deposits were located in 
remote areas far from population centers. Without the benefit of 
today's environmental laws and regulations, when a mine was no longer 
profitable, common practice was to abandon the site and, in some cases, 
to vacate entire mining districts. As a result, today many abandoned 
mines pose hazards to public safety, human health and the environment.
    Currently the Forest Service proactively manages and mitigates the 
impacts of mine operations, including abandoned mine operations, 
through its Environmental Compliance and Protection/Abandoned Mine Land 
Program (ECAP/AML), which consists of three major activities:
        1.  Cleanup and reclamation of National Forest System (NFS) 
        lands impacted by hazardous materials and/or mining activities;
        2.  mitigation of safety hazards associated with inactive/
        abandoned mine lands; and
        3.  environmental compliance audits of Forest Service 
        operations, facilities, and permitted activities.
    Approximately 75 to 85 percent of the total ECAP/AML budget is 
expended on the cleanup and safety hazard mitigation at abandoned mine 
sites.
    Various estimates exist for the number of abandoned mines on NFS 
lands but the exact number is unknown. All estimates are based at least 
in part on abandoned mine data now part of the Mineral Resources Data 
System (MRDS), which is managed by the U.S. Geological Survey (USGS). 
Analyses of the data indicates there may be 27,000 to 39,000 abandoned 
mines of all types on NFS lands, of which 18,000 to 26,000 of the total 
are abandoned hard rock mines. The USGS data also indicates that 9,000 
to 13,000 of the abandoned hard rock mines have records of past mineral 
production, and therefore are considered more likely to require 
environmental cleanup or safety mitigation work. These numbers are not 
absolute because not all AML sites on NFS lands have been identified or 
evaluated for releases of hazardous substances. Regardless of the exact 
number, the scope AML cleanup on land managed by the Forest Service is 
large and could consume an estimated $4 to $6 billion, or even more 
considering potential long term treatment needs, to complete response 
actions at these sites.
    Since 1998, the Forest Service has mitigated more than 2,000 safety 
hazards and cleaned up hazardous substances at more than 400 sites, 
with another 150 hazardous substance cleanups in progress. Between 1998 
and 2010, the Forest Service spent approximately $340 million on 
abandoned mine environmental cleanup and safety mitigation. USDA's 
Comprehensive Environmental Response, Compensation, and Liability Act 
(CERCLA) enforcement program has led to over $640 million dollars of 
work or funding provided by potentially responsible parties (PRP) at 
abandoned mine sites.
    As part of our efforts to promote community involvement, we work 
closely with local communities throughout the reclamation process by 
involving them in decision-making regarding cleanup and reuse options, 
providing a range of training opportunities, and involving local 
contractors in the remediation work thus creating local employment 
opportunities.
    Environmental cleanups of abandoned mines vary in size from 
hundreds of thousands to many millions of dollars. In almost all cases, 
the site investigation, planning and actual cleanup work is performed 
by private environmental, engineering and construction firms under 
contract with the Forest Service. Private contractors also perform much 
of the abandoned mine safety closure work in states such as Colorado, 
Arizona, New Mexico and California that have the largest abandoned mine 
safety hazard mitigation workload.

AML PROJECT SELECTION AND FUNDING
    There are three categories of work that may be funded at abandoned 
mine land sites:
        1.  Cleanups at sites that are releasing or threatening to 
        release hazardous substances such as heavy metals from acid 
        mine drainage. This work is done under the Forest Service 
        delegated CERCLA authority. USDA and Forest Service policy 
        requires that, before appropriated funds are spent on the 
        remediation of a site, a ``potentially responsible party'' 
        (PRP) search must be performed to identify whether a viable 
        responsible entity exists to fund the site clean-up in lieu of 
        using appropriated funds. As the Forest Service has moved 
        forward with its PRP searches, it has found that many of the 
        abandoned mine sites on the national forests are old, with the 
        majority of the mining activities occurring from the 1800s 
        through the early 1900s. Very few of these searches have 
        resulted in the identification of a viable responsible party.
        2.  Cleanups of non-hazardous substance-related surface 
        disturbance such as revegetation of disturbed areas, 
        reconstruction of stream channels and floodplains (Non-CERCLA 
        Cleanup).
        3.  Mitigation of physical safety hazards such as closure of 
        adits and shafts and removal of dangerous structures (Safety 
        Mitigation).
    Descriptions of proposed CERCLA and non-CERCLA cleanup projects, 
including abandoned mines along with the costs and benefits of each, 
are submitted by the Forest Service Regional Offices two years prior to 
the fiscal year that funding would be received. Because the number of 
projects always exceeds the available budget, they are prioritized 
based on potential benefits to human health and safety; environmental 
factors such as water quality; and economic and social factors 
including the potential for state or federal partnerships, public 
interest and overall cost. The projects are then ranked and funded as 
money becomes available through the budget process.
    In FY 2011, we received approximately $16 million to fund CERCLA 
cleanup of 75 contaminated sites. We anticipate contributions to this 
effort from individual PRP's along with some State and local 
contributions. In FY 2012, we have requested $15 million to fund the 
mitigation of 50 sites.
    Safety Mitigation Projects are prioritized at the regional level 
and submitted to the National Office for funding. Criteria used for 
prioritizing safety mitigation projects are based on the severity of 
the hazard and accessibility to the public including:
        <bullet>  A death, injury or close call has occurred at a site;
        <bullet>  Complaints or concerns have been expressed by the 
        public or other units of government about a site;
        <bullet>  Developed recreation sites or other concentrations of 
        people are located near a site;
        <bullet>  Forest roads or trails lead to or are near a site; 
        and
        <bullet>  The severity of other hazards at a site in 
        combination with the site's accessibility to the public.
    For Safety Mitigation, in FY 2011, we received approximately $8.2 
million to fund the mitigation of an estimated 680 abandoned mine 
safety features like open shafts and adits. In FY 2012, we have 
requested $7.3 million to fund the mitigation of an estimated 560 
features.

COORDINATION AND PARTNERSHIPS
    The Forest Service coordinated with most states during the 
inventory phase of the AML Program by using data from State AML 
inventories. Coordination with states on environmental cleanup and 
safety projects is encouraged through the use of project selection 
criteria which rewards state/federal partnerships and evidence of state 
priorities such as work within a state priority watershed or water 
quality limited stream or water body. Formal partnerships or agreements 
exist with both state and federal agencies, like the Environmental 
Protection Agency (EPA), where cleanup involves mixed ownership sites 
that include private or state lands. In some cases, as in Colorado, 
abandoned mine safety mitigation projects are planned and constructed 
jointly using long-standing partnership agreements.

EXAMPLES OF FOREST SERVICE AML PROJECTS
Large & Complex Mine and Mill Sites
    These sites are typically tens to hundreds of acres in size. Mill 
buildings, roads, mine openings, open pits, waste rock, chemical 
reagents, tailings and spent ore are removed, stabilized and restored 
at costs typically ranging from $100,000 to $10 million.
    One large cleanup project that received $1.4 million dollars in 
2006 was the Champion Mine located on the Umpqua National Forest, Lane 
County Oregon. As a result of this project, a contract was awarded in 
2006 to remove waste rock, diesel and heavy oil contamination, treat 
acid mine drainage and cap hazardous mill tailings. These actions are 
expected to reduce or eliminate contaminants in Champion Creek, which 
is a tributary to Row River and Dorena Reservoir, which is a source of 
drinking water for the City of Cottage Grove, Oregon.
    Another project that received almost $3 million from 2008 through 
2011 is the Standard Mine, an abandoned zinc, lead, gold, and silver 
mine, located 10 miles west and directly upstream of the municipal 
water intake for the Town of Crested Butte, Colorado. The site was 
listed on the EPA's National Priority List in 2005 due to the imminent 
threat to Crested Butte's water supply posed by the tailings and waste 
water impoundment. Work by the Forest Service, together with the State 
of Colorado and the EPA, is designed to eliminate the safety and 
environmental hazards posed to the residents and visitors of Crested 
Butte by the open adits and shafts, waste rock piles, toxic mill 
tailings and acid mine drainage from this site.
Small Mine Cleanups and Safety Hazards
    One of the safety mitigation projects funded in 2008 was closure of 
5 vertical shafts and 7 open adits located on the Grand Mesa/
Uncomphagre/Gunnison National Forest in Ouray and San Miguel Counties, 
Colorado. The mine sites are located south of Ouray, Colorado along the 
route of State Highway 550 leading toward Red Mountain Pass, a portion 
of the San Juan Scenic Skyway--``Million Dollar Highway''. The Forest 
Service partnered with the Colorado Division of Minerals and Geology to 
fund this mitigation project and the Colorado Division of Minerals and 
Geology issued and administered the closure contract. The final closure 
contract consisted of 23 shaft and adit closures, consisting of 12 
closures located on Forest Service administered land and 11 closures 
located on private land.

LOOKING TO THE FUTURE
    Multiple federal and state agencies and private entities are 
implementing programs to address the human health and environmental 
impacts from historic mining operations. While progress has been made 
in addressing the hazards posed by abandoned mine lands, much more work 
is needed. Impacts from abandoned mine lands affects federal, state and 
private lands and cross federal and state jurisdictional boundaries. 
Continued success of these efforts depends on ensuring that cleanup 
costs are first borne by potentially responsible parties, where 
possible, and on the partnering of State and Federal Agencies, public 
interest groups, the mining industry and other interested third 
parties.
    Finally, preventing future AML sites is also a crucial goal of any 
land management agency's AML program. Responsible mining practices, 
environmentally protective mine closure planning, optimal permitting 
requirements and financial assurances are all tools that land 
management agencies are using to ensure mining companies operate under 
a sustainable business model that follows a mine's life from startup to 
clean closure.

CLOSING
    The mission of the Forest Service is to sustain the health, 
diversity, and productivity of the Nation's forests and grasslands to 
meet the needs of present and future generations. We remain committed 
to restoring abandoned mines as a key part of this mission. I would be 
happy to answer any questions you may have.
                                 ______
                                 
    Mr. Lamborn. Thank you for your testimony. Next is Anu 
Mittal, who is the Director of Natural Resources and 
Environment for the Government Accountability Office.

   STATEMENT OF ANU MITTAL, DIRECTOR, NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Mittal. Thank you, Mr. Chairman. Chairman Lamborn, 
Ranking Member Holt, and Members of the Subcommittee, I am 
pleased to be here today to participate in your hearing on 
abandoned mines.
    Between 2005 and 2009, the Government Accountability Office 
conducted a body of work related to hardrock mining that we 
believe provides important context for the issues being 
discussed at today's hearing.
    Therefore, I would like to summarize the key findings of 
this work, and my comments will focus on the lack of good 
information on the number of abandoned hardrock mines, the 
general lack of mining information collected on Federal lands, 
the costs associated with cleaning up abandoned mines, and the 
inadequacy of the financial assurances provided by mining 
operators.
    With regard to the lack of accurate information on the 
number of abandoned hardrock mines, in 2008 and 2009, we 
reported that Federal Agencies could not definitively determine 
the numbers of such sites on their lands, and Federal agency 
estimates that we reviewed were not reliable.
    In addition, when we reviewed estimates prepared by others 
on the total number of abandoned hardrock mines in 13 States, 
where most of this mining activity occurs, we found that they, 
too, did not provide an accurate assessment of the number of 
abandoned mines on public and private lands because they used 
differing definitions.
    Therefore, in 2008, we developed a standard definition for 
what constitutes an abandoned hardrock mining site, and based 
on this definition, we determined that at that time there were 
at least 161,000 abandoned hardrock mines in the 13 States.
    These sites had at least 332,000 potentially unsafe 
features, and at least 33,000 of them had degraded the 
environment. In addition to the lack of information on 
abandoned mines, there is a general lack of information 
collected by Federal Agencies about mining operations on 
Federal lands.
    For example, in 2008, and again this year, we reported that 
BLM and the Forest Service either did not routinely collect, or 
did not consistently maintain, data on the amount of hardrock 
minerals being produced on Federal land, or the amount of 
hardrock minerals remaining.
    According to the BLM and the Forest Service, they do not 
have the authority to collect this type of information from 
mining operators. Therefore, we concluded that comprehensive 
information on hardrock mineral production on Federal land is 
generally not available to the public.
    Regarding the cost of cleanup of abandoned mine sites, we 
reported in 2008 that over a 10 year period, four Federal 
Agencies had spent at least $2.6 billion to reclaim abandoned 
hardrock mine sites on Federal, State, private, and Indian 
lands.
    Of this amount, the EPA had spent the most, $2.2 billion, 
which was largely spent on abandoned mines on non-Federal 
lands. The remaining approximately $400 million was spent on 
cleanup at sites on Federal and Tribal lands by BLM, the Forest 
Service, and the Office of Surface Mining.21One of the factors 
that contributes to the costs incurred by the Federal 
Government to reclaim lands disturbed by mining is the lack of 
adequate financial assurances. Adequate financial assurances 
are important in the event that an operator abandons a mine and 
does not conduct the required reclamation of the site.
    However, our work has demonstrated that this has been a 
longstanding problem at the BLM. For example, when we reviewed 
BLM's financial assurances in 2005, and again in 2008, we found 
that both times the financial assurances that BLM had in place 
were tens of millions of dollars short of the amount needed to 
cover estimated reclamation costs for hardrock mining 
operations on its lands.
    Similarly, our work at the EPA has shown that the Agency 
has not taken full advantage of the statutory authorities that 
Congress has provided to address the financial responsibilities 
associated with hardrock mining operations on non-Federal land.
    As a result, we concluded in 2006 that significant gaps 
exist in the financial assurances that the EPA requires from 
hardrock mining operators, and therefore this increases the 
likelihood that taxpayers will have to assume financial 
responsibility if these mines are abandoned.
    In conclusion, Mr. Chairman, that while we agree that 
innovative approaches are needed to clean up abandoned mines, 
our work also shows that Federal Agencies need to get a better 
handle on the magnitude of this problem, and they need to take 
appropriate steps to reduce the financial liabilities that 
these operations can create for taxpayers.
    This concludes my prepared statement. I would be happy to 
respond to any questions that you have.
    [The prepared statement of Ms. Mittal follows:]

Statement of Anu K. Mittal, Director, Natural Resources and Environment 
          Team, United States Government Accountability Office

    Chairman Lamborn, Ranking Member Holt, and Members of the 
Subcommittee
    We are pleased to be here today to participate in this hearing on 
abandoned mines. As you know, the General Mining Act of 1872 encouraged 
the development of the West by allowing individuals to stake claims and 
obtain exclusive rights to the gold, silver, copper, and other valuable 
hardrock mineral deposits on land belonging to the United States. Since 
then, thousands of operators have extracted billions of dollars worth 
of hardrock minerals from land managed by the Department of the 
Interior's Bureau of Land Management (BLM) and the Department of 
Agriculture's Forest Service--the two principal agencies responsible 
for federal lands open for hardrock mining.\1\ BLM issued regulations 
in 1981 requiring all operators of these mines to reclaim the land when 
their operations cease, but some did not and abandoned these mines. As 
a result, thousands of acres of federal land that were disturbed for 
exploration, mining, and mineral processing now pose serious 
environmental and physical safety hazards. Environmental hazards 
include toxic or acidic water that contaminates soil and groundwater 
and physical safety hazards include concealed shafts, unstable or 
decayed mine structures, or explosives. Cleanup costs for these 
abandoned mines vary by type and size of the operation. For example, 
the cost of plugging holes is usually minimal, but reclamation costs 
for large mining operations can be in the tens of millions of dollars.
---------------------------------------------------------------------------
    \1\ An operator is a person who conducts operations in connection 
with exploration, mining, and processing hardrock minerals on federal 
land.
---------------------------------------------------------------------------
    From 2005 through 2009, we issued several products on various 
issues related to abandoned hardrock mines as well as current hardrock 
mining operations on federal land that are relevant to the issue being 
discussed at today's hearing.\2\ These products included information on 
the number of abandoned hardrock mines, the availability of information 
collected by the federal agencies on mining operations on federal land, 
the amount of funding that federal agencies have spent to cleanup 
abandoned mine sites, and the value of financial assurances that 
federal agencies collect from operators to cover the cost of 
reclamation in the event that an operator does not reclaim the land. My 
testimony today will summarize the key findings of these products. More 
information on our scope and methodology is available in each published 
product.
---------------------------------------------------------------------------
    \2\ GAO, Hardrock Mining: Information on Types of State Royalties, 
Number of Abandoned Mines, and Financial Assurances on BLM Land, GAO-
09-429T (Washington, D.C.: Feb. 26, 2009); GAO, Hardrock Mining: 
Information on State Royalties and Trends in Mineral Import and 
Exports, GAO-08-849R (Washington, D.C.: July 21, 2008); GAO, Hardrock 
Mining: Information on Abandoned Mines and Value and Coverage of 
Financial Assurances on BLM Land, GAO-08-574T (Washington, D.C.: Mar. 
12, 2008); GAO, Environmental Liabilities: Hardrock Mining Cleanup 
Obligations, GAO-06-884T (Washington, D.C.: June 14, 2006); and GAO, 
Hardrock Mining: BLM Needs to Better Manage Financial Assurances to 
Guarantee Coverage of Reclamation Costs, GAO-05-377 (Washington, D.C.: 
June 20, 2005).
---------------------------------------------------------------------------
    The work presented in these products was conducted in accordance 
with generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provided a reasonable basis for our findings and conclusions 
based on our audit objectives.

Background
    Historically, the mining of hardrock minerals, such as gold, lead, 
copper, silver, and uranium, was an economic incentive for exploring 
and settling the American West. However, when the ore was depleted, 
miners often left behind a legacy of abandoned mines, structures, 
safety hazards, and contaminated land and water. Even in more recent 
times, after cleanup became mandatory, many parties responsible for 
hardrock mining sites have been liquidated through bankruptcy or 
otherwise dissolved. Under these circumstances, some hardrock mining 
companies have left it to the taxpayer to pay for cleanup of the mining 
sites.
    Four federal agencies--the Department of Agriculture's Forest 
Service, the Environmental Protection Agency (EPA), and the Department 
of the Interior's BLM and Office of Surface Mining Reclamation and 
Enforcement (OSM)--fund the cleanup and reclamation of some of these 
abandoned hardrock mine sites. BLM's and the Forest Service's Abandoned 
Mine Lands programs focus on the safety of their land by addressing 
physical and environmental hazards. EPA's funding, under its Superfund 
Program, among other things, focuses on the cleanup and long-term 
health effects of air, ground, or water pollution caused by abandoned 
hardrock mine sites, and is generally for mines on nonfederal land. 
OSM, under amendments to the Surface Mining Control and Reclamation Act 
of 1977, can provide grants to fund the cleanup and reclamation of 
certain hardrock mining sites.\3\
---------------------------------------------------------------------------
    \3\ Pub. L. No. 95-87, as amended by Pub L. No. 101-508, Title VI, 
Sec. 6010(2), Nov. 5, 1990.
---------------------------------------------------------------------------
    BLM and the Forest Service are responsible for managing more than 
450 million acres of public land in their care, including land 
disturbed and abandoned by past hardrock mining activities. BLM manages 
about 258 million acres in 12 western states, and Alaska.\4\ The Forest 
Service manages about 193 million acres across the nation. In 1997, BLM 
and the Forest Service each launched a national Abandoned Mine Lands 
Program to remedy the physical and environmental hazards at thousands 
of abandoned hardrock mines on the federal land they manage. According 
to a September 2007 report by these two agencies, they had inventoried 
thousands of abandoned sites and, at many of them, had taken actions to 
cleanup hazardous substances and mitigate safety hazards.\5\ BLM and 
the Forest Service are also responsible for managing and overseeing 
current hardrock operations on their land, including the mining 
operators' reclamation of the land disturbed by hardrock mining. 
Reclamation can vary by location, but it generally involves such 
activities as regrading and reshaping the disturbed land to conform 
with adjacent land forms and to minimize erosion, removing or 
stabilizing buildings and other structures to reduce safety risks, 
removing mining roads to prevent damage from future traffic, and 
establishing self-sustaining vegetation. One of the agencies' key 
responsibilities is to ensure that adequate financial assurances, based 
on sound reclamation plans and cost estimates, are in place to 
guarantee reclamation costs.\6\ If a mining operator fails to complete 
required reclamation, BLM or the Forest Service can take steps to 
obtain funds from the financial assurance provider to complete the 
reclamation.
---------------------------------------------------------------------------
    \4\ These states include Arizona, California, Colorado, Idaho, 
Montana, Nevada, New Mexico, Oregon, South Dakota, Utah, Washington, 
and Wyoming.
    \5\ BLM and Forest Service, Abandoned Mine Lands: A Decade of 
Progress Reclaiming Hardrock Mines (September 2007).
    \6\ 43 C.F.R. part 3809 and 36 C.F.R. part 228, subpart A.
---------------------------------------------------------------------------
    BLM requires financial assurances for both notice-level hardrock 
mining operations--those disturbing 5 acres of land or less--and plan-
level hardrock mining operations--those disturbing over 5 acres of land 
and those in certain designated areas, such as the national wild and 
scenic rivers system. For hardrock operations on Forest Service land, 
agency regulations require reclamation of sites after operations cease. 
According to a Forest Service official, if the proposed hardrock 
operation is likely to cause a significant disturbance, the Forest 
Service requires financial assurances. Both agencies allow several 
types of financial assurances to guarantee estimated reclamation costs 
for hardrock operations on their land. According to regulations and 
agency officials, BLM and the Forest Service allow cash, letters of 
credit, certificates of deposit or savings accounts, and negotiable 
U.S. securities and bonds in a trust account. BLM also allows surety 
bonds, state bond pools, trust funds, and property.
    EPA administers the Superfund Program, which was established under 
the Comprehensive Environmental Response, Compensation, and Liability 
Act of 1980 to address the threats that contaminated waste sites, 
including those on nonfederal land, pose to human health and the 
environment.\7\ The act also requires that the parties statutorily 
responsible for pollution bear the cost of cleaning up contaminated 
sites, including abandoned hardrock mining operations. Some 
contaminated hardrock mine sites have been listed on Superfund's 
National Priorities List--EPA's list of seriously contaminated sites. 
Typically, these sites are expensive to cleanup and the cleanup can 
take many years. For example, in 2004, EPA's Office of Inspector 
General determined there were 63 hardrock mining sites on the National 
Priorities List that would cost up to $7.8 billion to cleanup, $2.4 
billion of which was expected to be borne by taxpayers rather than the 
parties responsible for the contamination.\8\
---------------------------------------------------------------------------
    \7\ 42 USC Sec. Sec. 9601-9675.
    \8\ EPA, Office of Inspector General, Nationwide Identification of 
Hardrock Mining Sites, 2004-P-00005 (Washington, D.C., Mar. 31, 2004).
---------------------------------------------------------------------------
    Regarding financial assurances, EPA has statutory authority under 
the Superfund program to require businesses handling hazardous 
substances on nonfederal land to provide financial assurances and is 
taking steps to do so.\9\ In 2006, we testified that without the 
mandated financial assurances, significant gaps in EPA's environmental 
financial assurance coverage exist, thereby increasing the risk that 
taxpayers will eventually have to assume financial responsibility for 
cleanup costs.\10\
---------------------------------------------------------------------------
    \9\ 42 U.S.C. Sec. 9608(b); 74 Fed. Reg. 37213 (July 28, 2009).
    \10\ GAO-06-884T.
---------------------------------------------------------------------------
    OSM's Abandoned Mine Land Program primarily focuses on cleaning up 
abandoned coal mine sites. However, OSM, under amendments to the 
Surface Mining Control and Reclamation Act of 1977, can provide grants 
to fund the cleanup and reclamation of certain hardrock mining sites 
either (1) after a state certifies that it has cleaned up its abandoned 
coal mine sites and the Secretary of the Interior approves the 
certification or (2) at the request of a state or Indian tribe to 
address problems that could endanger life and property, constitute a 
hazard to the public and safety, or degrade the environment, and the 
Secretary of the Interior grants the request. In 2008, we reported that 
OSM had provided more than $3 billion to cleanup dangerous abandoned 
mine sites.\11\ Its Abandoned Mine Land Program had eliminated safety 
and environmental hazards on 314,108 acres since 1977, including all 
high-priority coal problems and noncoal problems in 27 states and on 
the land of three Indian tribes.\12\
---------------------------------------------------------------------------
    \11\ GAO-08-574T.
    \12\ U.S. Department of the Interior, Office of Surface Mining 
Reclamation and Enforcement, 2006 Report to the President and Congress 
(Washington, D.C.: Oct. 1, 2006).
---------------------------------------------------------------------------
Accurate Information on the Number of Abandoned Hardrock Mine Sites Was 
        Not Available
    In 2008 and 2009, we reported that BLM and the Forest Service have 
had difficulty determining the number of abandoned hardrock mines on 
their land and have no definitive estimates on the number of such 
sites.\13\ Moreover, we reported that other estimates that had been 
developed about the number of abandoned hardrock mine sites on federal, 
state, and private land in the 12 western states and Alaska (where most 
of the mining takes place) varied widely and did not provide an 
accurate assessment of the number of abandoned mines in these states. 
For example, federal agency estimates included abandoned nonhardrock 
mines such as coal mines, and included a large number of sites on land 
with ``undetermined'' ownership, which may not all be on federal land. 
Similarly, we reviewed six studies conducted between 1998 and 2008 that 
estimated the number of abandoned hardrock mine sites in the 12 western 
states and Alaska, regardless of the type of land they were located 
on.\14\ However, we found that the estimates in these studies varied 
widely in part because there was no generally accepted definition for 
what constitutes an abandoned hardrock mine site and because different 
states define these sites differently.
---------------------------------------------------------------------------
    \13\ GAO-08-574T and GAO-09-429T.
    \14\ The six studies are (1) Western Governors' Association and 
National Mining Association, Cleaning up Abandoned Mines: A Western 
Partnership (1998); (2) Interstate Mining Compact Commission, State 
NonCoal AML Inventory (2001); (3) Interstate Mining Compact Commission, 
NonCoal Minerals Survey and Report (expected issuance Spring 2008); (4) 
Mineral Policy Center, Cleaning Up Western Watersheds (2003); (5) 
Earthworks fact sheets on hardrock mining from Earthworks Web site last 
visited on March 4, 2008 (www.earthworksaction.org/resources.cfm); and 
(6) EPA, Reference Notebook (September 2004).
---------------------------------------------------------------------------
    In 2008, we developed a standard definition of an abandoned 
hardrock mining site and used this definition to determine how many 
such sites potentially existed on federal, state and private land in 
the12 western states and Alaska. Based on our survey of these states, 
we determined that there were at least 161,000 abandoned hardrock mine 
sites in these states, and at least 33,000 of these sites had degraded 
the environment, by, for example, contaminating surface water and 
groundwater or leaving arsenic-contaminated tailings piles. We also 
determined that these 161,000 sites had at least 332,000 features that 
may pose physical safety hazards, such as open shafts or unstable or 
decayed mine structures.\15\
---------------------------------------------------------------------------
    \15\ GAO-08-574T.
---------------------------------------------------------------------------
Federal Agencies Collect Limited Information on Mining Operations on 
        Federal Land
    In 2008, we reported that BLM, the Forest Service, and the U.S. 
Geological Survey (USGS) either do not routinely collect or do not 
consistently maintain data on the amount of hardrock minerals being 
produced on federal land, the amount of hardrock minerals remaining, 
and the total acreage of federal land withdrawn from hardrock mining 
operations.\16\ According to officials with BLM and the Forest Service, 
they do not have the authority to collect information from mine 
operators on the amount of hardrock minerals produced on federal land, 
or the amount remaining. In April 2011, we reported on this issue again 
and found that this information is not being collected.\17\ In 
contrast, USGS collects extensive data on hardrock mineral production 
through its mineral industry surveys and reports these data in monthly, 
quarterly, and annual reports, but mine operators' participation in 
these surveys is voluntary, and USGS does not collect land ownership 
data that would allow it to determine the amount of hardrock mineral 
production on federal land. As a result, we found that it is not 
possible to determine hardrock mineral production on federal land from 
the USGS data. In addition, although USGS does publish the total amount 
of hardrock mineral production by mineral type, it is prohibited by law 
from reporting individual mine production and other company proprietary 
data unless the mine operator authorizes release of that information. 
In some cases, mine operators that respond to these surveys report 
consolidated data that covers production from several mines. Therefore, 
information on hardrock mineral production for every mine is not 
available to the public.
---------------------------------------------------------------------------
    \16\ GAO-08-429R.
    \17\ GAO, Federal Land Management: Availability and Potential 
Reliability of Selected Data Elements at Five Agencies, GAO-11-377 
(Washington, D.C.: Apr. 20, 2011).
---------------------------------------------------------------------------
    Some hardrock mineral production data are available from state 
sources and through financial reports filed with the Securities and 
Exchange Commission. However, these data may not always provide the 
level of detail necessary to determine the amount of mineral production 
on federal land. BLM also does not centrally maintain data on the 
amount of federal land withdrawn from hardrock mining operations. BLM 
documents land withdrawn from hardrock mining operations on its master 
title plats--detailed paper maps maintained at BLM's state offices. 
These maps contain land survey information on federal land, including 
ownership information, land use descriptions, and land status 
descriptions. BLM's annual publication, Public Land Statistics, does 
report the total number of acres withdrawn each year, but these data do 
not account for instances in which multiple withdrawals may have 
overlapping boundaries, which can result in double-counting the number 
of acres withdrawn. Furthermore, the reason for withdrawing the land is 
not always indicated, making it difficult to determine whether it was 
withdrawn from mining or from other purposes.

Federal Agencies Have Spent Billions of Dollars to Cleanup Abandoned 
        Hardrock Mining Sites
    In March 2008, we reported that over a 10 year period, four federal 
agencies--BLM, the Forest Service, EPA, and OSM--had spent at least a 
total of $2.6 billion to reclaim abandoned hardrock mines on federal, 
state, private, and Indian land. Of this amount, EPA had spent the 
most--$2.2 billion.\18\ The amount each agency spent annually varied 
considerably, and the median amount spent for abandoned hardrock mines 
on public land by BLM and the Forest Service was about $5 million and 
about $21 million, respectively. EPA spent substantially more--a median 
of about $221 million annually--to cleanup abandoned mines that were 
generally on nonfederal land. Further, OSM provided grants with an 
annual median value of about $18 million to states and Indian tribes 
through its program for hardrock mine cleanups.\19\
---------------------------------------------------------------------------
    \18\ GAO-08-574T.
    \19\ In total, OSM has provided more than $3 billion under its 
Abandoned Mine Land Program, which primarily focuses on cleaning up 
abandoned coal mine sites.
---------------------------------------------------------------------------
Financial Assurances Provided by Operators of Current Mines on BLM Land 
        May Be Inadequate to Cover Estimated Reclamation Costs
    As we have reported, contributing to the costs incurred by the 
federal government to reclaim land disturbed by mining operations are 
inadequate financial assurances required by BLM for current hardrock 
mining operations. Since 2005, we have reported several times that 
operators of hardrock mines on BLM land have provided inadequate 
financial assurances to cover estimated reclamation costs in the event 
that they fail to perform the required reclamation. Specifically, in 
June 2005 we reported that some current hardrock operations on BLM land 
did not have financial assurances, and some had no or outdated 
reclamation plans and/or cost estimates on which the financial 
assurances were based.\20\ At that time we concluded that BLM did not 
have an effective process and critical management information needed 
for ensuring that adequate financial assurances are actually in place, 
as required by federal regulations and BLM guidance. We made 
recommendations to strengthen BLM's management of financial assurances 
for hardrock operations on its land, which the agency generally 
implemented.
---------------------------------------------------------------------------
    \20\ GAO-05-377.
---------------------------------------------------------------------------
    However, when we again looked at this issue in 2008, we found that 
although BLM had taken actions to strengthen its processes, the 
financial assurances that it had in place as of November 2007 were 
still inadequate to cover estimated reclamation costs.\21\ 
Specifically, as of November 2007, hardrock mining operators had 
provided financial assurances valued at approximately $982 million to 
guarantee the reclamation costs for 1,463 hardrock mining operations on 
BLM land in 11 western states, according to BLM's Bond Review Report. 
BLM's report indicated that 52 of the 1,463 hardrock mining operations 
had inadequate financial assurances--about $28 million less than needed 
to fully cover estimated reclamation costs. However, our review of 
BLM's assessment process found that BLM had inaccurately estimated the 
shortfall, and that in fact the financial assurances for these 52 
operations should be more accurately reported as about $61 million less 
than needed to fully cover estimated reclamation costs.
---------------------------------------------------------------------------
    \21\ GAO-08-574T.
---------------------------------------------------------------------------
    In addition, we found that BLM's approach for determining the 
adequacy of financial assurances is not useful because it does not 
clearly lay out the extent to which financial assurances are 
inadequate. For example, in California, BLM reported that, statewide, 
the financial assurances in place were $1.5 million greater than 
required, suggesting reclamation costs are being more than fully 
covered. However, according to our analysis of only those California 
operations with inadequate financial assurances, the financial 
assurances in place were nearly $440,000 less than needed to fully 
cover reclamations costs for those operations. Having adequate 
financial assurances to pay reclamation costs for BLM land disturbed by 
hardrock operations is critical to ensuring that the land is reclaimed 
if operators fail to complete reclamation as required. When operators 
with inadequate financial assurances fail to reclaim BLM land disturbed 
by their hardrock operations, BLM is left with public land that 
requires tens of millions of dollars to reclaim and poses risks to the 
environment and public health and safety.
    In conclusion, Mr. Chairman, while it is critical to develop 
innovative approaches to cleanup abandoned mines, our work also 
demonstrates the importance of federal agency's having accurate 
information on the number of abandoned hardrock mines to know the 
extent of the problem and adequate financial assurances to prevent 
future abandoned hardrock mines requiring taxpayer money to cleanup.
    Chairman Lamborn, Ranking Member Holt, and Members of the 
Subcommittee, this concludes my prepared statement. I would be happy to 
respond to any questions that you might have.

Contact and Staff Acknowledgments
    Contact points for our Offices of Congressional Relations and 
Public Affairs may be found on the last page of this testimony. For 
further information about this testimony, please contact Anu K. Mittal, 
Director, Natural Resources and Environment team, (202) 512-3841 or 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9d4d0cdcdd8d5d8f9ded8d697ded6cf97">[email&#160;protected]</a> Key contributors to this testimony were Andrea Wamstad 
Brown and Casey L. Brown.
    This is a work of the U.S. government and is not subject to 
copyright protection in the United States. The published product may be 
reproduced and distributed in its entirety without further permission 
from GAO. However, because this work may contain copyrighted images or 
other material, permission from the copyright holder may be necessary 
if you wish to reproduce this material separately.

GAO's Mission
    The Government Accountability Office, the audit, evaluation, and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.

Obtaining Copies of GAO Reports and Testimony
    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's Web site (www.gao.gov). Each weekday afternoon, 
GAO posts on its Web site newly released reports, testimony, and 
correspondence. To have GAO e-mail you a list of newly posted products, 
go to www.gao.gov and select ``E-mail Updates.''

Order by Phone
    The price of each GAO publication reflects GAO's actual cost of 
production and distribution and depends on the number of pages in the 
publication and whether the publication is printed in color or black 
and white. Pricing and ordering information is posted on GAO's Web 
site, http://www.gao.gov/ordering.htm.
    Place orders by calling (202) 512-6000, toll free (866) 801-7077, 
or TDD (202) 512-2537.
    Orders may be paid for using American Express, Discover Card, 
MasterCard, Visa, check, or money order. Call for additional 
information.

To Report Fraud, Waste, and Abuse in Federal Programs
    Contact:
    Web site: www.gao.gov/fraudnet/fraudnet.htm E-mail: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0660746773626863724661676928616970">[email&#160;protected]</a> 
Automated answering system: (800) 424-5454 or (202) 512-7470
Public Affairs
    Chuck Young, Managing Director, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="136a7c667d7470225374727c3d747c65">[email&#160;protected]</a>, (202) 512-4800 
U.S. Government Accountability Office, 441 G Street NW, Room 7149 
Washington, DC 20548
                                 ______
                                 
GAO HIGHLIGHTS
ABANDONED MINES
Information on the Number of Hardrock Mines, Cost of Cleanup, and Value 
of Financial Assurances
Why GAO Did This Study
    The General Mining Act of 1872 helped foster the development of the 
West by giving individuals exclusive rights to mine gold, silver, 
copper, and other hardrock minerals on federal land. However, miners 
often abandoned mines, leaving behind structures, safety hazards, and 
contaminated land and water. Four federal agencies--the Department of 
the Interior's Bureau of Land Management (BLM) and Office of Surface 
Mining Reclamation and Enforcement (OSM), the Department of 
Agriculture's Forest Service, and the Environmental Protection Agency 
(EPA)--fund the cleanup of some of these hardrock mine sites.
    From 2005 through 2009, GAO issued a number of reports and 
testimonies on various issues related to abandoned and current hardrock 
mining operations. This testimony summarizes some of the key findings 
of these reports and testimonies focusing on the (1) number of 
abandoned hardrock mines, (2) availability of information collected by 
federal agencies on general mining activities, (3) amount of funding 
spent by federal agencies on cleanup of abandoned mines, and (4) value 
of financial assurances for mining operations on federal land managed 
by BLM. In 2005, GAO recommended that BLM strengthen the management of 
its financial assurances, which BLM generally implemented. BLM also 
agreed to take steps to address additional concerns raised by GAO in 
2008.

What GAO Found
    GAO's past work has shown that there are no definitive estimates of 
the number of abandoned hardrock mines on federal and other lands. For 
example, in 2008 and 2009, GAO reported that BLM and the Forest Service 
had difficulty determining the number of abandoned hardrock mines on 
their lands and had no definitive estimates. Similarly, estimates of 
the number of abandoned hardrock mine sites in the 12 western states 
and Alaska (where most of the mining takes place) varied widely because 
there was no generally accepted definition of what constitutes an 
abandoned hardrock mine site. In 2008, GAO developed a standard 
definition for abandoned hardrock mining sites and used this definition 
to determine that there were at least 161,000 abandoned hardrock mine 
sites in the 12 western states and Alaska, and at least 33,000 of these 
sites had degraded the environment, by contaminating surface water and 
groundwater or leaving arsenic-contaminated tailings piles.
    In 2008, GAO reported that BLM, the Forest Service, and the U.S. 
Geological Survey (USGS) either do not routinely collect or do not 
consistently maintain data on the amount of hardrock minerals being 
produced on federal land, the amount of hardrock minerals remaining, 
and the total acreage of federal land withdrawn from hardrock mining 
operations. According to BLM and Forest Service officials, they do not 
have the authority to collect information from mine operators on the 
amount of hardrock minerals produced on federal land or the amount 
remaining. In contrast, USGS collects extensive data on hardrock 
mineral production through its mineral industry surveys and reports 
these data in monthly, quarterly, and annual reports, but the agency 
does not collect land ownership data that would allow it to determine 
the amount of hardrock mineral production on federal land. As a result, 
comprehensive information on hardrock mineral production is generally 
not available to the public.
    From 1997 to 2008, four federal agencies--BLM, the Forest Service, 
EPA, and OSM--had spent at least a total of $2.6 billion to reclaim 
abandoned hardrock mines on federal, state, private, and Indian lands. 
Of this amount, EPA had spent the most--$2.2 billion. The amount each 
agency spent annually varied considerably, and the median amount spent 
for abandoned hardrock mines on public lands by BLM and the Forest 
Service was about $5 million and about $21 million, respectively. EPA 
spent substantially more--a median of about $221 million annually--to 
clean up abandoned mines that were generally on nonfederal land. OSM 
provided grants with an annual median value of about $18 million to 
states and Indian tribes through its program for hardrock mine 
cleanups.
    One factor that contributes to costs for reclamation of federal 
lands disturbed by mining operations is inadequate financial assurances 
required by BLM. Since 2005, GAO has reported several times that 
operators of hardrock mines on BLM lands have not provided financial 
assurances sufficient to cover estimated reclamation costs in the event 
that operators fail to perform the required reclamation. Most recently, 
in 2008, GAO reported that the financial assurances that were provided 
for 52 operations were about $61 million less than needed to fully 
cover estimated reclamation costs, which could leave the taxpayer with 
the bill for reclamation, if the operator fails to do so.
                                 ______
                                 
    Mr. Lamborn. All right. Thank you. Now we will hear from 
Loretta Pineda, the Director of Reclamation, Mining, and Safety 
of the Colorado Department of Natural Resources.

STATEMENT OF LORETTA PINEDA, DIRECTOR, DIVISION OF RECLAMATION, 
 MINING, AND SAFETY, COLORADO DEPARTMENT OF NATURAL RESOURCES, 
 ON BEHALF OF THE INTERSTATE MINING COMPACT COMMISSION AND THE 
      NATIONAL ASSOCIATION OF ABANDONED MINE LAND PROGRAMS

    Ms. Pineda. Good afternoon, Mr. Chairman. On behalf of the 
30 States and Tribes represented by the Interstate Mining 
Compact Commission and the National Association of Abandoned 
Mine Land Programs, I appreciate the opportunity to appear 
before the Subcommittee today to present our views on the 
challenges that we face in reclaiming abandoned mine lands 
nationwide.
    We are all aware of the legacy of inactive and abandoned 
mines that continue to endanger our citizens, scar our 
landscapes, and pollute our waters. Among the impacts that 
States and Tribes find themselves addressing as part of our AML 
reclamation programs are subsistence, open shafts and adits, 
dangerous high walls, acid mine drainage, and surface and 
groundwater contamination.
    Putting actual numbers on the types and numbers of AML 
sites is a challenge in and of itself, but suffice it to say 
that several hundred thousand of these sites are scattered 
throughout the United States. They occur on private, State, and 
public lands, and do not respect geographic or political 
boundaries. We present some of these numbers in our written 
testimony.
    The critical message for today's hearing is that while 
notable and significant progress has been made by States and 
Tribes to address inactive and abandoned mines, often in 
conjunction with our Federal partners, much more needs to be 
done.
    And this can best be accomplished with three important 
components. One, stable funding for State AML programs. Two, 
legislative adjustments to fulfill the intent of Congress under 
SMCRA, and three, Good Samaritan projections.
    With regard to the importance of funding, we present in our 
testimony information from nine States demonstrating how 
enhanced funding could immediately be put to use to address 
hardrock AML projects that are on the shelf and ready for bid.
    Each of these projects would not only remediate high 
priority AML sites, thereby safeguarding the public and 
protecting the environment, but would generate the jobs 
associated with this work.
    In this regard, it should be noted that for every dollar 
spent on local AML construction projects, an additional $2.70 
cents is spent in the local economy. One of the most consistent 
sources of funding for these States with coal mining within 
their borders has been Title IV grants under the Surface Mine 
Control and Reclamation Act.
    Section 409 of SMCRA allows States and Tribes to use these 
grants at high priority, non-coal AML sites. In this regard, we 
support the provision of H.R. 785 that would clarify that 
uncertified States are able to spend their unappropriated State 
share balance on non-coal projects.
    I would like to submit for the record a statement from our 
organization supporting a similar provision contained in S. 
897, a companion bill to H.R. 785. Other adjustments to SMCRA 
that would further our work to reclaim AML sites include 
expanding the use of State share balances for acid mine 
drainage work, and ensuring that limited liability protections 
under SMCRA are available to certified States and Tribes.
    States and Tribes are also working on hardrock AML programs 
through a variety of State and Federal funding sources, 
including monies from EPA, the BLM, the Forest Service, the 
National Park Service, and the United States Corps of 
Engineers.
    We continue to support the funding for these vital 
programs, and believe that much valuable work continues to be 
accomplished in partnership with States and Tribes. In 
addition, a strong State lead is needed for implementation of 
these programs.
    Where acid rock and acid mine drainage remediation efforts 
are involved, another concern looms large. Liability under the 
Clean Water Act associated with these cleanup efforts.
    Citizen groups, watershed associations, and others, who may 
have a desire to fund the cleanup of impacted waters are often 
dissuaded from doing so because of contaminated mine draining 
discharges.
    If re-effected, Good Samaritans would be liable under both 
State and Federal law, therefore requiring them to be 
responsible for permanently treating the discharge to a Clean 
Water Act standard.
    One example of an impaired watershed in Colorado is the 
Animas River Basin, where the water quality is severely 
impacted by legacy mining. So far, remediation efforts have 
been completed on 28 of the 32 mine waste sites, and some 
remediation has been done on 5 of the 34 draining adits.
    Unfortunately, most of the mine related metal loading in 
the basin emanates from the draining mines, as opposed to mine 
waste. Consequently, the local watershed group's restoration 
efforts have been limited by the lack of a Good Samaritan 
provision to the Clean Water Act to reduce liability for third-
party cleanups.
    Presently, there is no legislation to protect a Good 
Samaritan from incurring long term liability when remediating 
fluid from draining adits. We believe the best approach to 
address the situation is through the enactment of legislation 
that clarifies the application of the Clean Water Act 
requirements to both coal and hardrock AML remediation efforts 
for contaminated or polluted mine drainage is involved.
    Our written statement contains several recommendations and 
concerns that we believe should be considered in any Good 
Samaritan legislative effort, and because pictures are worth a 
thousand words, I would also like to share with the Committee a 
video that the State of Colorado has put together to show what 
kinds of remediation efforts would be underway if there was 
Good Samaritan legislation.
    Thank you for the opportunity to present this testimony, 
and I would be happy to answer any questions you may have.
    [The prepared statement of Ms. Pineda follows:]

Statement of Loretta Pineda, Director, Division of Reclamation, Mining 
and Safety, Colorado Department of Natural Resources, on behalf of the 
 Interstate Mining Compact Commission and the National Association of 
                      Abandoned Mine Land Programs

    Good afternoon. My name is Loretta Pineda and I serve as the 
Director of the Division of Reclamation, Mining and Safety within the 
Colorado Department of Natural Resources. I am appearing today on 
behalf of the Interstate Mining Compact Commission (IMCC) and the 
National Association of Abandoned Mine Land Programs (NAAMLP) 
concerning the Subcommittee's oversight hearing on ``Abandoned Mine 
Lands: Innovative Solutions for Restoring the Environment, Improving 
Safety and Creating Jobs''. This is topic of great interest and 
importance to the states and tribes represented by our two 
organizations. Our statement focuses primarily on the reclamation of 
abandoned hardrock mines in the West. However, I will also speak to 
challenges we face with respect to the reclamation of abandoned coal 
mines, as well as abandoned noncoal mines in other parts of the country 
beyond the West. We appreciate the opportunity to appear today to share 
our views and concerns.
    The Interstate Mining Compact Commission (IMCC) and the National 
Association of Abandoned Mine Land Programs (NAAMLP) are multi-state 
governmental organizations that together represent some 30 mineral-
producing states and Indian tribes, each of which implements programs 
that regulate the environmental impacts of both coal and hardrock 
mining. Many of these programs have delegations of authority from the 
federal government to implement national environmental laws such as the 
Surface Mining Control and Reclamation Act (SMCRA), the Clean Water 
Act, the Uranium Mill Tailings Radiation Control Act and the Resource 
Conservation and Recovery Act. Under these statutes, the states and 
tribes exercise primary responsibility for the permitting and 
inspection of the affected mining operations, for the enforcement of 
applicable environmental performance standards, and for the protection 
of public health and safety, including the safeguarding and cleanup of 
abandoned mines.
    The development of our Nation's mineral resources is a critical 
component of our national well-being and security. Our manufacturing 
activities, transportation systems and the comfort of our homes depend 
on the products of mining. At the same time, it is essential that an 
appropriate balance be struck between the need for minerals and the 
protection of public health and safety and the environment. Over the 
past 40 years, with the passage of sweeping national environmental 
laws, the states and Indian tribes have taken the lead in fashioning 
and then implementing effective programs for the regulation of mining 
and its impacts, including the cleanup of inactive and abandoned mine 
lands. As we face new challenges associated with homeland security, 
climate change and alternative energy sources, the importance of 
mineral development will only become more critical, as will the role of 
state and tribal regulatory authorities.
    We commend you, Mr. Chairman, for your continued commitment to 
craft a meaningful and effective program for reclaiming and restoring 
the land and water adversely affected by past hardrock mining. Without 
a national solution for this legacy issue, it is unlikely that 
significant progress can be achieved. This is due primarily to the lack 
of sufficient funding, and not a lack of will by the states, tribes and 
others to do something about the matter. The states and tribes--often 
together with our federal agency partners--have made notable progress 
in addressing the issue. But our efforts need a substantial boost and 
the potential for legislative solutions before the Subcommittee today 
will go a long way toward accomplishing this goal.
    Nationally, abandoned mine lands continue to have significant 
adverse effects on the environment. Some of the types of environmental 
impacts that occur at AML sites include subsidence, surface and 
groundwater contamination, erosion, sedimentation, chemical release, 
and acid mine drainage. Safety hazards associated with abandoned mines 
account for deaths and/or injuries each year. Abandoned and inactive 
mines, resulting from mining activities that occurred over the past 150 
years prior to the implementation of present day controls, are 
scattered throughout the United States. The sites are located on 
private, state and public lands.
    Over the years, several studies have been undertaken in an attempt 
to quantify the hardrock AML cleanup effort. In 1991, IMCC and the 
Western Governors' Association completed a multi-volume study of 
inactive and abandoned mines that provided one of the first broad-based 
scoping efforts of the national problem. Neither this study, nor any 
subsequent nationwide study, provides a quality, completely reliable, 
and fully accurate on-the-ground inventory of the hardrock AML problem. 
Both the 1991 study and a recent IMCC compilation of data on hardrock 
AML sites were based on available data and professional judgment. The 
data is seldom comparable between states due to the wide variation of 
available inventory criteria. Nevertheless, the data do demonstrate 
that nationally, there are large numbers of significant safety and 
environmental problems associated with inactive and abandoned hardrock 
mines and that cumulative remediation costs are very large.
    Across the country, the number of abandoned hardrock mines with 
extremely hazardous mining-related features is estimated at several 
hundred thousand. Many of the states and tribes report the extent of 
their respective AML problems using a variety of measures including 
mine sites, mine openings, mine features or structures, mine dumps, 
subsidence prone areas, miles of unreclaimed highwall, miles of 
polluted water, and acres of unreclaimed or disturbed land. Information 
contained in IMCC's Noncoal Report and that we have provided to the 
Government Accountability Office (GAO) include the following gross 
estimated number of abandoned mine sites: Alaska--1,300; Arizona--
80,000; California--47,000; Colorado--15,000; Montana--6,000; Nevada--
16,000; Utah--15,000--20,000; New York--1,800; Virginia--4,000 
Washington--3,800; Wyoming--1,700. Nevada reports over 200,000 mine 
openings; New Mexico reports 15,000 mine hazards or openings; Minnesota 
reports over 100,000 acres of abandoned mine lands and South Carolina 
reports over 6,000 acres. While the above figures attempt to capture a 
universe of all abandoned mine sites by state, the actual number of 
sites that pose significant health, safety or serious environmental 
problems is likely lower.
    What becomes obvious in any attempt to characterize the hardrock 
AML problem is that it is pervasive and significant. And although 
inventory efforts are helpful in attempting to put numbers on the 
problem, in almost every case, the states and tribes are intimately 
familiar with the highest priority problems within their borders and 
know where limited reclamation dollars must immediately be spent to 
protect public health and safety or protect the environment from 
significant harm.
    Estimating the costs of reclaiming hardrock abandoned mines is even 
more difficult than characterizing the number of mines. Based on the 
estimated number of AML sites, one can develop a very rough estimate 
for the costs of safeguarding mine hazards and reclaiming small surface 
disturbances. But the costs of remediating environmental problems such 
as ground water and surface water contamination, acid rock drainage or 
wind blown contaminants are extremely difficult to estimate. And many 
of these problems will not be fully detected until after thorough 
assessment and testing occurs at a minesite.
    In an effort to quantify and forecast what states could spend 
immediately as part of an expanded program that focuses on the cleanup 
of abandoned hardrock AML sites over the next 18 to 24 months (assuming 
the availability of new funding), IMCC and NAAMLP have gathered 
information from nine states. A summary of that information is attached 
to this statement. Few of these projects have been funded to date and 
are examples of how enhanced funding under new legislation or 
appropriations would immediately be put to use. In addition to the 
forecasts provided by these states regarding economic and job 
enhancements, it should be noted that, in general, for every dollar 
spent by the states/tribes on local construction, this translates to 
$2.70 that is spent in the local economy for things such as supplies 
and materials, local equipment rentals and equipment operators, and 
employee support.
    Today, state and tribal agencies are working on hardrock abandoned 
mine problems through a variety of state and federal funding sources. 
Various federal agencies, including the U.S. Environmental Protection 
Agency, the Bureau of Land Management, the National Park Service, the 
U.S. Forest Service, and the U.S. Army Corps of Engineers have provided 
some funding for hardrock mine remediation projects. These state/
federal partnerships have been instrumental in assisting the states and 
tribes with their hardrock AML work. As states and tribes take on a 
larger role in hardrock AML cleanups in the future, they will continue 
to coordinate with their federal partners. Unfortunately, most of these 
existing federal grants are project specific and do not provide 
consistent funding.
    For states and tribes with coal mining, the most consistent source 
of AML funding has been the Title IV grants under the Surface Mining 
Control and Reclamation Act (SMCRA). Section 409 of SMCRA allows states 
and tribes to use these grants at high priority non-coal AML sites. The 
funding is generally limited to safeguarding hazards to public safety 
(e.g., closing mine openings) at hardrock sites. It is worth noting 
that recent fatalities at abandoned hardrock mine sites have been in 
states without SMCRA-funded AML programs. The small amount of money 
that SMCRA states have been able to spend on physical safety hazards at 
hardrock sites appears to be making a difference. More specific 
information regarding the nature and extent of the hardrock AML 
accomplishments of the states and tribes is available from IMCC and 
NAAMLP.
    As states and tribes work to address the remaining inventory of 
abandoned hardrock mine sites, we are increasingly concerned about the 
escalating costs of addressing those problems that continue to go 
unreclaimed due to insufficient funding. Unaddressed sites worsen over 
time, thus increasing reclamation costs. Inflation exacerbates these 
costs. The longer the reclamation is postponed, the less reclamation 
will be accomplished. In addition, the states and tribes are finding 
new, higher priority problems each year, especially as many of our 
urban areas encroach upon what were formerly rural abandoned mine 
sites. New sites also continually appear due to the effects of time and 
weather. Recent flooding events in the Western and Mid-Continent 
sections of the country are a testament to this phenomenon. This 
underscores the need for constant vigilance to protect our citizens and 
the importance of potential legislation before the Subcommittee today.
    With the foregoing as background, we will now address several 
aspects of pending or proposed legislation that deserve mention. One of 
the most critical needs is the establishment of a consistent and robust 
funding source for addressing hardrock AML problems. While we do not 
have a formal position on the various royalty and fee provisions that 
have been suggested over the years, we do believe that some combination 
of these funding mechanisms is critical to the success of a hardrock 
AML program. Without certain, reliable funding from year to year, the 
states and tribes cannot effectively plan for and execute meaningful 
AML programs. We therefore strongly recommend a combination of 
appropriate funding sources that will consistently support a long-term 
AML program. This will result in substantial reclamation work over the 
life of the program. We also support continued funding for the hardrock 
AML programs already in place at the BLM, the Forest Service and the 
National Park Service. The unique focus of these programs should not be 
supplanted by new legislation. Much valuable work continues to be 
accomplished pursuant to these programs, often in partnership with the 
states and tribes.
    Another key component of an effective hardrock AML program is 
support for a strong state lead for the implementation of these 
programs. Today, there are abandoned mine land programs in most states. 
These include the 28 programs established by states and tribes under 
SMCRA Title IV, along with states across the country that are not 
eligible for Title IV funding, including Nevada, California, Arizona, 
South Dakota, Idaho, New York, South Carolina and North Carolina. All 
of these states and tribes are experienced with administering federal 
grants and completing AML projects in a cost-effective manner on state, 
private and federal lands.
    The states and tribes must be provided an opportunity to assume 
primary responsibility for implementing any hardrock AML program given 
the unique differences among the states and tribes in terms of geology, 
climate, terrain and other physical and environmental conditions. This 
state/tribal-lead approach will assure the most critical AML problems 
are addressed first, since the states and tribes are closer to the 
problems and can best determine the priority of sites and the needed 
remediation work. In addition, they also have assembled excellent 
professional staffs with many years of experience (in some cases over 
30 years) and an unsurpassed local contracting knowledge base. State 
and tribes would require minimal staffing increases compared to 
implementing a new federal program, thereby increasing on-the-ground 
results per program dollar. In the West, New Mexico, Colorado, Utah, 
Wyoming, Alaska and Montana have used SMCRA Title IV funds to address a 
number of significant AML problems, both coal and hardrock. In 
addition, these AML programs have cooperative agreements with the 
Forest Service, the National Park Service, BLM and the U.S. Army Corps 
of Engineers that allow those agencies to fund AML projects on their 
lands when money is available. It is simply more efficient for the 
federal land managers to use the already established state AML programs 
with their staff of experienced engineers, reclamation specialists and 
project managers to design and conduct cost-effective AML projects on 
federally-managed land within each state's boundaries.
    Given the importance of the states being able to use SMCRA Title IV 
funds for noncoal AML work, any new legislation should ensure that this 
practice can continue or increase. In this regard, we support the 
provision in H.R. 785 that would clarify that noncertified states and 
tribes are able to spend their unappropriated state and tribal share 
balances on noncoal AML reclamation. We believe this was the intent of 
the 2006 Amendments to SMCRA. However, the Interior Department, through 
OSM, has taken a different view in final rules implementing those 
amendments and has blocked the states from using these moneys for this 
worthwhile purpose. H.R. 785 would correct this unfortunate 
interpretation by Interior. A recent statement submitted by IMCC and 
NAAMLP for the record of a hearing on a similar bill before the U.S. 
Senate (S. 897) is attached and we request that it be included for the 
record of this hearing.
    We support a lead role for the Office of Surface Mining Reclamation 
and Enforcement (OSM) regarding the overall administration of any 
hardrock minerals reclamation fund that might be created in potential 
or proposed legislation. We believe that OSM has the required expertise 
to oversee and administer the Fund and the overall AML program based on 
its 30 years of experience under SMCRA. We also support the necessary 
funding for OSM to carry out its administrative duties under the law.
    We also support the awarding of grants to states and tribes 
pursuant to any hardrock AML reclamation fund that might be created by 
legislation in order to be consistent with the state/tribal-lead 
approach that we advocate. We recommend that these annual expenditures 
from the Fund be off-budget (mandatory) and not subject to the annual 
appropriations process. Given the known inventory of AML problems, we 
believe this approach will guarantee that annual contributions to the 
Fund are immediately distributed for work on-the-ground rather than 
retained in a Fund that does little but generate interest. And with 
regard to allocations from the Fund, we could support a formula that 
takes into account both current and historic mineral production. We 
believe that this arrangement represents a fair and equitable 
disposition of any moneys paid into the Fund and will allow the states 
and tribes to effectively manage their programs and accomplish 
meaningful reclamation work. It may be helpful to clarify that any fund 
allocations paid to the states based on existing production are defined 
as a percentage of the total moneys paid into the fund for the current 
year by the respective states of origin.
    As for any allocations from the fund based on historic production, 
consideration should be given in the formula as to how the specific 
mineral commodity is measured (ounces v. pounds v. tons) and the 
reference year from which historic production is calculated. For 
instance, Nevada's and California's mineral contributions to the nation 
predate both the 1872 Mining Law and the 1900 date from which historic 
production has been previously calculated. For other states, such as 
New Mexico, Wyoming, Arizona and Colorado, the records of mine 
production during the territorial period from 1850 to 1912 are very 
sporadic and scattered. As a result, any historic production formula 
must also take this reality into consideration, especially given the 
unevenness in the completeness, availability, reliability and accuracy 
of pre-1910 mining production records.
    With respect to eligible land and water, we believe any legislative 
solution should recognize that most hardrock AML problems are on non-
federal lands, even in the West. In most states, federal lands contain 
less than a quarter of all hardrock AML sites. In part, this is due to 
the patenting of mining claims in the nineteenth and early twentieth 
century that allowed miners to claim and obtain ownership of lands they 
mined. And when there are abandoned mine problems on federal lands, 
they often spill over into adjacent non-federal lands or in-holdings. 
To be effective, a hardrock AML program needs to be able to spend funds 
on all classes of land. It should also be clarified that there is no 
limitation on when lands and waters become eligible. In California, for 
example, many of the legacy AML sites pre-date the 1872 Mining Law, so 
limiting eligibility to only those problems that are post-1872 would be 
problematic.
    A critical component of any reclamation program is how to 
prioritize sites and identify remediation options. Abandoned mine lands 
range from sites with features that require no remediation because of 
their minimal size or risk; to sites that require significant 
earthwork, topsoil replacement and revegetation for erosion and 
pollution control; to safeguarding shafts and adits that present public 
safety hazards; to remediating sites with significant toxic leachate 
causing contamination of ground and surface waters. In addition, some 
hardrock mine sites have such a conglomeration of features, access 
problems, drainage problems, etc., that estimated reclamation/
remediation costs exceed the entire annual AML budget of a state/tribe.
    Regardless of which inventory or listing of sites is used, a large 
portion of sites will require little if any reclamation. In other 
cases, the per unit cost of reclamation is relatively small. These 
sites will also rank low in priority because of the reduced threat to 
public health or the environment. On the other end of the spectrum, 
there will be a small number of sites that require a significant amount 
of funding to remediate and that contain a chronic risk to public 
health or the environment. Under current law, these are the sites that 
are being or might be remediated under Superfund (the Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA)). The 
AML priority sites should be those that constitute a physical threat to 
public safety, and sites with significant contamination, but that will 
likely never score high enough to be remediated under CERCLA. It should 
also be noted that CERCLA remediation is not without potential 
financial risk to the states. Generally speaking, where EPA authorizes 
cleanup of an abandoned mine site out of its ``Fund Lead'', states are 
required to pay 10 percent of the cleanup costs and to assume 100 
percent of the operations and maintenance costs following cleanup. As a 
result, any perpetual water treatment becomes the responsibility of the 
state, including potential liability associated therewith. The Good 
Samaritan relief that we address later in our testimony would help to 
lessen the discharge cleanup standard, but still leaves the concern 
associated with endless treatment costs.
    Given the above considerations, each state or tribe should be 
provided the discretion to determine which among the many sites in its 
respective AML inventory deserve the most immediate attention, with 
input from the federal land management agencies on whose land the sites 
may be located. The states and tribes can also best decide the 
appropriate remediation required under the circumstances given 
available funding and resources and in consideration of landowner 
desires.
    Another aspect of any hardrock AML program is how to quantify the 
problem. A consistent and purpose-driven inventory of AML problems is 
critical to understanding the magnitude of the problems the states and 
tribes face. Assessing the present and future impacts to the safety and 
health of citizens and the impacts to the natural environment, while 
recognizing the changing cost structure of a long-term program, are key 
to a meaningful inventory of problems. However, lessons need to be 
learned from the inventory of abandoned coal mines undertaken pursuant 
to the Surface Mining Control and Reclamation Act, which is estimated 
to have cost more than $25 million and is still fraught with 
controversy.
    Based on the SMCRA experience, any hardrock AML inventory needs to: 
have well thought out goals and instructions; maintain standardized 
inventory procedures; keep inventory crews small to minimize 
inconsistencies in reporting methods; minimize influence on the 
inventory by those with vested interests in the results; require any 
federal agency inventory work to be coordinated with the states; 
utilize state-of-the-art GPS imagery; and be conducted with 
consideration for seasonal snow and vegetation cover. In this regard, 
we support an appropriate cap on the amount of money to be invested in 
any inventory effort, so as not to divert money and energy from on-the-
ground reclamation work. In addition, those states whose AML programs 
meet the above standards should be allowed to keep and rely upon their 
existing inventories and associated databases, rather than being 
required to create or adopt new ones.
    A new complication for state and tribal AML work that also must be 
addressed is the limited liability protection related to applicable 
federal environmental laws such as the Clean Water Act where noncoal 
AML work is undertaken with SMCRA Title IV funds. OSM's recent 
rulemaking implementing the provisions of the 2006 Amendments to SMCRA 
removed this protection and that action has had a significant chilling 
effect on the ability of the states and tribes to undertake their 
noncoal projects with SMCRA funds. Given OSM's reluctance to address 
this administratively, the issue needs to be addressed with a 
perfecting amendment to SMCRA.
    Any proposed legislation to enhance hardrock AML cleanups should 
also include special allocations from amounts paid into the fund for 
grants to non-hardrock mining states with noncoal AML problems and for 
grants to public entities and nonprofit organizations, such as 
watershed groups. We believe that the incorporation of these provisions 
into any legislation will likely generate additional support for the 
bill. States other than the western hardrock AML states (such as South 
Carolina, North Carolina, Virginia, Florida, New York, and Tennessee) 
have significant noncoal AML problems within their borders and there 
are limited, if any, funds available to address these sites. Therefore, 
to the extent that a small but reasonable amount of funding can be set 
aside for work in these states, it will make a difference in their 
efforts to remediate these sites. Based on our experience with 
watershed cooperative agreements under SMCRA, we believe that a program 
for nonprofit or public entities will provide a welcome shot-in-the-arm 
for their efforts to address water contamination and acid rock drainage 
issues in critical watersheds.
    The subject of acid rock and acid mine drainage remediation efforts 
brings up another aspect of AML cleanups that should be addressed in 
legislation. This concerns liability under the Clean Water Act 
associated with these cleanup efforts. Citizen, environmental and 
watershed groups who may have a desire to fund the cleanup of impacted 
waters are often dissuaded from doing so because the previously mined 
and abandoned sites have contaminated mine drainage discharges which, 
if reaffected, would subject these ``Good Samaritans'' to liability 
under both state and federal law, thereby requiring them to be 
responsible for permanently treating the discharge to Clean Water Act 
standards. They could incur this liability even though they did not 
create the discharge and even if their cleanup efforts improved the 
overall quality of the discharge. This situation has been further 
exacerbated by a recent decision by the U.S. Fourth Circuit Court of 
Appeals in West Virginia Highlands Conservancy v. Huffman, 625 F.3d 159 
(4th Cir. 2010). The court held that certain treatment systems for 
treating water from abandoned coal mines qualify as point sources and 
require NPDES permits under the Clean Water Act. While focused on bond 
forfeiture sites under SMCRA, the reasoning of the decision may apply 
equally well to the construction and operation of passive treatment 
systems employed by watershed groups to address acid mine drainage at 
abandoned coal mines. This situation must be rectified.
    We believe that the best approach to address this situation is 
through the enactment of legislation that clarifies the application of 
Clean Water Act requirements to both coal and hardrock AML remediation 
efforts where contaminated or polluted mine drainage is involved. We 
have seen the results from this type of approach in states such as 
Pennsylvania, which enacted its own Good Samaritan law to provide 
protections and immunities to those groups and individuals who were not 
legally liable but who voluntarily undertook the reclamation of 
abandoned mine lands or abatement of mine drainage. However, even 
Pennsylvania Good Samaritans are still exposed to potential liability 
under federal law for their good deeds, which is having a debilitating 
effect on watershed cleanup efforts. The recent Fourth Circuit decision 
has further complicated this situation given its broad holding.
    Over the course of the past fifteen years, several bills have been 
introduced in the U.S. Congress to increase the cleanup of inactive and 
abandoned mines. Each bill offered a unique approach for addressing 
Good Samaritan voluntary remediation efforts to remove the current 
disincentives in the Clean Water Act that inhibit these cleanups. From 
the states' perspective, we have several recommendations and concerns 
that we believe should be considered in any Good Samaritan legislative 
effort, as follows:
        <bullet>  There are myriad reasons why Good Samaritan 
        legislation is needed, but perhaps the most important is to 
        remove the potential for incurring liability under the Clean 
        Water Act and CERCLA. These liabilities deter motivated, well-
        intentioned volunteers from undertaking projects to clean up or 
        improve abandoned sites, thereby prolonging the harm to the 
        environment and to the health and welfare of our citizens. 
        These impacts also have economic impacts that are felt 
        nationwide. In addition, the universe of abandoned mine lands 
        is so large and the existing governmental resources so limited 
        that without the assistance of Good Samaritan volunteers, it 
        will be impossible to clean up all of these lands.
        <bullet>  In accordance with the principles of state primacy 
        contained in laws such as SMCRA and the Clean Water Act, we 
        believe it is essential that Good Samaritan programs be 
        administered by state regulatory authorities (or federal 
        agencies where a state chooses not to administer the law), as 
        the states best understand the complexities associated with 
        abandoned mine lands within their borders, including which 
        sites can be improved and how to accomplish the improvement. 
        States also tend to have a better working relationship and 
        understanding of potential Good Samaritans. Given the current 
        structure of laws like SMCRA and the Clean Water Act, we 
        believe that the states are in the best position to administer 
        Good Samaritan programs with appropriate oversight by federal 
        agencies such as EPA and OSM
        <bullet>  There is merit to extending Good Samaritan protection 
        to abandoned coal, as well as hard rock, sites. The Western 
        Governors Association has taken the position that the proposed 
        definition of ``abandoned or inactive mined lands'' could be 
        drafted to include coal sites eligible for reclamation or 
        drainage treatment expenditures under SMCRA. We agree with this 
        assessment. Also, to the extent that Good Samaritan permits are 
        not required by states who are certified under Title IV of 
        SMCRA when performing hard rock AML remediation, this same 
        protection should be afforded to states performing coal AML 
        work. Furthermore, from a political support perspective, 
        extending Good Samaritan protections to abandoned coal mines 
        would likely enlist the support of more eastern and mid-
        continent states for the legislation.
        <bullet>  Some have suggested that provisions addressing 
        remining of abandoned mine sites should be included in the 
        legislation. Our position is that these two matters should not 
        be connected. They have somewhat different goals. As an 
        example, Pennsylvania allows those who are not legally liable 
        for the reclamation to engage in remining. Sites that have a 
        preexisting discharge can only be remined if the applicant 
        demonstrates, and the state finds, that the remining will 
        improve or eliminate the discharge. If the remining degrades 
        the preexisting discharge, the mine operator is responsible to 
        treat the resulting pollution. Remining of abandoned mine land 
        that does not contain preexisting mine drainage is allowed, 
        provided the operator reclaims the site to modern standards. To 
        the extent that additional incentives are considered as part of 
        Good Samaritan legislation, we suggest including technical 
        assistance and federal funding for these projects.
        <bullet>  Good Samaritan legislation should also include 
        provisions that allow for the minerals contained in the waste 
        on the abandoned mine land to be recovered as part of the 
        reclamation. Allowing recovery of materials from the waste can 
        help offset or totally pay for the reclamation. However, the 
        mineral recovery must be secondary to the purpose of reclaiming 
        the site. Appropriate safeguards must be provided in the 
        legislation to ensure the purpose of the work is to reclaim the 
        site and not to conduct mining. New mining or remining should 
        not be a part of Good Samaritan legislation.
        <bullet>  Good Samaritan protections should be extended to both 
        public and private lands. The pollution problem knows no such 
        boundaries and must be addressed wherever it occurs. The 
        environment and public health and safety all benefit by cleanup 
        of abandoned mine lands, whether public or private. We also 
        believe the protections should extend beyond federal lands so 
        as to allow nationwide application to all lands.
        <bullet>  With respect to applicable environmental standards 
        for Good Samaritan projects, we believe it is absolutely 
        critical that the legislation include flexible standards, based 
        on a determination by the state or federal regulatory authority 
        that the Good Samaritan efforts will result in environmental 
        improvement. Some abandoned mine problems are so intractable 
        that it is not possible to achieve ``total cleanup'' even with 
        today's technologies. These types of cleanups could also be 
        cost prohibitive. We know that in many circumstances some 
        cleanup can result in significant environmental improvement. 
        Forswearing that improvement because total cleanup cannot be 
        achieved is poor public policy and shortsighted. We also know 
        that, in some circumstances, even where total cleanup is 
        technically possible, at some juncture the cleanup reaches a 
        point of diminishing returns and the money would be better 
        spent on cleaning up other sites. The bottom line here is that 
        some cleanup is usually better than none at all.
        <bullet>  Finally, it has been Pennsylvania's experience under 
        its law that it is important that innocent landowners be 
        covered for the Good Samaritan project activities. Some 
        landowners will not cooperate if they are not protected.
    Any new legislation should also provide the opportunity to clarify 
what the term ``locatable mineral'' means under current law. Some 
minerals are ``locatable'' under certain circumstances and ``leasable'' 
under others. For instance, uranium, which is currently locatable under 
most cases, is leasable under the Atomic Energy Act program and may 
become entirely leasable under future legislation. This creates 
confusion as to whether all abandoned uranium sites are now, or will be 
in the future, eligible for funding under the AML provisions of 
proposed legislation. This is particularly important given the legacy 
of AML sites from past uranium mining in New Mexico and other 
southwestern states. We believe that it is important to clarify that, 
until such time as it is determined otherwise, uranium continues to be 
a locatable mineral and thus subject to the provisions of the Mining 
Law.
    Thank you for the opportunity to submit this testimony. Should you 
have any questions or require additional information, please contact 
us.
Contact Information:
FOR IMCC: Greg Conrad <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfa8aca0a1bdaeab8fa6a2acace1a6bcaee1babc">[email&#160;protected]</a> (703) 709-8654
FOR NAAMLP: Mike Garner <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="39545e584b575c4b79545d5c174a4d584d5c17545d174c4a">[email&#160;protected]</a> (301) 689-1460

                               Attachment

             Examples of Hardrock Abandoned Mine Projects 
                      Ready for Immediate Funding

        <bullet>  South Dakota--South Dakota has one major mining 
        Superfund site currently in the remedial design and action 
        phase. The Gilt Edge Mine Superfund Site is located in the 
        northern Black Hills, approximately four miles from the town of 
        Deadwood. Mining activities began at the site in 1876 and 
        continued intermittently for more than 100 years. The most 
        recent owner of the site, Brohm Mining Company, operated a 
        large-scale, open pit, heap-leach gold mining operation at the 
        site from 1986 until 1999. Brohm affected 265 acres consisting 
        of open pits, waste rock depositories, process facilities, and 
        a heap leach pad. This mining activity caused significant acid 
        rock drainage. In 1999 Brohm abandoned the site, which was then 
        taken over by the state of South Dakota. In 2000 the EPA listed 
        the mine as a Superfund Site. Work accomplished to date is the 
        construction of a lime-based water treatment plant for treating 
        acid water and the capping of a 65-acre acid generating waste 
        rock facility. EPA recently issued a Record of Decision for the 
        remediation of the rest of the site which includes three pits, 
        waste rock depositories, a heap leach pad and process 
        facilities. Remedial design is estimated to take one year with 
        the selected remedy emphasizing site-wide consolidation and 
        containment of mine waste. The estimated cost for the remaining 
        reclamation work is $72 million and it will take five to seven 
        years to complete depending on availability of funding. Plans 
        for water treatment will be finalized after site reclamation is 
        completed.
        <bullet>  Montana--Montana currently has three construction-
        ready abandoned mine projects where all environmental and 
        engineering studies have been completed and the projects lack 
        only construction funding. A total of $4.5 million must be in 
        place before these abandoned hard rock projects can be let for 
        bidding.
        <bullet>  Colorado:

Overview
    A statewide inventory of abandoned mines estimates that over 23,000 
abandoned mine features (shafts, adits, stope openings) exist in 
Colorado. Approximately 400 legacy mine sites are adversely impacting, 
or have the potential to impact, over 600 miles of rivers and streams 
in the state. Legacy mines were operated prior to 1977 and prior to any 
permitting requirements. The current landowners of these mine sites did 
not participate in the mining and have no responsibility for their 
reclamation or remediation.

Hardrock Mine Safety Hazards
    Colorado's Abandoned Mine Reclamation Program (AML) was established 
in 1980 to address the hazards and environmental problems arising from 
abandoned mines in Colorado. It was instituted under the provisions in 
the Surface Mining Control and Reclamation Act (SMCRA) of 1977, which 
gives the states that have approved coal mining regulatory programs 
under Title V of SMCRA the ability to assume exclusive responsibility 
and authority to reclaim abandoned mine lands within their borders. 
Mines abandoned prior to 1977 are eligible for the program. The program 
was launched with a comprehensive inventory of hazards and 
environmental problems associated with past mining activities, which 
revealed an estimated 23,000 abandoned mined sites throughout the 
state. Using this inventory, Colorado prepared a statewide reclamation 
plan, which was approved by the U.S. Department of the Interior, Office 
of Surface Mining (OSM) in June 1982. Since then, approximately 7,800 
abandoned mine openings have been addressed through this program.

Abandoned Mine Drainage
    Water quality issues due to legacy mines present some of the most 
difficult challenges to restoring impaired water bodies in Colorado, 
from both the technical and legal perspectives. Legacy mines are a 
common pollution source in the mountains of Colorado. Many stream 
segments on the state list of impaired segments are impacted by heavy 
metals from inactive and legacy mines and natural background geologic 
sources. Dissolved metals and acidity due to legacy mining and natural 
loading sources make up 51% of the impaired waters in the State of 
Colorado. Common mine-related metal pollutants include zinc, cadmium, 
manganese, iron, copper and lead. Sediment related to past mining and 
milling activities also contributes to the contamination of the state's 
waters.
    The amount of available funding to reclaim these sites and improve 
water quality is far over-shadowed by the magnitude of the water 
quality impact. For example, Colorado's allocation of the national non-
point source appropriation is approximately $1.9 million per year. 
However, the estimate to remediate just one of the many impaired river 
basins in Colorado is $30 million dollars. The cost to restore water 
quality impacted by legacy mining issues statewide is estimated to cost 
nearly $314 million.

Animas Basin Remediation Efforts
    One example of an impaired watershed in Colorado is the Animas 
River Basin. The water quality in the Animas Basin is severely impacted 
by legacy mining and the basin was selected as one of two initial pilot 
sites in the nation for a ten year remediation effort which extended 
from the mid-1990's to a few years ago. Remediation efforts have been 
driven by an extensive characterization process where some 200 mine 
sites have been prioritized for feasibility of metal loading 
reductions. This work was significantly supported by scientific studies 
done through the Department of Interior's Abandoned Mined Land 
Initiative.
    The sites selected for remediation represented 90% of the mining-
related metal loading sources. So far, remediation has been completed 
on 28 of the 32 mine waste sites and some remediation has been done on 
5 of the 34 draining mines. Unfortunately, most of the mine-related 
metal loading in the basin emanates from the draining mines as opposed 
to the mine waste. Consequently, the local watershed group's 
restoration efforts have been limited by the lack of a Good Samaritan 
provision in the Clean Water Act to reduce liability for third-party 
cleanups. In an effort to move forward, the watershed group developed a 
pilot project Good Samaritan provision to apply to the Animas River 
Basin and had it introduced twice in Congress. Neither of these efforts 
was successful and presently there is no legislation to protect a 
``Good Samaritan'' from incurring long term liability when remediating 
effluent from draining mines.

Creating Jobs and the Reclamation & Restoration Economy
    Each year the AML program addresses approximately 350 mine openings 
and participates in about nine water quality improvement projects. 
These construction activities create jobs and enhance the local 
economic climate, and they also result in greater tax revenues for 
state and local governments by increasing the revenues collected from 
income and sales taxes. Construction jobs and the associated 
expenditures are input to local economies and spread through a large 
geographic area of rural Colorado, where any additional economic 
benefit is highly valuable. Local economies in the historic and rural 
mining areas benefit from the direct and indirect cumulative 
expenditures as a result of contractor labor, and purchase of 
materials, equipment, supplies, and in many cases meals and lodging. 
The AML program overall has created approximately 300 new permanent 
private-sector construction jobs, putting $23.6 million into local 
economies, and generating $1.5 million in Colorado sales and income tax 
revenues. (Note: used rounded RIMS II Multipliers for the industries 
indicated in the state of Colorado)
    The true beneficiaries of reclamation and restoration of abandoned 
mined lands are the citizens of the local community. In addition to the 
economic stimulus that the restoration activities bring to the 
community, those who live and work in mining areas see the effects of 
reclamation projects every day through increased tourism and improved 
environmental conditions. Preservation of a community's historic mining 
area enhances the local tourism economy by providing visitors and 
tourists with safe ways to explore and enjoy Colorado's historic mining 
areas. Also, historic mining areas provide opportunities for tourists, 
and local residents, to experience the places and activities that 
authentically represent the people of the past and present while, at 
the same time, recognizing the value of the ample natural resources of 
the mountain environment.
    Following are photographs of inactive mine drainage sites in 
Colorado that are seriously impacting water quality:
        <bullet>  Utah--Utah has an estimated 15-20,000 abandoned mine 
        openings. Future safety hazard abatement projects (i.e. shaft 
        and adit closure) that would use SMCRA funds have been 
        identified and ranked. The 25 top-ranked hazardous abandoned 
        mine areas contain approximately 4500 hardrock mine openings. 
        Within 24 months Utah could conduct 7 projects in the most 
        dangerous areas (1270 mine openings). Safeguarding these 
        abandoned mine openings would require an estimated $6,350,000. 
        Assuming legal authority and funding are available, the 
        incremental environmental cleanup would increase the cost to 
        $19,050,000. In addition, due to SMCRA funding limitations, 
        many high priority environmental remediation problems exist at 
        previously completed hazard abatement projects.
        <bullet>  New Mexico--the state has six projects with a total 
        estimated construction cost of $2.8 million that could be 
        undertaken within the 18--24 month time frame. These costs are 
        only for the construction contracts, and do not include any 
        costs for investigation, evaluation, design or oversight. The 
        projects all involve noncoal and are on federal lands. One 
        project involves a legacy uranium minesite on BML land where 
        project development and construction costs are expected to be 
        about $1.6 million.
        <bullet>  Virginia--Based on current inventory data of over 
        4,000 abandoned hardrock mining sites in Virginia, over 30% or 
        1,200 of the sites pose severe safety hazards and approximately 
        400 or 10% pose severe environmental hazards. In the next 18 
        months, approximately five hundred thousand dollars of 
        reclamation could be initiated to remediate safety hazards on 
        federal and private lands in Virginia.. Several projects are 
        estimated to cost upwards of ten million dollars each to 
        reclaim. They would involve testing and engineering to 
        remediate as well as release from liability under the Clean 
        Water Act. All projects are bid competitively to the private 
        sector thereby providing employment and economic benefits to 
        the local economies.
        <bullet>  Wyoming--In the next 18 months Wyoming can put $30 
        million worth of projects on the ground. The number of jobs 
        that would be involved is harder to estimate but based on 
        similar sized projects it would be around 75 people but less 
        than 100.
        <bullet>  Arizona--the state has 94 high-risk mine sites with 
        58 sites which can be identified for closure in the next 36 
        months. This means that over 61% of the 94 mines sites pose 
        serious public safety and environmental threats to the public. 
        These areas typically have high use for backcountry touring and 
        off highway vehicle activities, and recreational mineral 
        collection by winter visitors, or are located near populated 
        areas. Many of the 94 mine sites has several openings with 
        depth's greater than 50 feet. The number of jobs created by and 
        through AML hardrock remediation is difficult to estimate 
        because, in general, the abandoned mines that need to be 
        addressed resulted from the efforts of small-time prospectors. 
        We would estimate the number of jobs created to be 50-100. This 
        number is subject to change once the momentum of closures 
        increases throughout the 36 month timeline. The estimated costs 
        are $940,000. Abandoned mines pose a serious threat to public 
        health and safety and to the environment. Public safety is a 
        growing concern as urban areas expand. Failure to timely and 
        properly act to close mines posing serious hazards may cause 
        liability problems for the state.
        <bullet>  California--the state estimates that approximately 
        47,000 abandoned mines are distributed throughout California. 
        Of these, approximately 5,200 sites (11% of 47,000) present 
        environmental hazards, and more than 39,400 sites (84%) present 
        physical safety hazards. Some of the highest priority AML sites 
        (for example, Iron Mountain) are being addressed, but the 
        majority have not been evaluated to determine the required 
        cleanup actions to protect public health and safety and the 
        environment. In addition, there are numerous areas throughout 
        the Sierra, including tribal lands that are contaminated from 
        historic mercury use associated with gold mining. Hundreds of 
        millions of dollars will ultimately be necessary to remediate 
        all the AML sites within the State. As you know, California 
        does not currently receive federal AML funding as it is not a 
        SMCRA state.
    In 2007, at the request of Senator Feinstein's office, California's 
state and federal agencies working on AML issues created lists of 
priority AML sites with environmental and physical hazards. The list is 
being updated, but a current version is available from the state or 
IMCC. This list provides a snapshot of the known environmental, human 
health, and safety problems posed by abandoned mines in California. It 
is important to note that many AML sites have not yet been inventoried 
or assessed for hazards. The prioritization process used for each list 
is briefly outlined in the document.
    Of the sites on the list, many can be considered at/near a 
``shovel-ready'' stage (i.e., projects already advanced that can be put 
out to bid/work within 18 months). Listed alphabetically below are six 
of the State's priorities identified by the Office of Mine Reclamation, 
State Water Resources Control Board, and Department of Toxic Substances 
Control.
        <bullet>  Argonaut Mine, Amador County (private land/low-income 
        PRP): $2.0M
        <bullet>  La Joya Quicksilver Mine, Napa County (private land/
        low-income PRP): $2.0M
        <bullet>  New London Mine, San Luis Obispo County (California 
        National Guard): $3.0M
        <bullet>  Oro de Amador, mine tailings in Amador County (city 
        of Jackson): $5.0M
        <bullet>  Plumas Eureka Mine, Plumas County (State Parks): 
        $3.0M
        <bullet>  150-200 priority physical hazard features on federal 
        and state lands: $1.5M
          TOTAL: $16.5 million
    Other priority sites would likely be provided by federal agencies 
such as the Bureau of Land Management, U.S. Forest Service, and 
National Park Service (an estimated 67% of California's AML sites lie 
on federal land). We would like to stress that any hardrock AML funds 
for California's priority AML sites should go directly to the State of 
California or that the federal agencies receiving funds funnel them to 
the State.
    Please note, the above ``short list'' represents only a partial 
list. We would be happy to work with the Subcommittee to provide a 
complete list that corresponds to our updated priorities. The above 
short list also does not address the many abandoned mine sites that 
would benefit from funding for assessment investigations prior to 
cleanup Should such funds be available, California could use an 
additional, initial $5,000,000 to conduct investigations at AML sites 
that pose immediate threats to human health and the environment to 
define cleanup construction projects. State and federal agencies would 
work together to conduct the investigations and select the highest 
priority cleanup actions. Sites and cleanup actions would be defined 
within less than a year of initiation of the investigation work and 
construction contracts could be awarded using contractors in place 
several months thereafter (thus, within 18 months from the notification 
of funding to award additional cleanup construction contracts).
                                 ______
                                 

 Statement of Gregory E. Conrad, Executive Director of the Interstate 
 Mining Compact Commission, on behalf of the Interstate Mining Compact 
Commission and the National Association of Abandoned Mine Land Programs 
Re: Legislative Hearing on S. 897, To Amend the Surface Mining Control 
   and Reclamation Act of 1977, Before the Public Lands and Forests 
 Subcommittee, Senate Energy and Natural Resources Committee, May 18, 
                                  2011

    My name is Gregory E. Conrad and I serve as Executive Director of 
the Interstate Mining Compact Commission. I am submitting this 
statement for the record on behalf of the Interstate Mining Compact 
Commission (IMCC) and the National Association of Abandoned Mine Land 
Programs (NAAMLP) regarding a legislative hearing on S. 897, a bill to 
amend the Surface Mining Control and Reclamation Act of 1977 (SMCRA) to 
clarify that uncertified States and Indian tribes have the authority to 
use certain payments for noncoal reclamation projects and for the acid 
mine drainage set-aside program. Both of the organizations I represent 
strongly support this critical amendment to SMCRA.
    The Interstate Mining Compact Commission (IMCC) is an organization 
of 24 states located throughout the country that together produce some 
95% of the Nation's coal, as well as important hardrock and other 
noncoal minerals. Each IMCC member state has active mining operations 
as well as numerous abandoned mine lands within its borders and is 
responsible for regulating those operations and addressing mining-
related environmental issues, including the reclamation of abandoned 
mines. Over the years, IMCC has worked with the states and others to 
identify the nature and scope of the abandoned mine land problem, along 
with potential remediation options.
    The NAAMLP is a tax-exempt organization consisting of 30 states and 
Indian tribes with a history of coal mining and coal mine related 
hazards. These states and tribes are responsible for 99.5% of the 
Nation's coal production. All of the states and tribes within the 
NAAMLP administer abandoned mine land (AML) reclamation programs funded 
and overseen by the Office of Surface Mining (OSM) pursuant to Title IV 
of the Surface Mining Control and Reclamation Act (SMCRA, P.L. 95-87).
    Mr. Chairman, nationally, abandoned mine lands continue to have 
significant adverse effects on the environment. Some of the types of 
environmental impacts that occur at AML sites include subsidence, 
surface and ground water contamination, erosion, sedimentation, 
chemical release, and acid mine drainage. Safety hazards associated 
with abandoned mines account for deaths and/or injuries each year. 
Abandoned and inactive mines, resulting from mining activities that 
occurred over the past 150 years, are scattered throughout the United 
States. The sites are located on private, state and public lands.
    Over the years, several studies have been undertaken in an attempt 
to quantify the hardrock AML cleanup effort. In 1991, IMCC and the 
Western Governors' Association completed a multi-volume study of 
inactive and abandoned mines that provided one of the first broad-based 
scoping efforts of the national problem. Neither this study, nor any 
subsequent nationwide study, provides a completely reliable and fully 
accurate on-the-ground inventory of the hardrock AML problem. Both the 
1991 study and a recent IMCC compilation of data on hardrock AML sites 
were based on available data and professional judgment. While the data 
is seldom comparable between states due to the wide variation in 
inventory criteria, they do demonstrate that there are large numbers of 
significant safety and environmental problems associated with inactive 
and abandoned hardrock mines and that remediation costs are very large.
    Across the country, the number of abandoned hardrock mines with 
extremely hazardous mining-related features has been estimated at 
several hundred thousand. Many of the states and tribes report the 
extent of their respective AML problem using a variety of descriptions 
including mine sites, mine openings, mine features or structures, mine 
dumps, subsidence prone areas, miles of unreclaimed highwall, miles of 
polluted waterways, and acres of unreclaimed or disturbed land. Some of 
the types of numbers that IMCC has seen reported in our Noncoal Mineral 
Resources Survey and Report and in response to information we have 
collected for the Government Accountability Office (GAO) and others 
include the following gross estimated number of abandoned mine sites: 
Alaska--1,300; Arizona--80,000; California--47,000; Colorado--7,300; 
Montana--6,000; Nevada--16,000; Utah--17,000 to 20,000; New York--
1,800; Virginia--3,000 Washington--3,800; Wyoming--1,700. Nevada 
reports over 200,000 mine openings; New Mexico reports 15,000 mine 
hazards or openings; Minnesota reports over 100,000 acres of abandoned 
mine lands and South Carolina reports over 6,000 acres.
    What becomes obvious in any attempt to characterize the hardrock 
AML problem is that it is pervasive and significant. And although 
inventory efforts are helpful in attempting to put numbers on the 
problem, in almost every case, the states are intimately familiar with 
the highest priority problems within their borders and also know where 
limited reclamation dollars must immediately be spent to protect public 
health and safety or protect the environment from significant harm.
    Today, state agencies are working on hardrock abandoned mine 
problems through a variety of limited state and federal funding 
sources. Various federal agencies, including the U.S. Environmental 
Protection Agency, Bureau of Land Management, U.S. Forest Service, U.S. 
Army Corps of Engineers and others have provided some funding for 
hardrock mine remediation projects. These state/federal partnerships 
have been instrumental in assisting the states with our hardrock AML 
work and, as states take on a larger role for hardrock AML cleanups 
into the future, we will continue to coordinate with our federal 
partners. However, most of these existing federal grants are project-
specific and do not provide consistent funding. For states with coal 
mining, the most consistent source of AML funding has been the Title IV 
grants under the Surface Mining Control and Reclamation Act (SMCRA). 
Section 409 of SMCRA allows states to use these grants at high priority 
non-coal AML sites. The funding is generally limited to safeguarding 
hazards to public safety (e.g., closing mine openings) at hardrock 
sites.
    In December 2006, Congress significantly amended the SMCRA AML 
program to, among other things, distribute funds to states in an amount 
equal to that previously allocated under SMCRA but never appropriated. 
However, while Section 409 was not changed or amended in any way, the 
Interior Department, through both a Soliticor's Opinion (M-37014) and 
final rule (73 Fed. Reg. 67576), has now interpreted SMCRA to prohibit 
this enhanced funding from being used for noncoal projects. This is a 
significant blow to states such as New Mexico, Utah and Colorado that 
have previously used SMCRA AML funds to address many of the more 
serious hardrock AML problems within their borders. In fact, some of 
the noncoal AML projects previously undertaken by these states have 
been recognized by OSM for their excellence pursuant to the agency's 
national AML awards program.
    S. 897 would remedy the Interior Department's unfortunate 
interpretation of the 2006 Amendments and as such we strongly support 
the bill. That interpretation not only disregards the fact that section 
409 was left unamended by Congress, it is also inconsistent with 
assurances repeatedly given to the states and tribes by OSM during the 
consideration of the legislation that noncoal work could continue to be 
undertaken with these AML funds. The interpretation would also have the 
unacceptable result of requiring states and tribes to devote funds to 
lower priority coal sites while leaving dangerous noncoal sites 
unaddressed. While OSM will argue that this may impact the amount of 
funding available to uncertified states to address high priority coal 
problems, Congress did not seem overly concerned with this result but 
rather deferred to its original framework for allowing both high 
priority coal and noncoal sites to be addressed.
    In its final rule implementing the 2006 amendments to SMCRA (at 73 
Fed. Reg. 67576, et seq.), OSM continued to abide by its argument that 
``prior balance replacement'' funds (i.e the unappropriated state and 
tribal share balances in the AML Trust Fund) are fundamentally distinct 
from section 402(g) moneys distributed from the Fund. This, according 
to OSM, is due to the fact that these prior balance replacement funds 
are paid from the U.S. Treasury and have not been allocated under 
section 402(g)(1). This is a distinction of convenience for the 
Interior Department's interpretation of the 2006 Amendments and has no 
basis in reason or law. The fact is, these funds were originally 
allocated under section 402(g)(1), are due and owing pursuant to the 
operation of section 402(g)(1), and did not change their ``color'' 
simply because they are paid from a different source. Without the 
operation of section 402(g)(1) in the first place, there would be no 
unappropriated (i.e. ``prior'') state and tribal share balances. The 
primary reason that Congress appears to have provided a new source for 
paying these balances is to preserve a balance in the AML Trust Fund to 
1) generate continuing interest for the UMW Combined Benefit Trust Fund 
and 2) to insure that there was a reserve of funding left after fee 
collection terminates in 2021 to address any residual high priority 
historic coal problems. There was never an intent to condition or 
restrict the previously approved mechanisms and procedures that states 
and tribes were using to apply these moneys to high priority coal and 
noncoal problems. To change the rules based on such a justification is 
inappropriate and inconsistent with law.
    The urgency of advancing this legislation has been heightened, Mr. 
Chairman, by statements in OSM's proposed budget for Fiscal Year 2012. 
Therein, OSM is proposing to further restrict the ability of states to 
expend AML funds on noncoal reclamation projects. This will apparently 
occur as part of a legislative proposal that the Administration 
supposedly intends to pursue in the 112th Congress. While the primary 
focus of that proposal will be the elimination of future AML funding 
for states and tribes that are certified under Title IV of SMCRA (which 
we adamantly oppose), OSM is also proposing to establish a hardrock AML 
reclamation fee in order to ``hold each industry [coal and noncoal] 
responsible for the actions of its predecessors.'' We are uncertain 
exactly what OSM has in mind with respect to this aspect of the 
legislative proposal, but we suspect it has to do with clarifying the 
very issue that is the subject of S. 897. And while there may be merit 
for a hardrock AML reclamation fee, the potential for enacting this fee 
in the near future is highly unlikely. In the meantime, we are losing 
valuable time and resources by failing to authorize the use of 
unappropriated state and tribal share balances to address what even OSM 
has characterized as ``a legacy of abandoned mine sites that create 
environmental hazards.'' It should be kept in mind, in this regard, 
that the availability of these funds for noncoal reclamation work will 
expire after FY 2014 when the last of the unappropriated state/tribal 
share funds will have been distributed.
    For the same reasons that Congress needs to clarify this 
misinterpretation for noncoal AML work, it should also do so for the 
acid mine drainage (AMD) set aside program. Section 402(g)(6) has, 
since 1990, allowed a state or tribe to set aside a portion of its AML 
grant in a special AMD abatement account to address this pervasive 
problem. OSM's recent policy (and now regulatory) determination is 
denying the states the option to set aside moneys from that portion of 
its grant funding that comes from ``prior balance replacement funds'' 
each year to mitigate the effects of AMD on waters within their 
borders. AMD has ravaged many streams throughout the country, but 
especially in Appalachia. Given their long-term nature, these problems 
are technologically challenging to address and, more importantly, are 
very expensive. The states need the ability to set aside as much 
funding as possible to deal with these problems over the long term. 
Congress clearly understood the magnitude of this challenge given the 
fact that it increased the amount of money that states could set aside 
for this purpose from 10 to 30 percent in the 2006 Amendments. We 
therefore strongly support the inclusion of language in S. 897 that 
will correct the current policy interpretation by Interior and allow 
the use of unappropriated state and tribal share balances (``prior 
balance replacement funds'') for the AMD set aside, similar to the use 
of these balances for noncoal work.
    Over the past 30 years, tens of thousands of acres of abandoned 
mine lands have been reclaimed, thousands of mine openings have been 
closed, and safeguards for people, property and the environment have 
been put in place. There are numerous success stories from around the 
country where the states' AML programs have saved lives and 
significantly improved the environment. Suffice it to say that the AML 
Trust Fund, and the work of the states pursuant to the distribution of 
monies from the Fund, have played an important role in achieving the 
goals and objectives set forth by Congress when SMCRA was first 
enacted--including protecting public health and safety, enhancing the 
environment, providing employment, and adding to the economies of 
communities impacted by past coal and noncoal mining. Passage of S. 897 
will further these congressional goals and objectives.
    In support of our position on S. 897, we also request that you 
include for the record the attached resolution (No. 07-8) adopted by 
the Western Governors that urges the continued use of funds collected 
or distributed under Title IV of SMCRA for the reclamation of high 
priority, hard-rock abandoned mines. This resolution is in support of 
the Western Governors' policy statements B.4 and B.5.
    Thank you for the opportunity to present our views on S. 897. We 
welcome the opportunity to work with you to complete the legislative 
process and see this bill become law.
                                 ______
                                 
Western Governors' Association
Policy Resolution 10-3
Cleaning Up Abandoned Mines in the West

A. BACKGROUND
        1.  Mining has a long history in the West. The western states 
        are rich in hardrock minerals like gold, silver and copper as 
        well as coal, much of it low sulfur.
Hardrock Mines
        2.  Historic hardrock mining in the West, unregulated until 
        recent years, has left a legacy of thousands of historic 
        abandoned mines, which pose a threat to human health and safety 
        and to the environment. These historic mines pre-date modern 
        federal and state environmental regulations which were enacted 
        in the 1970s. Often a responsible party for these mines is not 
        identifiable or not economically viable enough to be compelled 
        to clean up the site. Thousands of stream miles are impacted by 
        drainage and runoff from such mines, one of the largest sources 
        of adverse water quality impacts in several Western states.
        3.  Cleanup of abandoned hardrock mines is hampered by two 
        issues--lack of funding and concerns about liability. Both of 
        these issues are compounded by the land and mineral ownership 
        patterns in mining districts. It is not uncommon for there to 
        be dozens of parties with partial ownership or operational 
        histories associated with a given site.
        4.  Recognizing the potential for economic, environmental and 
        social benefits to downstream users of impaired streams, 
        Western states, municipalities, federal agencies, volunteer 
        citizen groups and private parties have come together across 
        the West to try to clean up some of these abandoned hardrock 
        sites. However, due to questions of liability, many of these 
        Good Samaritan efforts have been stymied.
        5.  Potential liability exists for Good Samaritans under Clean 
        Water Act (CWA) Section 402 National Pollutant Discharge 
        Elimination System (NPDES) permit program because a party can 
        inherit liability for any discharges from an abandoned mine 
        site remaining after their cleanup efforts, even though the 
        volunteering remediating party had no previous responsibility 
        or liability for the site, and has reduced the water quality 
        impacts from the site by completing a cleanup project.
        6.  Potential liability exists for Good Samaritans under the 
        Comprehensive Environmental Response, Compensation, and 
        Liability Act (CERCLA).
        7.  Liability concerns also prevent mining companies from going 
        back into historic mining districts and remining old abandoned 
        mine sites or doing volunteer cleanup work. While this could 
        result in an improved environment, companies that are 
        interested are justifiably hesitant to incur liability for 
        cleaning up the entire abandoned mine site.
Coal Mines
         8.  Congress authorized creation of the Abandoned Mine Land 
        (AML) Program under Title IV of the Surface Mining Control and 
        Reclamation Act of 1977 (SMCRA). The program is funded by fees 
        from current coal production. The coal AML program provides 
        funding to states to restore lands mined for coal and abandoned 
        or left inadequately restored before August 3, 1977.
         9.  Section 409 of SMCRA also authorizes states to use AML 
        grant funds to address high priority non-coal mine hazards. 
        While the state AML programs are limited to using SMCRA funds 
        to only address public health and safety hazards at abandoned 
        non-coal mines, and not purely environmental threats, the state 
        programs have employed this provision to make a dent in the 
        public safety threats posed by abandoned mines.
        10.  In December 2006, Congress amended Title IV of SMCRA to 
        reauthorize the fee collection authority, to provide for the 
        distribution of the unappropriated stateshare balance of the 
        AML Trust Fund, to increase the minimum program funding to $3 
        million per year. Section 409 of SMCRA was not amended and no 
        limits were placed on non-coal projects.
        11.  However, the Office of Surface Mining (OSMRE) adopted 
        rules to severely limit certain states from using AML funds for 
        non-coal mine hazards. For Colorado, New Mexico and Utah, over 
        70 % of their funds are now off limits for non-coal projects. 
        These states are required to fund lower priority coal mine 
        reclamation projects while higher priority non-coal hazards 
        would remain unfunded. The Administration is also proposing to 
        deny AML funds to states which have ``certified'' completion of 
        coal AML projects, contrary to agreements codified in 2006.
        12.  The new interpretation of SMCRA by OSMRE conflicts with 
        the clear language of the law authorizing the use of coal AML 
        funds for high priority non-coal mine hazards. OSMRE's new 
        interpretation will leave the public exposed to significant 
        hazards to public health and safety at abandoned non-coal mines 
        being ignored while states are required to expend coal AML 
        funds at lower priority coal mine sites.

B. GOVERNORS' POLICY STATEMENT
Hardrock Mines
        1.  Western Governors believe Congress should amend the Clean 
        Water Act to protect volunteering remediating parties who 
        conduct authorized remediation from becoming legally 
        responsible under section 301(a) and section 402 of the CWA for 
        any continuing discharges from the abandoned mine site after 
        completion of a cleanup project, provided that the remediating 
        party--or ``Good Samaritan''--does not otherwise have liability 
        for that abandoned or inactive mine site. Legislative and 
        administrative remedies to address potential CERCLA liabilities 
        should also be considered.
        2.  The Governors encourage federal land management agencies, 
        such as the U.S. Bureau of Land Management, the National Park 
        Service and the U.S. Forest Service, as well as support 
        agencies, such as the U.S. Environmental Protection Agency, the 
        U.S. Geological Survey and the U.S. Army Corps of Engineers, to 
        coordinate their abandoned hardrock mine cleanup efforts with 
        state efforts to avoid redundancy and unnecessary duplication, 
        and to employ the expertise and knowledge of state AML 
        programs.
        3.  Western Governors urge Congress to designate a dedicated 
        source of funding for the cleanup of abandoned hardrock mines.
Coal Mines
        4.  Western Governors urge the Administration to uphold the 
        intent of Congress to allow states to exercise discretion on 
        the use of their AML grant funds to address high priority non-
        coal abandoned mine hazards and to return funds due 
        ``certified'' states under existing law.
        5.  Western Governors urge Congress to adopt legislation to 
        restore the flexibility under SMCRA for the states to use AML 
        funds at both coal and high priority noncoal abandoned mine 
        sites and to ensure appropriate liability protections remain in 
        place.

C. GOVERNORS' MANAGEMENT DIRECTIVES
        1.  WGA staff will advance the policy positions stated above in 
        appropriate venues as warranted and report to Governors and 
        Staff Council on progress and impediments.
        2.  WGA shall transmit this resolution to Congress, the 
        Secretary of the Interior, Administrator of the Environmental 
        Protection Agency, the Director of the Office of Management and 
        Budget and other appropriate parties as warranted.
                                 ______
                                 
    Mr. Lamborn. All right. Thank you. And if there are no 
objection, both of the items that you referred to earlier, the 
video and the document, will added to the record. Hearing none, 
so ordered.
    [NOTE: The video has been retained in the Committee's 
official files.]
    Mr. Lamborn. Next we have Laura Skaer.

STATEMENT OF LAURA SKAER, EXECUTIVE DIRECTOR, NORTHWEST MINING 
                          ASSOCIATION

    Ms. Skaer. Thank you, Mr. Chairman, Ranking Member Holt, 
and Members of the Committee. I think it is important to 
understand that hardrock AMLs are historic, the result of 140 
years of mining prior to the enactment of modern environmental 
laws, regulations, and the requirement to provide financial 
assurance to guarantee reclamation.
    Unlike the past, modern Federal and State environmental 
laws, regulations, and financial assurance requirements work 
together to ensure that today's mines will not become 
tomorrow's AMLs.
    Thus, the AML problem is finite, and historical, and is not 
one that will grow in the future. This is evidenced by BLM's 
June 21 response to Senator Lisa Murkowski's March 8th letter 
stating that 659 plans of operation have been approved since 
1990. None of those are on the CERCLA NPL list, and BLM 
currently holds $1.7 billion in financial assurance.
    Nevertheless, mining opponents use pictures of historic 
unreclaimed abandoned mines to ferment public opposition to new 
mine proposals, suggesting disingenuously that these historic 
practices reflect modern practices.
    This is the equivalent of showing the picture of a 1957 
Chevrolet Bel-Air and stating that it does not have seat belts, 
air bags, or pollution control, and therefore, GM should not be 
allowed to produce new cars in 2011.
    Although some progress has been made, the number one 
impediment to voluntary mitigation and cleanup of hardrock AMLs 
is the potential for immediate and cradle-to-grave liability 
imposed by existing Federal and State environmental laws on 
anyone who wants to be a Good Samaritan.
    That impediment would be removed by comprehensive and 
effective good Samaritan legislation, which the mining industry 
strongly supports. Legislation that would allow mining 
companies and others with no previous involvement at an AML 
site to voluntarily improve safety and environmental conditions 
and reclaim the site, either whole or in part, without the 
threat of the potentially enormous liability under CERCLA, the 
Clean Water Act, and other laws.
    My written testimony outlines 10 essential elements of 
effective Good Samaritan legislation. I would like to highlight 
just a few. Mining companies that did not create environmental 
problems at an AML site must qualify as Good Samaritans.
    The mining industry has the desire, the technical 
expertise, experience, and technology, to assess the safety and 
environmental issues present at an AML site, and properly 
secure, mitigate, and reclaim those sites. In fact, more 
experience and expertise than all other potential Good 
Samaritans combined.
    Also, mining company Good Samaritans contribute private 
sector capital, thereby reducing the need for public sector 
resources. Two, a potential Good Samaritan must be able to 
gather needed site characterization data without having to 
conduct a PRP search, or go through a long and complicated 
permitting process.
    Three, Good Samaritan projects should be allowed as long as 
they are likely to result in an improvement to the environment, 
even if they will not result in complete cleanup of an AML 
site, or the attainment of all applicable environmental 
standards, such as stringent water quality standards.
    We should not let the pursuit of the perfect be the enemy 
of the good. Effective Good Samaritan legislation should 
encourage entities with sufficient expertise and resources to 
mill historic ways in order to recover, remove, or reduce the 
metal content.
    In many settings, this would result in the greatest degree 
of environmental improvement. Knowing these ways to recover 
some of the residual metals promotes conservation of resources, 
and would generate some of the metals that we need for 
strategic and economic purposes.
    Also, milling historic mine wastes is a closure technique 
that would achieve superior environmental results compared to 
the usual AML remedy, especially if the EPA is involved, which 
is to merely move the contaminants to a newly constructed waste 
repository.
    Relocating historic mine waste does not reduce or remove 
the source of pollution. Our goal should be to remove and not 
just move and cover. H.R. 3203 introduced by the Chairman in 
the last Congress provides a good starting point for effective 
Good Samaritan legislation.
    It already incorporates many of the 10 concepts enumerated 
in our written testimony, and could be improved by, one, 
providing a mechanism for conducting site investigations 
without incurring environmental liability, and without having 
to go through a full permitting process.
    Two, the PRP search should be significantly streamlined, 
and completely eliminated when only private monies are funding 
the cleanup. And three, restrictions on the ability of a mining 
company or other Good Samaritan to reprocess historic mine 
wastes in order to remove metals from these materials, should 
be eliminated.
    It is time for Congress to finally adopt the recommendation 
from the National Research Council's 1999 report, and enact 
effective Good Samaritan legislation, and create a framework 
with regulatory incentives and liability protection, to 
voluntarily remediate environmental problems caused by others 
at AML sites.
    We applaud the Chairman for holding this hearing, and look 
forward to working with the Committee to produce Good Samaritan 
legislation that will actually result in on-the-ground 
cleanups. I will be happy to answer any questions that you 
have. Thank you.
    [The prepared statement of Ms. Skaer follows:]

             Statement of Laura Skaer, Executive Director, 
                      Northwest Mining Association

Executive Summary
    Chairman Lamborn, Ranking Member Holt and Members of the Committee, 
the Northwest Mining Association (NWMA) appreciates this opportunity to 
provide testimony on Abandoned Mined Lands: Innovative Solutions for 
Restoring the Environment, Improving Safety and Creating Jobs.
    The mining industry has long been front and center in trying to 
deal responsibly with AMLs. Some of these efforts are documented in a 
study researched and authored by two of our members, Debra W. 
Struhsacker and Jeff W. Todd, and published in 1998 by the National 
Mining Association entitled ``Reclaiming Inactive and Abandoned Mine 
Lands--What Really is Happening.'' (A copy of this study is being 
included in the record and is hereinafter cited as the ``NMA Study''). 
This study presents compelling evidence that given the right 
opportunity, the mining industry can play a significant role in 
eliminating the safety hazards and improving the environment at 
abandoned and inactive mines.
    The industry also continues to strongly support the enactment of 
comprehensive Good Samaritan legislation that would allow mining 
companies with no previous involvement at an AML site to voluntarily 
reclaim and improve safety and environmental conditions at that site, 
in whole or in part, without the threat of potentially enormous 
liability under CERCLA, the Clean Water Act, and other federal and 
state environmental laws.
    Industry wants to see abandoned mines cleaned up. After all, they 
are incorrectly portrayed as being our dirty pictures, when they in 
fact represent the results of historic practices, typically 50 to 150 
years old, implemented by companies no longer in existence and/or 
persons no longer alive, and are reflective of societal values at that 
time (for example metals production at all costs for World War II). 
Nevertheless, mining opponents use pictures of historic, unreclaimed 
abandoned mines to foment public opposition to new mine proposals, 
suggesting disingenuously that these historic practices reflect modern 
practices. This is the equivalent of showing a picture of a 1957 
Chevrolet Bel Air and stating that it does not have seat belts, air 
bags, pollution control devices or meet CAFE requirements and therefore 
GM should not be allowed to produce new cars in 2011.
    Industry wants to see AMLs reclaimed and safety and environmental 
conditions improved as much as anyone, but we need your help. The 
mining industry has the desire, the experience, the technology, and the 
expertise to mitigate and reclaim AMLs. In fact, the mining industry 
has more experience and expertise than all other potential Good 
Samaritans combined. Additionally, the mining industry can contribute 
private-sector capital towards addressing the abandoned mine problems 
thereby reducing the need for public-sector resources. Effective Good 
Samaritan legislation makes sense and can be a win-win-win-win for the 
environment, for federal, state and local governments, for jobs for the 
Good Samaritan, for the community, and for society. We are here today 
to ask Congress to do its part and enact Good Samaritan legislation 
that will remove the legal liability hurdles and provide non-monetary 
incentives for a variety of persons and entities to reclaim and improve 
safety and environmental conditions at AMLs throughout the West.
    We applaud the Chairman for holding this hearing and look forward 
to working with him to produce Good Samaritan legislation that will 
actually result in on-the-ground Good Samaritan cleanups at Abandoned 
Mine sites.

NORTHWEST MINING ASSOCIATION: WHO WE ARE
    NWMA is a 116 year old, 2,000 member, non-profit, non-partisan 
trade association based in Spokane, Washington. NWMA members reside in 
42 states and are actively involved in exploration, mining and 
reclamation operations on public and private lands, especially in the 
West. Our diverse membership includes every facet of the mining 
industry including geology, exploration, mining, engineering, equipment 
manufacturing, technical services, and sales of equipment and supplies. 
NWMA's broad membership represents a true cross-section of the American 
mining community from small miners and exploration geologists to both 
junior and large mining companies. More than 90% of our members are 
small businesses or work for small businesses. Most of our members are 
individual citizens. Our members have extensive first-hand experience 
with reclaiming active and inactive mine sites and remediating a 
variety of environmental conditions and safety issues at these sites.
    Our members also have extensive knowledge of Abandoned Mine Lands 
(AMLs) in the U.S. In addition to the study mentioned above, Ms. 
Struhsacker has testified before the Senate Energy and Natural 
Resources Committee on AML issues (March 12, 2008), and I have 
testified before this subcommittee on AML and Good Samaritan issues on 
two previous occasions (July 13, 2006 and October 3, 2007). Another 
NWMA member, Julian C, Isham, testified at a subcommittee field hearing 
on Abandoned Mines and Mercury in California (November 23, 2009). 
Copies these testimonies are attached and incorporated into the record 
for this hearing.

ABANDONED MINE LANDS ARE HISTORIC
    It is important to understand when we talk about hardrock abandoned 
mine lands we are talking about a problem which was created in the past 
due to mining practices used at sites mined prior to the enactment of 
modern environmental laws and regulations and the requirement for mine 
operators to provide financial assurance to guarantee their sites will 
be properly reclaimed. Table 1 lists the dates of development of many 
of the major mining districts in the country compared to the dates of 
enactment of many of the federal and state environmental laws and 
regulations that govern hardrock mining activities. As is clearly seen 
from this table, mining in the U.S. dates back to the 1820s, with 
significant historic mine development throughout the remainder of the 
19th century and into the early part of the 20th century. Many of the 
AML sites that need attention were created in this timeframe.
    It also is important to note that during World Wars I and II, the 
federal government directed operations at many mines to produce the 
metals and minerals necessary for the war efforts. The focus was on 
maximizing production and winning the war--not on using mining methods 
that were designed to protect the environment. The metals mined from 
these sites greatly benefited U.S. society by contributing to the 
country's victories in both wars. What we are left with today, however, 
are the environmental impacts created by these unregulated mining 
activities. Some of these war-efforts mines are now abandoned. Because 
the American public benefited in the past from mining of these sites, 
we now have a public responsibility to develop policies and funding 
mechanisms to reclaim these sites.
    Many modern mining practices began to be implemented in the mid-
1960s at about the same time that the country was developing an 
environmental awareness and when Congress was starting to enact 
environmental laws. Thus, as is readily apparent from Table 1, the U.S. 
environmental statutory and regulatory framework is a recent 
development compared to the history of mining in the U.S. Moreover, it 
is important to recognize that many of the laws and regulations 
governing hardrock mining are quite new--some are less than 25 years 
old. For example, Nevada's state reclamation law went into effect in 
1990, only 21 years ago. BLM's regulations for hardrock mining, the 43 
CFR. Subpart 3809 program, went into effect in 1981 and were 
substantially updated just ten years ago in 2001.
    The body of federal and state environmental laws and regulations 
shown in Table 1 has had a significant and positive impact on the way 
mining is now conducted in the U.S., resulting in a substantial 
reduction in environmental impacts and dramatic improvements in 
reclamation. As a result of these laws and regulations, the domestic 
hardrock mining industry of today is highly regulated and 
environmentally and socially responsible. The creation of these laws 
has caused the mining industry to completely revise how mines are 
designed and operated, so that now, reclamation is a fundamental and 
integrated part of mine planning and operation as today's mines are 
designed, built and operated for closure. Also, because these laws and 
regulations require exploration and mining companies to provide 
financial assurance to guarantee reclamation at the end of the project, 
mines today will not become future AML sites. In the event a company 
goes bankrupt or defaults on its reclamation obligations, state and 
federal regulatory agencies will have bond monies available to reclaim 
the site. In a June 21, 2011 letter from Robert V. Abbey, Director of 
the Bureau of Land Management (BLM) to Senator Lisa Murkowski, the BLM 
told Senator Murkowski that 659 Plans of Operation have been approved 
since 1990 and that none of those sites have been placed on the CERCLA 
NPL list. Thus, the AML problem is a finite and historical problem and 
not one that will grow in the future.
    As shown in Table 1, the U.S. Forest Service adopted the 36 CFR. 
Part 228A surface management regulations governing hardrock mining 
operations on National Forest Lands in 1974. Six years later, in 1980, 
BLM enacted the 43 CFR. Subpart 3809 surface management regulations, 
which were substantially expanded and updated in 2000 and 2001. Both 
BLM's 3809 regulations and the U.S. Forest Services' 228A regulations 
require all exploration and mining activities above casual use provide 
federal land managers with adequate financial assurance to ensure 
reclamation after completing the exploration or mining project. Because 
the underlying purpose of the financial assurance requirement is to 
ensure reclamation of the site in the event an operator goes bankrupt 
or fails to reclaim a site for some other reason, the amount of 
required financial assurance is based on what it would cost BLM or the 
U.S. Forest Service to reclaim the site using third-party contractors 
to do the work. According to BLM's June 21 letter to Senator Murkowski, 
the amount of financial assurance currently held by BLM is $1.7 
billion.
    In addition to mandating reclamation and establishing financial 
assurance requirements, these comprehensive federal regulations also 
require compliance with all applicable state and federal environmental 
laws and regulations to protect the environment and to meet all 
applicable air quality, water quality and other environmental 
standards.
    Additionally, all western public land states have enacted 
comprehensive regulatory programs that govern hardrock mining 
operations in their respective state. Like the federal financial 
assurance requirements, these state regulatory programs require the 
posting of adequate financial assurance or reclamation bonds in an 
amount equal to the cost that would be incurred by the government if it 
had to contract with a third party to remediate and reclaim the site. 
In many states, federal and state regulators with jurisdiction over 
mining work together to jointly manage the reclamation bonding 
programs. For example, in Nevada, the BLM, the U.S. Forest Service and 
the Nevada Division of Environmental Protection/Bureau of Mining 
Regulation and Reclamation have entered into a Memorandum of 
Understanding (MOU) that establishes procedures for coordinating the 
federal and state regulatory programs for mining. This MOU specifies 
that the federal and state agencies will work together to review 
reclamation cost estimates and to agree upon the required bond amount.

[GRAPHIC] [TIFF OMITTED] T7405.001

[GRAPHIC] [TIFF OMITTED] T7405.002

[GRAPHIC] [TIFF OMITTED] T7405.003

    .epsIn 1999, the National Academy of Sciences National Research 
Council, in response to a request from Congress to assess the adequacy 
of the regulatory framework for hardrock mining on federal lands, found 
that '' [t]he overall structure of the federal and state laws and 
regulations that provide mining-related environmental protection is 
complicated, but generally effective.'' Thus, these state and federal 
comprehensive regulatory programs together with financial assurance 
requirements work together to ensure that modern mining is 
environmentally responsible and that today's mines will be reclaimed.

THE VAST MAJORITY OF AML SITES DO NOT POSE SIGNIFICANT ENVIRONMENTAL 
        PROBLEMS
    It is important to understand that the vast majority of all 
hardrock AML sites are not problematic. The 1998 WGA report mentioned 
above estimated that more than 80% of AML sites create neither 
environmental nor immediate safety hazards. Where problems do exist, 
safety hazards are the primary problem although some AML sites have 
both environmental and safety issues.
    The Center of the American West released a study in 2005 entitled 
``Cleaning Up of Abandoned Hardrock Mines in the West.'' The Center, 
which is affiliated with the University of Colorado, states at page 31 
of its report that ``only a small fraction of the 500,000 abandoned 
mines [identified by the Mineral Policy Center] are causing significant 
problems for water quality.''
    A 2007 USFS/BLM report estimates that as many as 10% of the AML 
sites on USFS- or BLM-managed land may include environmental hazards 
and that the balance, or approximately 90%, are landscape disturbances 
or safety hazards. The finding that landscape disturbance and safety 
hazards comprise the bulk of the AML problem is consistent with other 
reports.
    Although much of the public debate about the AML problems typically 
focuses on environmental issues, it is really safety hazards that 
deserve our immediate attention. Nearly every year, the country 
experiences one or more tragic accidents or fatalities at an AML site 
where somebody has fallen into or become trapped in an unreclaimed 
historic mine opening. AML safety hazards pose a far greater risk to 
the public than AML environmental problems. Therefore, we should focus 
first-priority AML funds on eliminating safety hazards at AML sites 
located near population centers and frequently used recreation areas.
    The 1998 NMA Study cited above includes a comprehensive discussion 
of the types of safety hazards and environmental problems that exist at 
AML sites. Table 2 summarizes this discussion and lists the safety 
hazards and environmental problems that may occur at AML sites and the 
techniques used to address these hazards and problems. As stated above, 
landscape disturbances and safety hazards are the dominant problem at 
most AML sites. However, some sites may have a combination of landscape 
disturbance, safety hazards, and environmental problems.

[GRAPHIC] [TIFF OMITTED] T7405.004

    Although many of the above listed measures are expensive--
especially those used to improve safety and environmental problems--
they are technically straightforward, well understood, and are 
generally quite effective in improving environmental conditions at AML 
sites. The NMA Study identified a number of AML sites with safety 
hazards and/or environmental problems that were substantially reduced 
through the use of one or more of the measures listed in Table 2. It is 
important to understand, however, that each AML site is different and 
the nature of AML issues is site-specific. The measures shown in Table 
2 to address landscape disturbance, safety hazards, and environmental 
problems at an AML site must be custom-tailored to fit the site-
specific conditions of a particular site. A cookie-cutter, one-size-
fits all approach will not achieve optimal results and may even fail to 
address the problem.
    AML policy discussions have had a tendency to focus on the worst 
and most complex AML sites. This mischaracterization of the global AML 
problem has probably contributed to the lack of progress in developing 
federal policies and programs to solve the AML problem. The legislative 
dialogue about enacting Good Samaritan legislation has perhaps been 
made more difficult by focusing on sites with very serious or complex 
environmental and liability issues such as sites with acid drainage 
from underground mine openings which typically require extensive and 
costly remediation efforts. Not all AML sites that may be discharging 
contaminated water can be remediated easily. Although this type of site 
is serious and deserving of our immediate attention, it is not 
representative of the safety and environmental concerns at most AML 
sites. In other words, not every AML site will be a model for a Good 
Samaritan project. Focusing solely on the most challenging AML sites is 
likely to produce programs and policies with unwarranted complexity and 
costs, resulting in little or no environmental improvement.

THE NEED FOR GOOD SAMARITAN LEGISLATION
    Although, as discussed above, some progress has been made by 
industry and existing State and federal AML programs in reducing safety 
hazards and remediating and reclaiming hardrock AMLs, the number one 
impediment to voluntary cleanup of hardrock abandoned mine lands is the 
potential liability imposed by existing federal and state environmental 
laws, in particular the Clean Water Act (CWA), the Comprehensive 
Environmental Response, Compensation and Liability Act (CERCLA) 
(commonly known as Superfund), the Resource Conservation & Recovery Act 
(RCRA), and the Federal Toxic Substances Control Act. Under these laws, 
a mining company, state or federal agencies, communities, NGOs, 
individuals or other entities that voluntarily improve safety and 
environmental conditions at an abandoned mine site could potentially 
incur both immediate and ``cradle-to-grave'' liability, even though 
they did not cause or contribute to the environmental condition at the 
abandoned mine land site and their actions improve the environment or 
abate a safety hazard.
    Furthermore, they could be required under the CWA to prevent 
discharges to surface waters from the AML in perpetuity, or obtain a 
permit and treat such discharges to meet strict effluent limitations 
that do not result in exceedences of stringent water quality standards, 
something that may not be possible; and in any event, may be so 
expensive that no company, individual, or other entity would undertake 
a voluntary cleanup.
    Virtually everyone who has looked at the AML issue in the west has 
recognized and documented the legal impediments to voluntary cleanup of 
AMLs and has urged that those impediments be eliminated. These groups 
include the Western Governors Association, the National Academy of 
Sciences, and the Center for the American West.
    The time has come for Congress to adopt the recommendation from the 
National Academy of Sciences National Research Council's 1999 report to 
Congress and enact effective Good Samaritan legislation that will 
create a framework, with regulatory incentives and liability protection 
for numerous entities, including mining companies, local, state and 
federal agencies, communities, NGOs, and tribes to voluntarily improve 
safety and environmental problems caused by others at abandoned 
hardrock mine sites in the U.S.
    The Mining and Minerals Policy Act of 1970 (30 U.S.C. Sec. 21(a)), 
specifically establishes the Congressional intent ``to foster and 
encourage private enterprise in the development of economically sound 
and stable domestic mining, minerals, metal, and mineral reclamation 
industries.'' Including provisions to authorize managing historic mine 
wastes to minimize or eliminate pollution or the threat of pollution in 
Good Samaritan legislation is consistent with and promotes this 
Congressional intent.

ELEMENTS OF EFFECTIVE GOOD SAMARITAN LEGISLATION:
    To be effective, Good Samaritan legislation must embody the 
following key provisions:
        1.  Mining companies that did not create environmental problems 
        at an AML must qualify as Good Samaritans. No one knows more 
        about the proper management of mine wastes and reclaiming and 
        mitigating mine sites than the mining industry. The mining 
        industry has the desire, technical expertise, experience, and 
        technology to effectively and efficiently assess the safety and 
        environmental issues present at an AML site and to properly 
        secure, improve safety and environmental conditions, and 
        reclaim those sites. In some situations, this can be done in 
        conjunction with mining and reclamation activities at nearby 
        active mines which the company operates, resulting in an 
        efficient use of resources to improve the environment and 
        enhance public safety. Creating a Good Samaritan law that 
        removes the existing regulatory and liability barriers that 
        currently discourage private sector cleanups would be good 
        public policy because it would stimulate the use of private-
        sector resources to address the public problems caused by 
        abandoned mines and create jobs.

           For example, Teck Cominco American Incorporated (now Teck 
        American) purchased the Pend Oreille Mine in Pend Oreille 
        County, Washington in 1996 and brought it back into production 
        in 2004. It is located in a setting where a substantial amount 
        of historical mining took place before there were environmental 
        laws and regulations and modern mining practices. There are 
        many abandoned mine sites in the area of the Pend Oreille Mine. 
        In working with the local community, Teck determined that many 
        of the old mine openings presented a potential hazard to public 
        safety. Those that did not involve environmental issues were 
        voluntarily closed through the installation of bulkheads in 
        several of the openings.

           Teck has been approached by state and federal agencies to 
        see if it could mill some of the historic waste rock piles, ore 
        piles and concentrate accumulations in the area. In each and 
        every case, the company chose not to undertake this cleanup 
        effort due to the strict nature of its Clean Water Act 
        authorization as interpreted by Washington State that prohibits 
        any tailings other than those generated from the Pend Oreille 
        Mine to be placed in its lined and approved tailings disposal 
        facility. Furthermore, the company is reluctant to undertake 
        cleanup efforts at any of these old sites for fear of being 
        deemed an operator and incurring cradle-to-grave liability for 
        the site under a variety of federal and state environmental 
        laws.

           All mines run out of ore and towards the end of production 
        may look for additional sources of mineralized material to 
        mill. Having the ability to augment or extend the productive 
        life of the mine benefits the mining company, the community and 
        the Nation. It also benefits the environment through metal 
        source reduction as more metal will ultimately be recovered 
        from the AML sites and the resulting tailings are placed in a 
        regulated, engineered and permitted containment structure. This 
        promotes conservation of the resource and sustainable 
        development with a net improvement in the environment.

           This is but one of many, many examples of sites throughout 
        North America where existing mines are located adjacent to 
        abandoned historical mines. Another example from the Northwest 
        is Meridian Gold Company's Beartrack Mine near Salmon, Idaho. 
        Deposits from historic mining were located on the mine 
        property. As a result, Napias Creek no longer supported salmon 
        habitat. Meridian used the equipment and personnel that were 
        on-site at Beartrack to remove the historic tailings and waste 
        rock piles from Napias Creek and fully mitigate the site and 
        restore the streambed to salmon habitat. The company won 
        several environmental awards for their work. The mine was able 
        to use the tailings and waste rock materials from historic 
        mining located on the mine property (emphasis added), at the 
        Beartrack Mine, increase the ultimate recovery of metals from 
        the mine and improve the environment. A scenario where everyone 
        wins.

           I have emphasized located on the mine property to highlight 
        the important distinction between the Pend Oreille mine example 
        and the Beartrack example. The Napias Creek tailings and waste 
        rock piles were located on the mine property and covered by 
        Beartrack's operating permits. The lack of effective Good 
        Samaritan legislation has prevented, to date, the same win-win-
        win result at Pend Oreille.
        2.  A Good Samaritan law must have sufficient flexibility to 
        allow site-specific solutions that take into account the fact 
        that many historic mine sites include both public and 
        ``private'' land where the previous land owner(s) no longer 
        exist.
        3.  A potential Good Samaritan must be able to gather the 
        needed site characterization data to develop a technically 
        sound remediation proposal without having to conduct a 
        Potentially Responsible Party (PRP) search or go through a 
        long, complicated and involved permitting process. A Good 
        Samaritan must be able to conduct a site survey without the 
        potential for becoming liable for the site solely by virtue of 
        gathering data.
        4.  Individual Good Samaritan projects should be subject to 
        review and authorization by the federal government or by an 
        individual state's abandoned mine land program (and/or the 
        environmental permitting authority for those states where EPA 
        has delegated Clean Water Act authority).
        5.  The permit process must be simple, straight-forward and 
        understandable. The environmental requirements for a Good 
        Samaritan project should be wrapped into a single permit. The 
        permit should be approved only if the project is technically 
        sound and promises overall improvement to the environment and/
        or securing of safety hazards.
        6.  The Good Samaritan must have full legal protection under 
        the permit. That is, a Good Samaritan permit-holder must be 
        able to obtain a specific, concrete list of the federal, state 
        and local environmental laws that would be deemed satisfied by 
        completion of the work authorized under the permit. One of the 
        Good Samaritan bills introduced in the 109th Congress, S. 1848, 
        and H.R. 3203 introduced in the 111th Congress, contain a list 
        of federal environmental laws that is a good starting point.
        7.  Good Samaritan projects should be allowed as long as they 
        are likely to result in an improvement to the environment, even 
        if they will not result in the complete cleanup of all 
        contaminants at an abandoned mine land site or the attainment 
        of all otherwise applicable environmental standards, such as 
        stringent water quality standards. To quote an oft-repeated 
        phrase, ``don't let pursuit of the perfect be the enemy of the 
        good.'' A 75 percent improvement in water quality downstream 
        from an AML site is a far better result than no cleanup due to 
        a Good Samaritan's concerns that their cleanup activities may 
        not be able to achieve water quality standards that would be 
        applicable at a modern mine.
        8.  The permitting authority must be given discretion under any 
        Good Samaritan legislation to make site-specific adjustments to 
        environmental requirements, standards and liabilities arising 
        under state and federal environmental laws that could otherwise 
        be applicable and prevent Good Samaritans from undertaking 
        remedial actions. This is not a new concept. The Applicable or 
        Relevant and Appropriate (ARAR) approach under CERCLA might be 
        a reasonable starting point.

           The permitting authority also should have the discretion to 
        waive the PRP search requirement. A Good Samaritan willing to 
        spend private monies to improve safety and environmental 
        conditions and reclaim an AML site should not have to spend 
        time and resources conducting and certifying a PRP search. It 
        should not matter whether there might be a PRP. The goal should 
        be environmental improvement, not finding someone to blame.
        9.  Any Good Samaritan legislation, to be effective and result 
        in actual, on-the-ground cleanup, should encourage entities 
        with sufficient expertise and resources to manage and/or use 
        the mine wastes in order to recover, remove, or reduce the 
        metal content. In many settings, this would result in the 
        greatest degree of environmental improvement.

           Using tailings, waste rock piles and other historic mining 
        materials at AML sites may be the most efficient means of 
        cleaning up a site. The most efficient and environmentally 
        benign scenario for managing historic mine wastes is using such 
        materials feedstock at an adjacent or nearby modern fully 
        regulated and bonded mineral processing facility. The new waste 
        that would be generated from historic materials at a modern 
        mineral milling facility would then be disposed of in a modern 
        engineered facility that complies with current environmental 
        standards and practices including performance monitoring and 
        financial assurance. Using historic mine waste as a feedstock 
        is a superior environmental remedy that achieves resource 
        recovery and source reduction. Given the desirability of 
        achieving the resource recovery and source reduction that can 
        result from using historic mine materials, Good Samaritan 
        legislation should encourage management of historic ores, 
        minerals, waste rock piles and other materials existing at an 
        AML site to create jobs, taxes, a return on investment and a 
        cleaner environment.

           The benefits associated with reusing historic mine wastes 
        are twofold. First, treating these wastes to recover some of 
        the residual metals (which are usually the primary constituent 
        of concern) would be an efficient use of resources to generate 
        some of the metals the U.S. needs for strategic and economic 
        purposes. Secondly, reusing historic mine wastes would achieve 
        superior environmental results compared to the usual AML remedy 
        (especially if EPA is involved), which is to move the 
        contaminants to a newly constructed waste repository and cover 
        them. Relocating the metal-bearing historic mine wastes does 
        not reduce or remove the source of pollution. Furthermore, 
        merely relocating the wastes into a new repository site creates 
        the need for long-term maintenance and monitoring in order to 
        reduce at the risk of leakage or other failure. Removing such 
        metal from the environment and placing it into useful commerce 
        is far more environmentally and economically beneficial than 
        merely reburying such wastes in another place.

           AMLs are generally located in highly mineralized areas. Not 
        only are these highly mineralized areas the location of 
        historic mining, they are likely to be the location for future 
        mines as prices and technology allow. Therefore, there is 
        significant potential for redevelopment of these sites or for 
        discovery of a new, nearby mineral deposit. The discovery of a 
        new deposit near an AML site or the redevelopment of an 
        historic mine site, would require the full mine permitting 
        process, (including an environmental analysis required by the 
        National Environmental Policy Act if the project affects public 
        land) and would be allowed only if the proposed new mine 
        complied with all current standards of environmental 
        protection. This new mine with its engineered, fully permitted 
        and bonded beneficiation and processing circuit and mine waste 
        disposal facilities would provide a new mine solution to old 
        mine waste, while creating hundreds of new high paying jobs and 
        generating federal, state, and local tax revenues.

           Contrary to the assertions of mining opponents, the mining 
        industry has no desire to use Good Samaritan legislation to 
        avoid the mine permitting process or the application of current 
        environmental laws and regulations that apply to today's modern 
        mines. The Good Samaritan approval authority, through permit 
        conditions, can easily prevent the misuse of a Good Samaritan 
        permit.
        10.  Good Samaritan legislation should allow Good Samaritan 
        actions at AMLs to qualify as off-site mitigation under the CWA 
        for mining companies permitting new mines or expansion of 
        existing mines. This would provide an additional incentive for 
        a mining company to undertake a Good Samaritan cleanup while 
        meeting the permitting requirements at new or expanded mines.

SUPERFUND IS NOT THE ANSWER:
    Some Members of Congress and anti-mining groups argue that instead 
of focusing on Good Samaritan legislation, Congress should fund the 
Superfund program and EPA, under the Superfund program, should address 
all Abandoned Mine Lands. In our opinion, this is a wrong-headed 
approach to mitigating and reclaiming historic abandoned mine lands.
    Superfund does not have a very good track record at mine sites. 
Superfund was not designed to address natural processes that result in 
contaminated watersheds at AMLs. The historic mining communities of 
Aspen and Leadville in Colorado, Butte, Montana, Triumph, Idaho and the 
Bunker Hill site in northern Idaho's Silver Valley all have experienced 
first hand the failures of Superfund and the costly results of 
misguided policies and millions of dollars wasted on legal delays and 
repetitive studies. Of the billions of dollars spent of Superfund 
efforts, only 12% of those moneys have actually gone into cleaning up 
the environment while the balance went to legal and consulting fees.
    In each of the Superfund sites cited above, the cleanup costs have 
exceeded reasonable estimates by a magnitude of three to five times. 
Bunker Hill is a prime example of the waste that occurs when an EPA-led 
Superfund effort is undertaken at mine sites. This can be demonstrated 
by comparing Bunker Hill with another example from the Silver Valley in 
northern Idaho.
    Just outside the Bunker Hill Superfund site are many historic 
mining sites on Nine Mile and Canyon Creeks. Two mining companies 
working together with the State of Idaho were able to cleanup and 
remove historic mine wastes, tailings and waste rock piles from Nine 
Mile and Canyon Creeks, and restore fish habitat on the two creeks at 
cleanup costs one-fourth to one-fifth the cleanup costs incurred by EPA 
under Superfund on a per-cubic-yard of material removed basis.
    I have visited these sites on five occasions and can personally 
attest to the outstanding remediation and reclamation on Canyon and 
Nine Mile Creeks, and that there has been substantial improvement in 
water quality as a result of these efforts. And, the work is done, 
unlike the work at Superfund sites which seems to never end.
    Finally, at the risk of stating the obvious, the Superfund legal 
procedures to identify Potentially Responsible Parties (PRPs), to 
assign joint and several liability, and to recover costs are premised 
on the concept that the site in question has owners who can be 
identified and compelled to pay for the cleanup. None of these 
provisions are appropriate for AML sites, which by definition, no 
longer have an identifiable owner. Thus, the Superfund Program is not 
an ideal or even applicable template for most AML sites.
    There may be some sites for which Superfund is the appropriate 
remedy, but let's not limit the tools we have in the toolbox. 
Thoughtful and effective Good Samaritan legislation that encourages and 
incentivizes Good Samaritans is an important tool to add to the 
Abandoned Mine Land remediation and reclamation toolbox. Our goal 
should be not just move the contaminants, but remove the contaminants 
and place them into useful commerce.

PREVIOUS GOOD SAMARITAN PROPOSALS:
    Our members are familiar with all Good Samaritan legislation that 
has been drafted and introduced over the past fifteen years. While we 
applaud any and all efforts to advance the Good Samaritan concept, our 
analysis of most Good Samaritan legislation introduced in the past is 
that it is not intended for use by the mining industry. This not only 
disappoints our members, it would be a huge opportunity lost for the 
Nation and for the environment if mining companies are not allowed to 
utilize Good Samaritan legislation. As mentioned above, the mining 
industry has the technical expertise, experience, and technology to 
effectively and efficiently assess the safety and environmental issues 
present at an AML site and to properly secure, reclaim and improve 
safety and environmental conditions at those sites. Moreover, creating 
a Good Samaritan law that recognizes the role that modern mining 
companies and other private-sector entities could play in improving 
environmental conditions at AML sites would reduce the amount of tax 
payer resources that will be needed to solve the AML problem
    With respect to previous Good Samaritan bills, we believe H.R. 3203 
introduced by the Chairman in the last congress, and a similar bill, S. 
1848 introduced by Senators Salazar and Allard in 2005 provide a good 
starting point for effective Good Samaritan legislation. We also 
believe these bills can and should be improved to ensure that they 
foster on-the-ground Good Samaritan projects at AML sites. Both bills 
already incorporate many of the ten concepts enumerated above, and 
could be improved by: 1) providing a mechanism for conducting site 
investigations without incurring environmental liability and without 
having to go through the full permitting process; 2) the PRP search 
should be significantly streamlined and eliminated when only private 
monies are funding the cleanup; and 3) any restrictions on the ability 
of a mining company or other Good Samaritan to mill historic mine 
wastes in order to remove metals from these materials should be 
eliminated.
    The problems with other, prior Good Samaritan bills and the reason 
why we believe they won't accomplish their stated intent can be summed 
up as follows: 1) the liability relief provision is too restrictive; 2) 
the PRP search requirements are too cumbersome and costly; 3) the 
permitting process is too complex and rigid; 4) a full PRP search and 
certification is required for privately funded cleanups; 5) the 
definition of a Good Samaritan is too limiting--merely appearing in the 
chain of title should not disqualify someone and federal land 
management agencies must be allowed to conduct Good Samaritan cleanups 
on the lands they manage; 6) the definition of eligible site does not 
include sites that pose only physical or safety hazards; and 7) there 
are too many restrictions on waste treatment. Significant on-the-ground 
Good Samaritan activities at AMLs are not going to take place under 
Good Samaritan legislation that contains these defects.

CONCLUSION:
    Effective Good Samaritan legislation makes sense and can be a win-
win-win-win for the environment, for the Good Samaritan, for the 
community, and for the Nation. We look forward to working with this 
committee to produce Good Samaritan legislation that will actually 
result in on-the-ground Good Samaritan cleanups at Abandoned Mine 
sites.
                                 ______
                                 
    Mr. Lamborn. All right. And thank you. Next is Lauren 
Pagel.

     STATEMENT OF LAUREN PAGEL, POLICY DIRECTOR, EARTHWORKS

    Ms. Pagel. Thank you, Chairman Lamborn, Ranking Member 
Holt, and Members of the Subcommittee for the opportunity to 
speak with you today about abandoned hardrock mines. Earthworks 
is a nonprofit organization dedicated to protecting communities 
and the environment from the destructive impacts of mineral and 
energy development.
    For over two decades, we have worked closely with a broad 
coalition of local governments, Native Americans, citizen 
groups, and other conservation organizations to improve the 
policies that govern hardrock mining, including the issue of 
abandoned mines.
    In the early 1990s, Earthworks assessed the scope of the 
abandoned mine land problem, and estimated that there are over 
500,000 abandoned hardrock mines in the United States. To date, 
there is still no comprehensive inventory of abandoned hardrock 
mines, and limited funds exist to clean these sites up.
    According to the EPA, the total cleanup costs are estimated 
at $50 billion. A steady stream of funding for abandoned mine 
reclamation, coupled with cautious action to address liability 
issues under the Clean Water Act, are needed to begin the 
complex task of cleaning up the massive amount of abandoned 
mines that litter Western States.
    Western communities face significant burdens associated 
with these old mines. In addition to serious safety hazards 
associated with abandoned mines, many sites have serious acid 
mine drainage problems, which can persist for thousands of 
years if left untreated.
    Abandoned uranium mines pose an added threat of radiation 
exposure. The EPA estimates that there are at least 4,000 
abandoned uranium mines in 14 Western States. Uranium mining 
produces radioactive waste materials, in addition to the heavy 
metals found in most mine wastes.
    Continued exposure to radioactive materials such as radium 
and thorium has caused serious health problems for those living 
around abandoned uranium mines. The largest obstacle to the 
restoration of abandoned hardrock mines is a lack of a steady 
source of funding for cleanup.
    In States like Montana, where revenues from the State 
Severance Tax and the Coal Abandoned Mine Land Fund are 
available for use. There is a small stream of money to 
remediate only a few sites a year.
    In other States, there are a few sources of funds available 
to correct this pervasive problem in old mining districts. As a 
result, the number of abandoned mine lands that cause safety 
and environmental hazards far outweigh the funding available to 
reclaim them.
    The antiquated 1972 Mining Law currently allows mining 
companies to take hardrock minerals from public lands for free. 
The coal mining industry is required by the Surface Mining 
Control and Reclamation Act to pay into an abandoned mine land 
fund via a reclamation fee.
    The hardrock mining industry pays no such fee. Long-term 
funding for abandoned hardrock mine cleanup is similar to the 
SMCRA program, and is essential to deal with the scope of the 
problem that Western States face from abandoned mines.
    Earthworks also recognizes the concern that has been 
expressed about liability under existing environmental laws 
that may occur when a State, Tribal, or local government, or 
citizen group, attempts to restore water quality affected by 
abandoned mines.
    We support a narrow Clean Water Act exemption that would 
allow these Good Samaritans to clean up abandoned mines without 
incurring Clean Water Act liability, and we have supported 
several legislative proposals to this effect in Congress in the 
past.
    We also support Good Samaritans' use of the administrative 
order on consent process that has been created by the EPA to 
deal with the potential liability issues under SuperFund.
    For each million dollars spent on reclamation, 65 jobs are 
created according to a State of Montana study. In addition to 
job creation, restoration activity puts degraded lands into 
productive use, and helps communities who currently must treat 
their water supplies for heavy metals and other pollution.
    The Obama Administration's Fiscal Year 2012 budget proposes 
a one percent reclamation fee on all hardrock mining, similar 
to the fee paid by the coal mining industry. Thirteen thousand 
reclamation jobs per year would be created by this $200 million 
a year fee.
    Congressman Heinrich and Congressman Lujan have also 
introduced legislation that would create jobs and facilitate 
the cleanup of abandoned uranium mines. H.R. 1452, the Uranium 
Resources Stewardship Act, moves uranium mining from the 1872 
Mining Law into the more appropriate Mineral Leasing Act, which 
would allow the Federal Government to charge a royalty on 
uranium taken from public lands.
    The money generated from this royalty would go toward the 
much needed cleanup of uranium mill tailings and abandoned 
uranium mines on Federal lands. Creating a steady stream of 
funding for addressing the full problem of cleaning up of over 
half-a-million abandoned hardrock mines via a royalty and a 
reclamation fee can go hand-in-hand with a narrow Clean Water 
Act liability waiver for Good Samaritans.
    Tackling this large-scale problem requires a large-scale 
solution, a solution that will both create jobs and restore 
western waters. Thank you for the opportunity to present the 
view of Earthworks on this important issue, and we look forward 
to working further with the Committee around this important 
issue.
    [The prepared statement of Ms. Pagel follows:]

         Statement of Lauren Pagel, Policy Director, Earthworks

    Thank you Chairman Lamborn, Ranking Member Holt and Members of the 
Subcommittee for the opportunity to speak to you today about abandoned 
hardrock mines. Thank you for making time on the Subcommittee's 
schedule to explore this important issue. Earthworks has been working 
for over two decades to develop and promote initiatives to clean up old 
mine sites and to address the pollution problems associated with them, 
particularly in the West.
    Earthworks is a non-profit organization dedicated to protecting 
communities and the environment from the destructive impacts of mineral 
and energy development. We work closely with a broad coalition of local 
governments, Native Americans, citizen groups and other conservation 
organizations to improve the policies governing hardrock mining and oil 
and gas development.
    In the early 1990's, Earthworks assessed the scope of the abandoned 
mine problem and estimated that there are over 550,000 abandoned 
hardrock mines in the U.S., mostly in the West. To date, there is still 
no comprehensive inventory of abandoned hardrock mines, and funds to 
clean up these sites remain limited. The cost to clean up these 
abandoned sites will be staggering. According the Environmental 
Protection Agency (EPA), the total clean-up costs will be $50 billion.
    Western communities face significant burdens associated with these 
old mines. According to the Environmental Protection Agency, at least 
40 percent of the stream reaches in the headwaters of western 
watersheds are polluted from abandoned mines. Many of these abandoned 
mine sites have significant acid mine drainage problems, which can 
persist for thousands of years if left untreated. Downstream 
communities pay the costs to clean up water polluted from abandoned 
mines for household use. Polluted waters affect recreation, 
agriculture, and impact property values. Fish and wildlife resources 
are also negatively impacted.
    Abandoned uranium mines pose the added threat of radiation exposure 
to the list of concerns. Surface and underground uranium mining 
produces waste material, which contain naturally occurring radioactive 
materials in addition to the heavy metals found in most hardrock mine 
waste. When these toxic materials become exposed to the environment 
through mining activities, they can be mobilized in air and water. 
Continued exposure to radioactive materials such as radium and thorium 
cause serious health problems. The EPA estimates there are at least 
4,000 abandoned uranium mines in 14 western states, with most situated 
in Colorado, Utah, New Mexico, Arizona, and Wyoming.
    The single largest obstacle to the restoration of abandoned 
hardrock mines is the lack of funding. In states like Montana--where 
revenues exist from a state severance tax and the state is authorized 
to restore abandoned mines with revenues from the coal abandoned mine 
land fund--there is a small stream of revenue (on average about $3.5 
million) available to remediate only a few small sites a year, but it 
is not enough to address the serious problems posed by the 6,000 
inventoried abandoned mines across the state, and the estimated 3,700 
miles of rivers and streams polluted by harmful metals, primarily from 
abandoned mines. In other states, such as California and New Mexico, 
there are few sources of funds available to correct this pervasive 
problem in old mining districts. As a result, the number of abandoned 
mine lands that cause safety or environmental hazards far outweigh the 
funding available to restore them.
    The antiquated 1872 Mining Law currently allows mining companies to 
take hardrock minerals from public lands for free, with no royalty paid 
to the taxpayer. Unlike the coal mining industry, which is required by 
the Surface Mining Control and Reclamation Act (SMCRA) to pay into an 
Abandoned Mine Land Fund via a reclamation fee, the hardrock mining 
industry pays no such fee. A steady-stream of long-term funding for 
hardrock abandoned mine lands clean up, similar to the SMCRA program, 
is essential to dealing with the scope of the problems western states 
face from abandoned mines.
    In addition to a lack of funding for abandoned hardrock mine clean 
up, Earthworks also recognizes the concern that has been expressed 
about the liability under existing environmental laws that may occur 
when a state, tribal, or local government or citizens groups attempt to 
restore water quality affected by abandoned mines. We support a narrow 
exemption to the federal Clean Water Act that would allow ``Good 
Samaritans'' to clean up abandoned mines without incurring Clean Water 
Act liability.
    Any ``Good Samaritan'' legislation should contain an objective 
standard for determining if a permit is issued and the goal of any 
water restoration effort should be to achieve applicable Clean Water 
Act standards. However, we recognize that economic and technological 
constraints exist, and in some cases water quality may be improved but 
the overall standard may not be achieved.
    Earthworks has supported several legislative proposals that have 
been introduced in previous Congresses in an attempt to resolve this 
question about liability under the Clean Water Act. There is a narrow 
point of apparent agreement among some of the conservation 
organizations involved with abandoned mine clean up, the western 
States, and some industry representatives that a waiver of Clean Water 
Act liability is warranted to correct the damage that is occurring from 
the polluted mine sites. Earthworks does not support waiving other 
environmental laws for the purposes of fostering ``Good Samaritan'' 
clean ups of abandoned mine sites. There is not a liability problem 
with most other environmental laws, so waiving them in order to 
eliminate liability for abandoned mines clean up would be 
inappropriate. Where liability does exist under the Comprehensive 
Environmental Response, Compensation and Liability Act, also known as 
CERCLA and commonly known as Superfund, there are existing mechanisms 
available through the Environmental Protection Agency to facilitate 
clean up, such as Administrative Orders on Consent.
    According to a State of Montana study of abandoned mines, each 
million dollars spent will create 65 jobs. Many of these jobs are good, 
high paying jobs that rural communities need in these tough economic 
times. In addition to job creation, restoration activity would also 
take degraded lands and put them into productive use. This will benefit 
local communities and the private landowners who have abandoned mines 
on their property, and help communities who currently must treat their 
water supplies for heavy metals and other pollution from abandoned 
mines.
    As part of its FY2012 budget, the Obama administration has proposed 
a 1% reclamation fee on all hardrock mining, similar to the fee paid by 
coal mines. This fee would generate $200 million per year to fund 
abandoned mine restoration, creating an estimated 13,000 jobs per year 
for those in the mining industry. In addition to a reclamation fee, the 
administration proposed a modest royalty to be paid to the owners of 
minerals taken from public lands--the taxpayer.
    Congressman Heinrich, a member of this subcommittee, has also 
introduced legislation that would create jobs and begin the arduous 
task of cleaning up the nearly 4,000 abandoned uranium mine sites, of 
which a disproportionate number are located on Indian lands. For 
example, from 1944 to 1986, nearly four million tons of uranium ore 
were extracted from Navajo Nation mines and over 500 abandoned uranium 
mines still scar the Navajo Nation. H.R. 1452, the Uranium Resources 
Stewardship Act, would impose a 12.5 percent royalty on the uranium 
mining industry, and move it out of the 1872 Mining Law and into the 
more modern Mineral Leasing Act. The money generated from the royalty 
charged on uranium mining on public lands would go toward the much-
needed clean up of uranium mill tailings and abandoned uranium mines on 
federal lands.
    Creating a steady-steam of funding for addressing the full problem 
of cleaning up of over 550,000 abandoned mines via a royalty and a 
reclamation fee should go hand in hand with a narrow Clean Water Act 
liability waiver for ``Good Samaritan'' clean up of abandoned mines. 
Without a consistent funding source, state, local and tribal 
governments and citizen groups will be able to move only a small number 
of projects forward. Tackling this large-scale problem requires a 
large-scale solution--a solution that will create jobs and restore 
western waters.
    Thank you for the opportunity to present the views of Earthworks on 
this important topic. We appreciate the Committee's consideration of 
abandoned hardrock mines and the real problems they pose to air, water 
and public safety in western states. We look forward to working further 
with the Committee on this issue.
                                 ______
                                 
    Mr. Lamborn. All right. Thank you for your testimony, and 
thank you all for being here and for your testimony, and I will 
recognize myself for five minutes for the first questions.
    Ms. Burke, I would like to ask you a question. Do you 
believe that BLM's financial assurances for hardrock mining are 
sufficient to address reclamation? In other words, how much do 
you have in the way of bonds, and do you believe that this is 
adequate?
    Ms. Burke. Yes, we do believe that we have adequate bonding 
at this stage. We currently have $1.7 billion in reclamation 
bonds, and that does not actually include Alaska, where part of 
that money has obligated them to the State's pooling system.
    And since the GAO report, I believe, in 2006, and in 2009, 
we issued new policy guidance to our State offices, which 
require them to certify each year that the bonding amounts are 
in fact adequate.
    Mr. Lamborn. OK. Thank you. Laura Skaer, do you know of any 
examples where the United States Federal Government was found 
to be a PRP, and if you could explain that concept just a 
little bit more.
    Ms. Skaer. Yes. There are a series of court cases from 
California where refineries who were charged with making 
aviation fuel during World War II were essentially told don't 
worry about the refining of waste. The goal is to do as much 
aviation fuel for the war effort as possible.
    After CERCLA was passed, the Federal Government then sought 
to hold the oil companies that owned the refineries responsible 
for the contamination from the waste, and they petitioned the 
Court to bring the Federal Government into the case, and the 
Court actually held that the Federal Government was the primary 
responsible party or PRP, and relieved the owners of the 
refineries of their liability.
    Mr. Lamborn. All right. Thank you. I have a question for 
Ms. Pineda. You mentioned in your testimony that a large 
portion of sites will require little if any reclamation, and 
that in other cases the per unit cost of reclamation is 
relatively small, and that such sites also rank low in priority 
because of the reduced threat to public health or the 
environment.
    Can you give additional details on this, and including the 
percentage of sites that require this lesser amount of 
reclamation, or how you can to this conclusion?
    Ms. Pineda. Well, there are some sites that are only safety 
hazards if there is an open shaft or adits, and the costs to 
reclaim that could be small, between $5,000 and $10,000. While 
you have other sites that require or that have a larger safety 
hazard, or that have mine waste associated with them, or a 
draining adit, where costs could be in the hundreds to millions 
of dollars, depending on the type of reclamation that you would 
be performing there.
    And currently in Colorado, we have 23,000 abandoned mines, 
and I would say about 80 percent of those are probably in that 
category of mostly just kind of safety hazards. But we also 
have like 600 miles of stream that are degraded by acid mine 
drainage, and those types of projects where you are dealing 
with remediation of mine wastes, or acid mine drainage, the 
costs could be from $100 million to $300 million, depending on 
the type of remediation and cleanup that is needed.
    Mr. Lamborn. And what was the methodology used in Colorado? 
When you said in Colorado it was 80 percent, was it more only 
the safety hazard?
    Ms. Pineda. Yes, the safety hazards, and basing that on the 
fact that a lot of the hazards are--you know, many of the 
hazards are around tourist areas, and areas that are highly 
visited, and we have a lot of sites that are more remote, and 
perhaps don't have as high a visitation.
    Mr. Lamborn. OK. Thank you. At this point, I would like to 
recognize the Ranking Member.
    Mr. Holt. Thank you. I would like to pick up on that line 
of questioning if I may, Ms. Pineda. I have certainly seen just 
abandoned adits, or shafts here and there, or just bulldozed 
depressions.
    And so I am trying to get a sense of this scale of the 
problem. You say that 80 percent of them would fall in the 
safety category. In other words, safety from falling, or human 
injury, and that way?
    Ms. Pineda. Exactly.
    Mr. Holt. As opposed to environmental or public health 
damage to the water supplies and that sort of thing. Is the 
damage to the water supply for that category, is it caused by 
bringing things to the surface, or is it caused by milling, or 
is it caused by refining?
    Can you give me some sort of general characterization of 
what it is? I know that it could be any of those things, but 
the----
    Ms. Pineda. Right, it could be any of those things when you 
have a mine waste or mill waste pile, and it is exposed to air, 
and then also to water if there is precipitation, and it rains, 
and all of that stuff could drain into other drainages. So, you 
have a high risk there, or you could have an adit that is 
draining water.
    Mr. Holt. But can you give me percentages? You said that 80 
percent of this was just safety hazards.
    Ms. Pineda. Right.
    Mr. Holt. And of this 20 percent, do you have any idea of 
what kind of breakdown it is, because I would imagine that the 
costs of remediation would vary greatly, depending on what that 
is.
    Ms. Pineda. Right. Of the 20 percent----
    Mr. Holt. If it is just a runoff siltation, that is 
different.
    Ms. Pineda. Right. The high cost would be associated with 
the treatment of the acid mine draining from a draining adit, 
an adit that is constantly draining, and right now because we 
don't have a Good Samaritan protection, people don't want to 
really touch that type of a project.
    Where you have mine waste or mill waste that you could 
somehow cap, or cover, or revegetate, that would alleviate that 
acid problem, or acid mine drainage problem. Where you have an 
adit, or an opening that is perpetually draining, those are 
much more difficult to remediate.
    Plus the fact that with the Clean Water Act standards, if 
you are required to continually meet those standards, third-
parties may not want to take on that long term responsibility 
of treating that acid mine drainage.
    Mr. Holt. Has the BLM or the Forest Service done a survey 
comparable to what Colorado describes here? You know, of the 
kind of remediation that will be necessary?
    Mr. Holtrop. The Forest Service has some information like 
that, and we are working on developing a more intensive 
inventory of all of the activities that need to be 
accomplished.
    I don't know that I am able to give that precise of a 
percentage on information about the circumstances on the 
National Forest system lands, but we are working to try to have 
that type of detailed information.
    I do think that also one of the factors that comes into it 
is sometimes the cost of responding to a safety hazard might be 
considerably less than the cost of doing that.
    Mr. Holt. And that is why I asked, to get some sense of the 
scale. Ms. Burke, any comment on that?
    Ms. Burke. Yes, we have similar estimates that of the known 
sites on BLM managed land that about 20 percent of them pose 
these environmental hazards. Without actually evaluating each 
site, however, we don't have an estimate of how much it would 
take, or what actually would be required in order to remediate 
them.
    But many of our concerns are those with respect to the 
watershed and impacts to surface and groundwater.
    Mr. Holt. OK. Well, I would like to ask more questions when 
the time allows. I yield back.
    Mr. Lamborn. Yes, and I am hoping that we could have a 
second round of questions, especially since there are just 
three of us here at the dais. That would be a maximum of 15 
more minutes--if that is acceptable to everybody.
    I would like to recognize now the Member from Pennsylvania, 
Mr. Thompson.
    Mr. Thompson. Well, first of all, thanks to the Chairman 
and Ranking Member for this hearing. This is an issue that has 
always been important in Pennsylvania's 5th Congressional 
District.
    My predecessor, Congressman John Peterson, this was an 
issue that he took leadership on, in terms of abandoned mine 
lands, and remediation, and leading on that issue. Deputy Chief 
Holtrop, and Deputy Director Burke--well, Deputy Director 
Burke, within your testimony, you had talked about the 31,000 
BLM abandoned mines on BLM land, and that 25 percent of them 
had been remediated, and so showing progress.
    For both BLM and the Forest Service, what is your 
projections for annual investigations and remediation annually, 
in terms of the number of those remaining 75 percent BLM, and I 
don't know if there are separate ones from a Forest Service 
perspective.
    I am assuming that the BLM takes into account, because BLM 
has jurisdiction over subsurface, that some of those of the 
31,000 BLM mines that you are talking about are on Forest 
Service grounds or not?
    Mr. Holtrop. The number of abandoned mine land sites in the 
National Forest System is just that, and the number of 
abandoned mine lands, I believe, on the Bureau of Land 
Management is on that land mass, is what I believe that we are 
talking about.
    Mr. Thompson. Great. So, projections for annually, and let 
us say within the coming year, this calendar year for 
investigations and remediation on the number of sites or 
projects?
    Mr. Holtrop. The Forest Service spends in the range of 
appropriate funds around 12, to 15, or $16 million a year. The 
number of sites that we are able to treat with that amount of 
money, it varies tremendously, because as my testimony 
indicated, on some of the sites, it costs a couple of hundred-
thousand dollars to treat, and some of them, it is tens of 
millions of dollars.
    Mr. Thompson. Is there an average, just a ball park 
average, in terms of----
    Mr. Holtrop. In terms of the number of sites that we are 
making progress on?
    Mr. Thompson. Yes.
    Mr. Holtrop. I would say that since 1998, the way maybe to 
arrive at that is that since 1998 we have treated 2,000 sites 
for safety, and several hundred for some of the CERCLA cleanup.
    Ms. Burke. And similarly it is difficult to estimate on a 
year to year basis how many sites we actually would be able to 
remediate. However, in 2010, we remediated about 1200 sites for 
the physical safety hazards, and with respect to water quality 
issues, we were able to treat approximately 1500 acres.
    Mr. Thompson. How prevalent is the--I guess what I 
described as a public-private partnership, where the Good 
Samaritan that we made reference to, is that relatively 
prevalent today, in terms of the cleanup efforts, or is that a 
lot of potential for development there? What is your evaluation 
of that public-private partnership?
    Ms. Burke. Generally, our partnerships involve non-
governmental agencies. The work that would be done there is for 
the physical safety hazards, as opposed to the environmental 
hazards precisely because of the liability issues that other 
panel members have discussed today.
    There is great potential to involve partners under the 
right circumstances in the public's interest to remediate all 
types of sites.
    Mr. Holtrop. I think that I would like to answer that 
question in a couple of ways. One is that any time we are able 
to make progress in using partner organizations to make that 
progress, it is significant, and it is very meaningful work, 
and we have some very significant work that is being done 
through partnerships.
    The second way that I would like to answer it is that when 
you hear the magnitude of the issue that we are talking about, 
any tools that can be made available to help us make progress 
is something that I think could make a significant difference 
in the long run.
    Mr. Thompson. Ms. Skaer, in the seconds that I have left 
here, you mentioned that the President's Fiscal Year 2012 
budget requested a one percent reclamation fee on hardrock 
mining, similar to coal mine fees. Any thoughts on how this 
might impact mining overall?
    Ms. Skaer. The fee as proposed in the budget was a fee on 
the amount of material moved, which would be, one, very 
difficult to calculate with hardrock because most of it is 
overburdened or unmineralized rock.
    That fee would work like a gross royalty, which as we know, 
mineral prices are cyclical, and when mineral prices drop again 
in the future, any type of a gross fee or a gross royalty will 
work to cause the mine to close prematurely, or go into care 
and maintenance, and would result in lots of high paying jobs 
being lost.
    In 1995, the industry supported legislation that was passed 
by both Houses of Congress, but vetoed by President Clinton, 
and that legislation included a five percent net proceeds 
royalty on hardrock mines, with that money going into an 
abandoned mine land fund, which would then be distributed 
directly to State AML programs, and to the BLM and the Forest 
Service.
    And 15 or 16 years later, there would have been a 
significant amount of money in that fund if it had not been 
vetoed.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Lamborn. All right. Well, let us have our second round 
of questions. Thank you for your patience, and for helping us 
understand this better. I would like to ask all of you the 
following question.
    Good Samaritan legislation, what are the pros and the cons 
on that? Some people might be wondering what would motivate a 
private enterprise to even do this in the first place if they 
don't have to.
    Some might wonder, what if they only do a partial job, or 
an unsatisfactory job, and what happens then. Or others of you 
might say if it is done right, it really can be a good thing, 
and here is how to do it right. Whoever would like to go first. 
Why don't we go--Ms. Skaer, why don't we start with you, but I 
would like anyone who wants to, to respond.
    Ms. Skaer. As we have said in our testimony, we strongly 
support Good Samaritan. There is an example in our testimony of 
one of our members that was approached by a local community to 
deal with some safety issues with adits and shafts, and also 
there was some water pollution from these historic adits.
    And while the company was able to restore the safety 
hazards, the lack of a Good Samaritan protection prevented them 
from addressing the water pollution issues from historic 
mining. These were sites that the company had nothing to do 
with.
    The motivation here is--as I mentioned--one, these historic 
sites are used to foment opposition to current mining 
proposals. So, the industry sees that it is in its own best 
interests to deal with these sites.
    The other part of it is that this is a much different 
mining industry than we had 40, 50, 60 years ago, or 120 years 
ago when these sites were created. It is an industry that has 
an environmental ethic and a social responsibility ethic.
    So, part of the motivation here is to work with the local 
communities, and be a good neighbor, and be a good partner with 
the community, and to improve the environment.
    They have the facilities, and generally most of these sites 
are located near existing mines, and so the facilities are 
there to where the actual source, the contaminants, can be 
removed from the environment, reprocessed, and beneficial use 
made of those metals.
    Mr. Lamborn. Thank you. Anyone else?
    Ms. Pineda. Mr. Chairman, thank you. I just want to mention 
a couple of things. One is this type of approach, which has 
been very successful in the State of Pennsylvania, which has 
its own Good Samaritan legislation.
    So, it has provided some immunities and some protections to 
local groups. We want to try and partner, and pattern our 
legislation after the successes that that State has seen in 
alleviating the acid mine drainage there.
    And when you talk about motivation, one of the partners 
that we have engaged is Trout Unlimited, and they have great 
motivation in keeping Colorado streams clean, and in terms for 
the tourism, and aquatic life.
    So, right now, they have a project up in Leadville that 
they have been working on, and they have been able to get 
funding, and given the magnitude that you have heard today of 
this AML problem, we need everybody involved in trying to deal 
with the problems, and with the funding, and with the issues.
    So groups like Trout Unlimited, and we heard from the 
Appalachian Wildlife Group also. You will see the motivation in 
just groups and local communities that want to see improvement 
to their streams, and improvement to their communities.
    And so I would say that is very much on the pro side of why 
groups want to get involved in the Good Samaritan legislation.
    Mr. Lamborn. All right. Anyone else?
    Ms. Pagel. Yes, I would like to think of Earthworks as a 
pretty practical conservation organization, and for an issue 
like water quality being degraded from abandoned hardrock 
mines, we don't want the pursuit of perfect to be the enemy of 
the good, in the sense that we know that it would be very 
difficult with some of these mines, especially the adits that 
have been draining for potentially 100-plus years to achieve 
the Clean Water Act standards.
    But we want to make sure that the most important part of 
this is that water quality has improved, even if it necessarily 
doesn't meet those standards, and I think that that is a goal 
in improving water quality, and that can really sort of help us 
to shape what a Good Samaritan proposal would look like.
    But what we worry about is that we just want to make sure 
that mining is not done under the guise of reclamation, and we 
want to make sure that if you are mining, that you get a mining 
permit, and then if you are doing reclamation, you get a Good 
Samaritan permit, and really make that distinction there so 
that we don't get ourselves into more trouble with problems.
    And then the issue of a reclamation fee, and a real studies 
team of funding, and it is still out there, even if we address 
this Good Samaritan issue.
    Mr. Lamborn. Thank you, and Mr. Holtrop.
    Mr. Holtrop. Thank you. As I mentioned earlier, when you 
look at the magnitude of the problem, I think it is appropriate 
for us to look at all the tools, and find ways to utilize all 
of the resources that we can make available to us.
    But, at the same time, we also want to make sure that there 
aren't unintended consequences of the cleanup work as well, and 
that we have the opportunities to provide the due diligence 
necessary to make sure that the correct oversight is provided, 
and to make sure that the cleanup is actually going to improve 
the situation in the long run.
    Mr. Lamborn. OK. Thank you. Mr. Ranking Member.
    Mr. Holt. Did everyone have a chance? I would yield to the 
Chairman time if there are others who wanted to comment. Ms. 
Burke?
    Ms. Burke. Yes. I concur with the Forest Service that we 
are always looking for opportunities to partner with other 
government agencies and private entities to accelerate the 
cleanup and remediation of these abandoned mine sites.
    One such program that we began a few years ago is the Fix-
A-Shaft-Today Program, or FAST, and we have had great success. 
However, that success is limited because current mining 
claimants who made be inclined otherwise to partner with us are 
concerned understandably about potential liability.
    So, again we would welcome additional tools in our tool box 
as well in order to remediate these physical and environmental 
hazards.
    Mr. Holt. Thank you. Ms. Pagel, would the Trout Unlimited 
or other groups like--I am sorry, I guess it was maybe Ms. 
Pineda who said that. Would groups like the Trout Unlimited, or 
the others working in Leadville, be more likely to--I mean, 
they are already doing it.
    Do they need a Good Samaritan law, and would they be more 
likely to do more projects if they had one?
    Ms. Pineda. Well, yes. Right now Trout Unlimited has done 
some work up in Leadville, but they had to stop short. They had 
to put in kind of a passive bioreactor mine drainage treatment 
system, and they have not turned it on yet.
    Mr. Holt. Do they feel precluded from doing so?
    Ms. Pineda. Yes.
    Mr. Holt. They do?
    Ms. Pineda. Yes.
    Mr. Holt. OK. Ms. Skaer, you had asked that for the Good 
Samaritan law that we remove the legal liability hurdles. Well, 
I guess the question is, does that mean the Clean Water Act, or 
CERCLA, or RCRA, or TOSCA, or all of those, or which parts of 
all of those, and who gets to decide which parts. It is a 
tricky question, I think, that you raised.
    Ms. Skaer. Well, I mentioned in my testimony Clean Water, 
CERCLA, the Federal Toxic Control Act, RCRA.
    Mr. Holt. So, complete exemption from all liability under 
those?
    Ms. Skaer. Well, I think it would be--the exemption that a 
Good Samaritan would need would be so that they don't have that 
immediate or cradle-to-grave liability just for touching the 
site.
    But if their work made the pollution worse, or degraded the 
site, then they should be responsible for that. But if they----
    Mr. Holt. Well, that is exactly the point. If they are 
involved in a site, then CERCLA applies, and if we exempt them 
from it, we couldn't say, well, you are exempted from it, but 
unless there is a problem five years from now. That would put 
them in an even more difficult position it seems to me.
    Ms. Skaer. Well, I think that you could do your baseline 
research so that you know what the water quality is going in, 
and sometimes it may not be improved, but if the water quality 
is not made worse by their activities, I think that you do have 
a measuring stick where you can determine whether or not CERCLA 
liability would be imposed.
    But someone who was not previously involved at the site, 
and had nothing to do with creating the initial problem, and if 
they come in and make some improvement, we believe--and whether 
they are a mining company, or a private company, or an NGO, a 
conservation organization, State or local government, that they 
should be able to be protected from that.
    Mr. Holt. And you are saying that the legal liability 
exemption should be the same for any kind of organization, 
whether it is a non-profit, a for-profit, or whatever?
    Ms. Skaer. Yes.
    Mr. Holt. All right. Now I understand. Let me turn to a 
point that I would like to clarify between Ms. Mittal and Ms. 
Burke. Is it an unresolved difference of opinion about whether 
there are adequate financial assurances, and adequate bonding, 
or is this something that the GAO has gone over with the BLM? 
Help me understand what seems to be a conflict here.
    Ms. Mittal. What my testimony was providing was examples of 
the types of issues that we have identified when we have gone 
and looked at BLM's financial assurances. During the course of 
our audit, the BLM officials told us that they would take steps 
to address our findings, and I was very, very encouraged from 
hearing from Ms. Burke that they have since done that.
    But what I was trying to do was to provide examples of 
every time that we have looked at the adequacy of financial 
assurances, we found that there has been a shortfall in the 
amount of financial assurances that BLM has.
    But throughout the course of the program, the Agency has 
been very responsive to our recommendations, and to our 
findings, and has made the program stronger.
    Mr. Holt. So, Ms. Burke, when you say the financial 
assurances are adequate, that is on the basis of the 
improvements that you have made since the GAO report?
    Ms. Burke. Yes.
    Mr. Holt. OK. I understand better now. Thank you. Thank 
you, Mr. Chairman.
    Mr. Lamborn. OK. Representative Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. For the BLM and the 
Forest Service, can you just briefly give us kind of a status 
check of the abandoned mine land or hazard inventory. I have 
heard that made reference to within the testimony, and where 
are we in terms of having an exhaustive inventory of what is 
out there?
    Ms. Burke. We are continuing to inventory sites every day, 
but we know that there are many sites that we have not 
inventoried, and we have chosen to focus our efforts on higher 
risk sites, and those that are closer to population centers, 
and recreation areas, where we expect there to be the public 
having access to those areas.
    But many of our sites are remote, and very difficult to 
reach. They may be overgrown, and so difficult to detect, but 
we know that the number does not include all of our--well, the 
number 31,000 is the number that we have actually inventoried, 
but we know that there are other sites.
    Mr. Thompson. So, there is a systematic process where we 
are looking for them, right?
    Ms. Burke. Yes.
    Mr. Thompson. And trying to document them?
    Ms. Burke. Yes.
    Mr. Thompson. Great.
    Mr. Holtrop. A very similar answer from the Forest Service. 
The numbers that I was using in my testimony provide a range of 
what we expect to find out there. Much of that is based on the 
work that has been done by the USGS, and we just utilize some 
of that information.
    Some of the type of information that we have in our 
inventory is that of those sites that the USGS inventory has 
helped us identify, some number of those, in the 9,000 to 
13,000 range, actually produced minerals, which more likely 
creates a situation where there might be health and safety 
issues, or the need for remediation work that needs to be done.
    So, that forms that inventory. The additional work that we 
are trying to do is to enhance our inventory procedure in the 
actual database that we have so that we are able to store the 
type of information that we need to be able to make more 
effective decisions in the long run.
    Mr. Thompson. All right. And in the State of Pennsylvania, 
most recently I visited what was a site that was tremendously 
scarred from coal mining, and we are probably talking 1880, 
deep mine, and then went to surface mining.
    Of course it has acid run-off, and really killed things in 
the stream, but through the use of remining, and today it is an 
active mine site actually, and interesting enough, the stream 
that runs through the site is pristine.
    The trout there are amazing. There was documentation done 
of that State Forest area that would show 80 percent of the 
game within a half-a-mile of the reclaimed site, because of how 
it was reclaimed. Is remining--how often is that utilized in 
accomplishing those kinds of objectives on BLM or Forest lands?
    Mr. Holtrop. I think that I probably need to get some 
technical advice to answer that. I don't know that off the top 
of my head. I do think that is one of those--again, if it is an 
abandoned mine land site, and there is either Clean Water Act 
or CERCLA liabilities associated with it, that is one of the 
issues that would cause it to not be something that gets done 
very often.
    Mr. Thompson. So, preexisting liabilities to be exposed to.
    Mr. Holtrop. Yes.
    Mr. Thompson. OK.
    Ms. Burke. We have some mining claimants that do go back in 
and remine the site, but we don't have numbers on that. But the 
numbers would not be very significant.
    Mr. Thompson. Well, the other innovations that I find in my 
area--because we do have a lot of coal from mine waste that has 
been sitting, and there are frankly some very regionalized and 
localized coal fire plants that have been scooping this stuff 
up and cleaning it up, and using it, and mixing it in ways with 
new technology for clean energy. I am going to yield the rest 
of my time to the Chairman.
    Mr. Lamborn. All right. Thank you. I would like a 
clarification because I am not sure that we are all clear on 
this, and I want to make sure that I am as well. CERCLA to me 
in one way is very draconian, because it has joint and several 
liability.
    You can have one percent exposure, but if everyone else is 
bankrupt, or can't be found, or doesn't have the money, you pay 
100 percent of the costs. Is that a clear understanding of how 
CERCLA works?
    Ms. Skaer. That is my understanding. What our members who 
practice CERCLA law on a daily basis----
    Mr. Lamborn. So, a deep pocket corporate--in other words, a 
viable corporation, if it even touches an abandoned site, and 
it turns out that everyone else heads for the hills, or has 
long since been bankrupt, they could end up paying hundreds of 
millions of dollars.
    Ms. Skaer. We actually have seen this in Butte, Montana, 
where ARCO in 1977 purchased the Anaconda Company. CERCLA was 
enacted, and they found out by virtue of their purchase of 
Anaconda that they had acquired all of these liabilities.
    And one of the--you know, the EPA and others held up Butte 
and the reclamation there as a success story under CERCLA, but 
the real success story there is that they happen to be lucky 
enough to have a very deep pocket oil company who had the 
revenue to pay for all the reclamation that has taken place.
    So that entire cleanup there, while it has been done under 
CERCLA authorities, has been done with a private entity paying 
the costs, and it has not fallen on the taxpayer.
    Mr. Lamborn. And, you see, that is something that on the 
State level--well, States go round and around on that all the 
time in tort law, and who has liability. Do they have more 
liability than their proportion of responsibility is what it 
boils down to.
    And CERCLA to me is draconian in that you can have 
minuscule exposure, but have 100 percent of the liability, and 
so it discourages anyone from even thinking about being a Good 
Samaritan.
    Ms. Skaer. There are some interpretations that if you even 
appear in the chain of title that you have acquired that 
liability.
    Mr. Lamborn. And are there any of these other Federal laws 
that we have referred to that is structured the same way, or is 
it mostly CERCLA?
    Ms. Skaer. I am not sure, Mr. Chairman. I could ask some of 
the lawyer members of our organization and get back to you if 
you would like.
    Mr. Lamborn. I would appreciate that.
    Ms. Skaer. I will do that.
    Mr. Lamborn. Consider that a question that we have 
submitted to you.
    Ms. Skaer. OK.
    Mr. Lamborn. And Members of the Committee may have 
additional questions for the record, and we would ask that you 
respond to those in writing. Mr. Holt.
    Mr. Holt. May I ask a 13 or 30 second question of Ms. 
Mittal. Would the GAO entertain a request to do a follow-up of 
the financial assurances since it should be a fairly quick 
follow-up to see whether the changes that have been made are 
following your recommendations.
    Ms. Mittal. We would be happy to work with you.
    Mr. Holt. It would be useful to have that update.
    Ms. Mittal. Sure.
    Mr. Holt. Thank you.
    Ms. Skaer. Mr. Chairman, if I might?
    Mr. Lamborn. Yes.
    Ms. Skaer. We circulated my testimony to our membership, 
and I received late an email from one of our members who 
indicated that his company has created a business model based 
on remediating and recleaning tailings at abandoned mine sites.
    And with your permission, I would like to submit a copy of 
that email to the record, because it could provide valuable 
information as we pursue how to take care of these AMLs. I was 
not aware that we actually had a company whose business model 
was focused on this.
    Mr. Lamborn. OK. Without objection, that will be put into 
the record.
    Ms. Skaer. Thank you.
    [The email follows:]

From: Dion Tulk [mailto:<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfaba6a0a190bbbaa3a48fbca0a3aebabda0e1aca0a2">[email&#160;protected]</a>]
 Sent: Wednesday, July 13, 2011 1:36 PM
To: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="513d223a303423113f263c307f3e2336">[email&#160;protected]</a>
Subject: Thank-you

Dear Ms. Skaer,

    After viewing your testimony for the upcoming oversight hearing 
``Abandoned Mined Lands: Innovative Solutions for Restoring the 
Environment, Improving Safety and Creating Jobs'', I felt it prudent to 
send you a quick note to say thank-you for your support.
    Your testimony really hits home with us.
    Solauro Industries is a private company with a business model 
focussed on reclamation and remediation of abandoned mine lands in 
Nevada. Our primary focus is on the reprocessing and remediation of 
tailings and mine waste on both private and public lands, as well as 
mitigating other hazards on abandoned mine lands such as open shafts 
etc. We have developed a solid business model which finances 
reclamation and remediation costs through the economic recovery of 
metals in tailings and mine waste dumps. We also have a very strong 
focus on creating economic development opportunities in rural 
communicates throughout Nevada.
    I don't need to tell you the struggles we face daily with the 
bureaucracy we must deal with, when at the end of the day all we are 
simply trying to do is be a ``Good Samaritan''.
    I applaud you for your actions.

Regards,

Dion Tulk
 Solauro Industries Inc. Tel: 888-920-MINE (6463) x100
 Fax: 888-921-MINE (6463)
 Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c9ada0a6a796bdbca5a289baa6a5a8bcbba6e7aaa6a4">[email&#160;protected]</a>
Shining a new light on the mining industry
www.solauro.com
                                 ______
                                 
    Mr. Lamborn. Thank you all for being here, and if there are 
other questions that are submitted to you, I would ask that you 
respond to these in writing. If there is no further business, 
and hearing none, the Committee stands adjourned.
    [Whereupon, at 5:08 p.m., the Committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
